<html>
<title> - [H.A.S.C. No. 113-84]FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 113-84]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                     FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                             MARCH 6, 2014


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-616                         WASHINGTON : 2015 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk



































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, March 6, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Request from the Department of Defense....     1

Appendix:

Thursday, March 6, 2014..........................................    59
                              ----------                              

                        THURSDAY, MARCH 6, 2014
FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2

                               WITNESSES

Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff, 
  U.S. Department of Defense.....................................     7
Hagel, Hon. Chuck, Secretary of Defense, U.S. Department of 
  Defense; accompanied by Robert Hale, Under Secretary of Defense 
  (Comptroller)..................................................     3

                                APPENDIX

Prepared Statements:

    Dempsey, GEN Martin E........................................    83
    Hagel, Hon. Chuck............................................    66
    McKeon, Hon. Howard P. ``Buck''..............................    63
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    64

Documents Submitted for the Record:

    Arrow Weapon System document.................................   104
    Mr. Forbes' chart, ``Timeline of the FY12-21 Funding Level 
      National Defense (050) Base Funding''......................   100
    Three charts displayed by Mr. Turner:
      US/Russian Stockpile Comparison............................   101
      The Approaching Delivery Platform Cliffs...................   102
      Funding of DOD Nuclear Capabilities Relative to DOD Budget.   103
    U.S. Department of Defense Annual Report on Implementation of 
      Executive Order 13595 and the U.S. National Action Plan on 
      Women, Peace, and Security.................................   107
    ``What Does $1 Billion Buy for DOD?'' chart..................    99

Witness Responses to Questions Asked During the Hearing:

    Ms. Duckworth................................................   146
    Mr. Kilmer...................................................   146
    Mr. Kline....................................................   145
    Mr. Rogers...................................................   145
    Ms. Speier...................................................   145
    Mr. Wittman..................................................   145

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................   162
    Mr. Bishop...................................................   151
    Mr. Coffman..................................................   166
    Mr. Conaway..................................................   161
    Mr. Cooper...................................................   151
    Mr. Enyart...................................................   166
    Mr. Kline....................................................   152
    Mr. Langevin.................................................   150
    Mr. Loebsack.................................................   157
    Mr. McKeon...................................................   149
    Mr. Palazzo..................................................   169
    Mr. Shuster..................................................   160
    Ms. Tsongas..................................................   157
    Mr. Veasey...................................................   170

 
                          [H.A.S.C. No. 113-84]

FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 6, 2014.
    The committee met, pursuant to call, at 9:35 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen.
    I would like to welcome Secretary Hagel, General Dempsey, 
and Mr. Hale here this morning, our comptroller. They will be 
testifying before the committee on the President's fiscal year 
2015 budget request for the Department of Defense.
    This will be kind of a truncated session because we have 
votes probably about 10 o'clock. So we are going to try to be 
as--expeditious, which means I am going to try to keep my 
remarks a little short.
    Thank you, each of you, for your willingness to do the 
same.
    The White House fact sheet on the key budget issues makes 
it clear that defense is not a priority in this budget. And 
while no one would argue that hard choices will have to be made 
in light of the budget caps, the President seems to want it 
both ways with this budget request and defense strategy.
    Instead of making the really hard choices, it delivers 
false promises. Instead of delivering a sustainable strategy, 
it simply adds risk to the existing one. This is not 
sustainable. And this mixed message is not one we want to send 
to our All-Volunteer Force, to our allies and partners, and to 
our adversaries who would seek to test our resolve.
    I recognize the tough position you are in and you didn't 
get to this budget on your own. Congress passed some laws that 
very much helped us get to this point. But we have to be 
working together. Congress has to be a partner in mitigating 
the damage and risks of the current budget trajectory. I hope 
today's testimony will bring clarity to these issues and enable 
Congress to do just that.
    On a final note, Mr. Hale's great work that he has done on 
this committee for years--this will be his last appearance 
before us, he hopes. He has been a man of great integrity, 
depth of knowledge, and has always been a straight shooter.
    And we appreciate your work, Bob. America appreciates it. 
You have the admiration of this committee.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 63.]
    The Chairman. Ms. Sanchez.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, again for being before us today.
    I want to thank the chairman for acknowledging that this 
budget that we have in front of us, or the top numbers that we 
are seeing, came from this deal that was struck just recently 
and that the President has tried to--has put forward the 
numbers that this Congress basically gave to him. He signed 
that into law just a few months ago, and here we are.
    So it just comes back to some very difficult decisions. 
There has been criticism from Members on both sides of the 
aisle, also from this committee, about how there is not enough 
money in defense. Well, we are the one that gave him that law.
    He is sticking to it. To his credit, he has given us a wish 
list, a shortfall piece there where he has talked about 
additional funding the Congress could put forward in order to 
make better decisions with respect to this defense budget.
    So I guess I just would like to say it is up to us to work 
with the President, both sides, to figure out are we going to 
raise taxes, what type of cutting are we going to do, is there 
going to be a BRAC [Base Closure and Realignment] process. And 
I know people don't like that--that word here--that acronym 
here, but it is dependent on us to ensure that we don't hollow 
out the force.
    You know, I was with the--I went to visit the 82nd maybe 
about 6 months ago and they were talking about what the budgets 
were doing. And they basically said, you know, ``We are on a 
timeline where we are the first defense to go out if we are 
called up, and our first line, our first group of soldiers, are 
ready to go and they are trained up.''
    But what is happening to the next round or the next phase 
of people coming forward is that they are getting less 
training. They are getting less preparedness. They are doing 
``mano a mano,'' if you will, individual things, training which 
is easier to do, but the comprehensive working with other 
units, working in other ways, going out into the made-up 
battlefield is not happening.
    And so we could end up, if this Congress doesn't take this 
seriously, with a budget that really makes our military weak in 
what we need it to do.
    So I look forward to hearing your comments today. And, 
again, I think these are hard decisions for us to make, but we 
need to make them, because we are the ones, Article I, Section 
8, that do this.
    Thank you, Mr. Chairman.
    And I will submit Mr. Smith's remarks for the record.
    The Chairman. Those remarks will be included in the record 
without objection. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 64.]
    The Chairman. Mr. Secretary.

   STATEMENT OF HON. CHUCK HAGEL, SECRETARY OF DEFENSE, U.S. 
   DEPARTMENT OF DEFENSE; ACCOMPANIED BY ROBERT HALE, UNDER 
               SECRETARY OF DEFENSE (COMPTROLLER)

    Secretary Hagel. Mr. Chairman, thank you to you and to 
Ranking Member Smith, Ms. Sanchez, for your comments, and to 
all the members of this committee.
    We very much appreciate an opportunity to appear before you 
and present the fiscal year 2015 budget and be prepared to try 
to explain not just the numbers, but also the reasons and the 
rationale behind the decisions that we have put forward to plan 
for our future and to associate that plan with the realities, 
yes, of the resources that we have, but, also, in coordination 
with the QDR [Quadrennial Defense Review], what was the 
strategy behind all of this. And we are prepared to do that.
    I also want to acknowledge Chairman Dempsey, Chairman of 
the Joint Chiefs of Staff, who has been a tremendous partner in 
this effort. I know this committee values his leadership and 
his service to his country, as we all do, and I just want to 
acknowledge his service and the vice chairman as well as all 
the chiefs and all of our military leaders.
    And with us today also is the senior enlisted member of our 
Armed Forces, and we very much appreciate our enlisted men and 
women who make it work, who make the system go.
    You have acknowledged Bob Hale's contributions, Mr. 
Chairman. I would just add that everything you said is 
accurate. I know this body deals in accuracy. And I wanted to, 
for the record, note that he has been as close to an 
indispensable element of our efforts, not just this year in 
putting together--it was a very difficult year, which we all 
went through 16 days of government shutdown and furloughs, 
uncertainty, no budget, continuing resolutions.
    But it was Bob Hale and his team that were really the 
anchor that kept all this together. And we will miss him 
greatly, but he deserves to escape, and we will keep his phone 
number handy for any future reference.
    Mr. Chairman, you asked if I would make a couple of brief 
comments about the current situation in Ukraine that obviously 
is dominating everybody's thinking and concerns today. And let 
me do that and then I will address my points in the opening 
statement regarding the budget and then ask Chairman Dempsey 
for his comments.
    Mr. Chairman, this administration's efforts have been 
focused on first de-escalating--continuing to de-escalate the 
crisis in Ukraine, supporting the Ukrainian Government with 
economic assistance, with a particular interest and focus on 
the diplomatic tracks, economic tracks, which we are doing.
    Secretary Kerry is currently in a meeting with Foreign 
Minister Lavrov. I think you all are aware of the news that 
NATO [North Atlantic Treaty Organization] met again, European 
Union met again today. OSCE [Organization for Security and 
Cooperation in Europe] has observers starting to get into 
Ukraine. Different decisions have been made by some of our 
European partners, one being the announcement yesterday of the 
European Union's $15 billion package of economic assistance to 
Ukraine.
    As you all know, Secretary Kerry noted we would commit a 
billion dollars. And I appreciate--and I know the President 
does--the Congress's early review of that $1 billion economic 
assistance package to Ukraine. And we are also focused on 
reaffirming our commitments to allies in Central and Eastern 
Europe.
    I strongly support these efforts, the way it is being 
handled, the steps the President has taken to apply both the 
diplomatic and economic pressure on Russia, and the continued 
collaboration, coordination with our European partners. This 
includes the new visa restrictions and an Executive order 
authorizing sanctions that the White House announced this 
morning.
    Earlier this week, as you know, I directed Department of 
Defense [DOD] to suspend all military-to-military engagements 
and exercises with Russia, and yesterday I announced a series 
of steps that we will take to reinforce allies in Central and 
Eastern Europe during this crisis.
    These include stepping up our joint training through our 
aviation detachment in Poland, and I was advised this morning 
that that continues to move forward. I visited Poland a few 
weeks ago, and we are going to augment our participation in 
NATO's ballistic air policing mission, and was advised this 
morning that we have six F-16s that have arrived in Latvia as 
of the last 24 hours.
    The events of the past week, I think to all of us, 
underscore the need for America's continued global engagement 
and leadership. The President's defense budget reflects that 
reality and it helps sustain our commitments and our leadership 
at a defining moment.
    Mr. Chairman, I believe this budget is far more than a set 
of numbers or just a list of decisions. It is both of those. 
But it is a statement of values and priorities. It is a 
realistic budget that prepares the United States military to 
defend our national security in a world that is becoming less 
predictable, more volatile and, in some ways, more threatening 
to our country and our interests.
    It is a plan that allows our military to meet America's 
future challenges and threats. It matches our resources to our 
strategy. And it is a product of collaboration. All of DOD's 
military/civilian leaders were involved in this process. As I 
noted, the chairman, the vice chairman, our service 
secretaries, our service chiefs, combatant commanders, senior 
enlisted, all at every level of our military leadership had 
input into this process.
    As we all know, America has been at war for the last 13 
years. And as we end our second war of the last decade, our 
longest ever, this budget adapts and adjusts to new strategic 
realities and fiscal constraints while preparing for the 
future.
    This budget is not--is not business as usual. We are all 
living at a very unusual time. It may well be, when history 
records this time, a very defining time. I don't think any of 
us, no matter how many years you have been in Congress, has 
ever worked through something like we are working through and 
have worked through the last 24 months of uncertainty, 
unpredictability, not just with resources and budgets, but how 
that ripples out and the consequences of that to every decision 
you make, I make, the leadership of this government makes.
    It begins to make the hard choices, the hard choices that 
will have to be made. The longer we defer these difficult 
decisions, the more risk we will have down the road, forcing 
our successors to face far more complicated and difficult 
choices in the future.
    Last year, DOD's budget was cut $37 billion because of 
sequestration on top of the $487 billion 10-year reduction 
under the Budget Control Act that DOD was already implementing.
    December's bipartisan budget agreement gave DOD some 
temporary relief, but it still imposes more than $75 billion in 
cuts over the next 2 years. And unless Congress changes the 
law, sequestration will cut another $50 billion each year 
starting again in fiscal year 2016.
    The President's 5-year plan provides a realistic 
alternative to sequestration-level cuts, projecting $115 
billion more than current law allows. DOD requires that 
additional funding to implement our updated defense strategy as 
outlined in the Quadrennial Defense Review.
    As you know, the QDR takes a strategy-driven look at the 
security landscape over the coming decades. This QDR is not 
budget-driven nor is it budget-blind. It builds on the 
President's Defense Strategic Guidance and is informed by our 
resource limitations. It defines the risk assumed both under 
the President's budget and under sequestration. Accounting for 
budget uncertainty and fiscal reality was the only realistic 
way to ensure a useful and relevant strategy.
    These are not ordinary times. The strategic priorities 
articulated in QDR represent America's highest security 
interests: defending the homeland, building security globally, 
deterring aggression, and being ready and capable to win 
decisively against any adversary.
    The funding levels in the President's budget let us execute 
this strategy with some increased risks, and we have been very 
clear about those risks in certain areas. These risks would be 
reduced if Congress approves the President's Opportunity, 
Growth and Security Initiative, a proposal that would provide 
DOD with an additional $26 billion in fiscal year 2015 to 
improve readiness and modernization. My submitted statement, 
Mr. Chairman, contains details of this initiative, which I 
strongly support.
    Although our 5-year budget plan exceeds sequestration 
levels, over the past year, DOD has prepared detailed planning 
for continued sequestration-level cuts. This showed that a 
return to sequestration would impose some force structure 
reductions that simply can't be implemented with the push of a 
button. It takes time to plan and implement. They require 
detailed planning and they require and need longer time 
horizons.
    Our 5-year defense plan, therefore, hedges and includes the 
sequestration-level force structure reductions that take 
longest to plan and to implement. The decommissioning of the 
aircraft carrier USS George Washington and the Army and Marine 
Corps end strength cuts below, below, our preferred levels. 
This was the responsible thing to do, given the uncertainty and 
the irregularity that has marked this budget process and the 
fact that sequestration remains the law of the land for fiscal 
year 2016 and beyond.
    Our preferred force levels are fully funded in fiscal year 
2015, and DOD leaders all agree that they can be sustained at 
the President's budget levels. Accordingly, I have issued 
formal guidance to service leadership that we will fund our 
preferred force levels, 440- to 450,000 Active Army, 182,000 
Marines, and 11 aircraft carriers, and not make these 
sequestration-level reductions if, if, we judge that Congress 
will fund DOD at the President's budget levels over the next 5 
years. DOD has a responsibility to prepare for all 
eventualities, just as Congress has a responsibility to provide 
DOD with some budget predictability.
    My submitted statement explains our budget details, Mr. 
Chairman, and the rationale behind all of our key decisions. 
But I want to before I close briefly address a couple of very 
critical issues.
    First, the balance between readiness, capability, and 
capacity. After more than a decade of long, large stability 
operations, we traded some capacity to protect readiness and to 
protect modernization. We did this as we shift the focus on 
future requirements, shaped by enduring and emerging threats.
    We have to be able to defeat terrorist threats and deter 
our adversaries with increasingly modern weapons and 
technological capabilities. We must also assure that America's 
economic interests are protected through open sea lanes, 
freedom of the skies and space, and deal with one of the most 
urgent and real threats facing all nations, and that is cyber 
attacks. That is why we protected funding for cyber and special 
operations forces.
    For the Active Duty Army, we proposed drawing down about 
440- to 450,000 soldiers. That is less than 10 percent below 
its size pre-9/11. I believe this is adequate. Our leaders 
believe it is adequate for future demand.
    We will continue investing in high-end ground capabilities 
to keep our soldiers the most advanced on earth. Army National 
Guard and Reserve units will remain a vibrant part of our 
national defense and will draw down by 5 percent.
    We will also streamline Army helicopter force structure by 
reducing Guards fleet by 8 percent. The Active Army fleet will 
be cut by 25 percent. But we will still maintain and keep these 
helicopters modernized as we move from a fleet of seven models 
to four.
    The Navy, for its part, will take 11 ships out of its 
operational inventory, but they will be modernized and returned 
to service with greater capability and longer life span.
    The Marine Corps will continue its planned drawdown to 
182,000, but will devote 900 more marines to increased embassy 
security.
    And the Air Force will retire the aging A-10, replacing it 
with more advanced multi-mission aircraft like the Joint Strike 
Fighter. The specific numbers and reasons for all my 
recommendations are included in the statement--my full 
statement.
    Regarding compensation reform, taking care of our people, 
Mr. Chairman, as everyone on this committee knows, means 
providing them with both fair compensation as well as the 
training and the tools they need to succeed in battle and 
always return home safely.
    To meet those obligations under constrained budgets, we 
need some modest adjustments to the growth in pay and benefits. 
All these savings will be reinvested in training and equipping 
our troops. And there are no proposals to change retirement in 
this budget.
    Let me clarify what these compensation adjustments are and 
are not.
    First, we will continue to recommend pay raises. They won't 
be substantial as in the past years--as substantial--but they 
will continue.
    Second, we will continue subsidizing off-base housing. The 
100 percent benefit of today will be reduced, but only to 95 
percent, and it will be phased in over the next several years.
    Third, we are not shutting down any commissaries. We 
recommend gradually phasing out some subsidies, but only for 
domestic commissaries that are not in remote locations.
    Fourth, we recommend simplifying and modernizing our three 
TRICARE programs by merging them into one TRICARE system with 
modest increases in co-pays and deductibles for retirees and 
family members, and encourage using the most affordable means 
of care. Active Duty personnel will still receive healthcare 
that is entirely free.
    The President's defense budget supports our defense 
strategy, defends this country and keeps our commitments to our 
people. However, these commitments would be seriously 
jeopardized by a return to sequestration-level spending. My 
submitted testimony details how sequestration would compromise 
our national security.
    The result would be a military that could not fulfill its 
defense strategy, putting at risk America's traditional role as 
a guarantor of global security and, ultimately, our own 
security.
    This is not the military the President nor I want. It isn't 
the military that this committee or this Congress wants for 
America's future. But it is the path we are on unless Congress 
does something to change the law.
    Mr. Chairman, members of this committee, DOD leaders and I 
look forward to working with you as we make the difficult 
choices, and there will be difficult choices to be made to 
ensure that America's security is there, will be there, and to 
ensure that we protect America's national interests.
    Thank you.
    [The prepared statement of Secretary Hagel can be found in 
the Appendix on page 66.]
    The Chairman. Chairman, do you have an opening statement?
    General Dempsey. I can submit my opening statement for the 
record if you need the time to allow the Members to ask 
questions.
    The Chairman. Votes have already been called. We are about 
5 minutes into the first vote, and it looks like we are going 
to be, like, 45 minutes. Could you just briefly summarize your 
statement. And then we will recess.
    General Dempsey. Okay.
    The Chairman. And then we will come back and get into the 
questions.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
              OF STAFF, U.S. DEPARTMENT OF DEFENSE

    General Dempsey. Okay. Thanks, Chairman, Ranking Member 
Smith, Members. I appreciate your teamwork in trying to help us 
work our way through not only our national security needs, but 
the resources available to meet them.
    Just want you all to know I am deeply engaged in our 
efforts to support the diplomatic approach to the resolution of 
Ukraine's crisis. I am engaged with our NATO allies. I have 
spoken both yesterday and today with my Russian counterpart, 
General Valery Gerasimov, and will continue to maintain that 
line of communication.
    Secondly, I just returned from Afghanistan, and I would be 
remiss, we would all be remiss, if we don't recall that we have 
got roughly 34,000 young men and women in uniform and many more 
than that civilians serving--continuing to serve in Afghanistan 
to ensure our continued security and, by the way, elsewhere 
around the globe, hundreds of thousands in more than 90 
countries. What I left Afghanistan reminding those who serve 
there is 2015 appears to be uncertain, but we have got a lot of 
work left to do in 2014, and you can be sure that we will.
    And that brings me to the budget. The balance between our 
security demands and our available resources has rarely been 
more delicate. The Secretary walked you through the measures we 
are taking in this budget to try to balance as best we can 
national security and fiscal responsibilities.
    And, Mr. Chairman, I will end there.
    [The prepared statement of General Dempsey can be found in 
the Appendix on page 83.]
    The Chairman. Thank you very much.
    We will recess until the last vote, and then I would ask 
all the Members to return as quickly as you can. We will get 
right into the questioning. Thank you very much.
    The committee stands in recess.
    [Recess.]
    The Chairman. Committee will come to order. I apologize. 
That 45 minutes grew to a lot more than that. I wish the budget 
would go up like that.
    I am going to go ahead and get started because your time is 
valuable and Members will be coming in. But I would like to 
have some clarification.
    You know, when we met--I think it was last week when you 
first rolled out the budget--you went through the numbers and 
we talked about the Army going down to 440,000.
    But as I have looked at the numbers, it appears to me that 
it really goes down to 420. The 440 is if sequestration goes 
away. I don't see any way that it is going away right now.
    I think we need to clarify the confusion.
    The budget--we have the base budget that we agreed to--that 
the Budget Committee agreed to in December where they worked 
out the numbers between the House and the Senate, signed by the 
President. We came to a top line. And that is what I think the 
base budget is.
    But then we also here talk of 115 billion on top of that 
that goes out, you know, for the next 4 years. But that is 
above the sequestration number. And then there is the 26 
billion that--or the 56 billion that would be 28 for defense 
and 28 for social spending, if some way something magical 
happened and we came up with some more money.
    But my understanding is the Senate isn't even going to pass 
a budget this year, that we are basically going to have the 
number that was agreed to earlier and signed into law.
    So I am really not paying much attention to the 115, and I 
am not paying much attention to that 58, because I think that 
in the realm of it would be wonderful, but it is not going to 
happen.
    So I think we really have to live within right now 
something that I hate, and I am sure you do, and I think most 
of the members of the committee do. But it is the law and we 
are stuck with it right now.
    So am I clear on that? Is that the way it is? And is the 
Army, based on that, going down to an end strength of 420 and 
the Marines going down to 175,000?
    Secretary Hagel. Let me respond, Mr. Chairman, and then I 
will ask the comptroller for his thoughts as well.
    Yes. What you have said as to what is in our budget request 
for 2015 I think is pretty clear. Based on the bipartisan 
budget agreement cap, the 26 billion that you refer to is an 
additional request to try to buy back some of the readiness and 
modernization that we have lost over the last 2 years because 
of the huge abrupt cuts. So that is one part of it.
    The next piece, the FYDP [Future Years Defense Plan]--take 
the next 5 years--the $115 billion additional request, which is 
the President's budget request, the plan that we have submitted 
along with that budget request does do what you said, factors 
in the reality of what the current law is now and reverts back 
to as far as reimposing sequestration in fiscal year 2016.
    Let me make one comment on why it was done that way, and 
then I will ask the comptroller for his thoughts.
    We didn't get any adjustment in our numbers, as you know, 
until December, until the Congress came up with a bipartisan 
budget agreement, which then subsequently the President signed.
    So all year long we had been preparing a budget based on 
the law, just as you said, the reality of that, which actually 
began--and we never ever stop putting budgets together, as you 
know.
    But when I first directed the Strategic Choices and 
Management Review back in May, that very much informed us, that 
process, as well as the QDR and so on, as to what kind of 
budget we were going to report and present, which the Congress 
wants it--you have always wanted it on time. So we were under 
that deadline. So December comes along. We get new numbers and 
so on and so on.
    Rather than going back and starting all over and replanning 
for a whole new set of FYDP plans based on some of these new 
numbers, what we decided to do was take those post-2016 plans, 
planning, just as you say, for the reality of we may go back to 
the law, sequestration.
    But we deferred the tougher decisions on the time it takes, 
Army end strength being one of it, carrier being another. I 
noted this in my opening statement and I go into considerable 
detail, Mr. Chairman, in the written statement.
    We can make those adjustments as we go along. The chiefs 
were part of this decision. I issued a formal memo on this this 
week. The chief supported it. They are in agreement with that.
    But let me stop there and see if the comptroller wants to 
add anything.
    Secretary Hale. Well, let me just briefly address fiscal 
year 2015, the only year you are going to focus on.
    Is this better? Okay.
    Let me just briefly address 2015, the year for which you 
will authorize and appropriate funds. In that year, we have 
fully--the Army will go down, if my memory serves me right, to 
490,000 by the end of 2015 and that we fully fund our ability 
in 2015 to maintain 11 carriers once the Ford comes in.
    So this is not an issue until the out-years. And then, as 
the Secretary said, because of the uncertainty because of the 
time to plan, yes, in a few cases, Army end strength, carriers, 
the out-years--far out-years of our 5-year plan do show decline 
to sequester levels.
    If we get an indication that Congress will appropriate at 
the higher levels, we will reverse that and go to our preferred 
force levels in later plans. But for 2015, it is not an issue.
    Does that help?
    The Chairman. Yeah. I think I understand it.
    I want to make sure the American people understand it. I 
want them to know what it is really right now so that they 
understand how bad it is and if we are going to be able to 
change sequestration--I think the American people are going to 
have to--I saw stories that seemed to get people's attention, 
taking the Army down to 440,000.
    I want them to know it is going down to 420,000 and then--
if they got upset with 440, they ought to really get upset with 
420. Then we ought to start looking for more resources to get 
that up to a better number.
    Secretary Hagel. Mr. Chairman, if I might, that is exactly 
why the President has asked for $115 billion more, to fulfill 
the strategies, the strategic interests, that need--that we 
need, the country needs, to protect this country, how we do 
that.
    And we say clearly this is about as transparent a process 
as I think has ever been run at the Pentagon. Everybody knows 
the risk and, if we get sequestration back, we risk a number of 
things, and the Army will go to 420,000.
    Now, tough, tough choices are coming here. You are going to 
have to help us make them. There isn't any way around it. You 
have so much of a budget, so many resources, as you and I know, 
and I think that is your point.
    The Chairman. I have heard that a genius is somebody that 
understands something after they have heard it six times. And I 
am no genius, and I just want to make sure that people really 
get it.
    Sometimes we chew on these numbers so much that we think 
that everybody gets it. And they may think that we have that 
$115 billion, or they may think that we have that $58 billion. 
And I want to make sure they understand, unless some law 
changes, we don't.
    Chairman, do you have a comment?
    General Dempsey. I just want to add briefly, Chairman, that 
I know you have had some concerns about the QDR and the thought 
that it was too resource-constrained.
    The Chairman. Some real concern.
    General Dempsey. No. I know.
    But I will say what the JCS [Joint Chiefs of Staff] have 
found useful--and that is probably the right word about the 
QDR--is that it is unconstrained in the sense that the budget 
and the $115 billion that is over the BCA [Budget Control Act] 
levels is a reflection that it is not resource-constrained. It 
is certainly resource-informed.
    And, beyond that, as you point out, Marine Corps and Army 
end strength is not accounted for anyplace right now. And so 
the QDR force that we have described is literally unconstrained 
by resources in the sense that we have given our best advice on 
what we think we need to meet the security needs of the Nation.
    The Chairman. The second part of my question is--I think I 
get where the money is right now and how the force is going 
down. There is talk of what our strategy is, and I really don't 
know what our strategy is.
    I think since World War II up until a couple of years ago 
it was fight two major conflicts at the same time. Then I think 
we went to fight one and hold one.
    Has there been any change from that, or is that our 
strategy?
    Secretary Hagel. That is part of the strategy. I had noted 
this in my opening comments, Mr. Chairman.
    But, first, we built the QDR off of the President's Defense 
Strategic Guidance that he issued, as you know, in January of 
2012.
    First priority is to protect the homeland. Another priority 
is to deter and defeat aggression globally. Another priority is 
global stability around the world and global security 
development globally. And the fourth is being able to defeat 
and, also, deal with a second front anywhere in the world, 
defeat an adversary and win a war globally and, also, deal with 
a second front, a second war.
    So when I say there are two pieces to that, I don't think 
you can measure a strategy just on that alone. We have added, 
for example, new capabilities, increased funding in cyber, in 
special operations, intelligence security, and reconnaissance. 
The world is more complicated. In many ways, it is more 
dangerous. But it is more decentralized. There are different 
kinds of threats.
    We plan for every contingency, large wars, every possible 
threat to this country. So we have tried to balance that with 
the force structure, the modernization, the readiness, the 
capability, that we thought we would need. And I think in the 
QDR we reflect that pretty clearly.
    The Chairman. And then, with this complication of how much 
more difficult the world has become, one of the things that I 
think you have spoken about is that we are taking more risk, 
and all I have heard is more risk.
    Can we explain that a little bit more, how that comes down. 
To me, more risk means, like we have done after every war going 
into the next war, we lose a lot more lives because we have 
taken ourselves down too far. And that--losing lives is what 
the risk is to me.
    Secretary Hagel. Well, we do lay out the specifics of that 
risk. And I will mention a couple and then this might be a good 
question for the chairman to respond to as well.
    We lay these things out pretty clearly, I think, not only 
in my longer statement and in the QDR, but, also, in just 
conversations we have had.
    The combatant commanders who will be up here--we have two 
of them over on the Senate side today. You have hearings 
scheduled for the next few weeks.
    The Chairman. We had three yesterday.
    Secretary Hagel. Three yesterday.
    They will lay these things out clearly, too.
    But, here, let me just take one general perspective on this 
and give it to you on what does this actually mean when you 
talk about risks. And then I will ask the chairman, if that is 
okay, to respond.
    Risks are more than just reducing numbers. It isn't just 
capacity. Part of it, it is the readiness of the force you 
have. Are they capable, ready, agile? Are they modern? Are they 
equipped? Do they need what they require? Can they be moved on 
time? Can we respond quickly all over the world to any 
contingency?
    Those are also part of the arc of the risk that--clearly 
that we would subject our military to, but our country to, the 
further down you take this budget because we won't have the 
resources to provide that modernization, to provide that 
readiness.
    We already know that from the last 2 years, especially the 
last year, when our Navy, Air Force, and Army, Marines, we are 
all cutting back on their readiness, training, and everything 
that goes with it, the support systems that go with it.
    So if that is a good jumping-off point generally, let me 
ask the chairman to respond to that as well.
    General Dempsey. Let me give you a brief answer in this 
setting and then commit to following up with you, because the 
issue of risk is a very complex subject.
    We generally measure risk in capability, capacity, and 
readiness. The capability of the joint force, how it works 
together, which is to say what can it do; capacity, how often 
can it do it based on the size of the force; and then the third 
one is readiness.
    And so the way I would describe the risk we face today is 
we have a significant near-term readiness risk that has been 
accruing--and we have testified to this before--that we are 
digging ourselves a readiness hole out of which it will take us 
several years to climb. So near-term readiness is the real risk 
we run.
    Eventually we can bring the force into balance where the 
money we are committing and investing--enough of it goes into 
manpower, enough into training, enough into readiness, enough 
into modernization, enough into infrastructure, we can bring it 
into balance.
    If we go to full sequestration, the risk we run there is it 
is too small, frankly. The capacity becomes the limiting 
factor. And I think we have articulated that as well as we can, 
but we will keep at it.
    The Chairman. I think one of the main reasons why we want 
the military to be so strong is it keeps us out of war. The 
deterrent is only a deterrent until it stops becoming a 
deterrent, and then we all pay a big price, especially those in 
uniform that are out there that have to do it. So thank you 
very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    And I want to particularly thank Under Secretary Hale for 
his service. It is probably the last time you will appear 
before us. And admit it. You will miss us. Okay. Probably not. 
But there are other aspects of the job I am sure you will miss.
    You know, in all seriousness, you have done a fabulous job 
and great to work with. And, gosh, I can't imagine more 
difficult times for the person who is supposed to look after 
the budget and try to figure out what is going on.
    And just following up on the chairman's remarks, actually, 
it is fairly clear. About 3 years ago this administration said, 
you know, looking out at the next 10 years, what should our 
defense strategy be.
    Now, we get into this interesting argument about whether or 
not that strategy should be at all informed by the amount of 
resources that you anticipate having.
    You know, I have long felt that it is just common sense 
that, of course, any strategy you are going to put together is 
going to be informed, at least in part, by the amount of 
resources that you anticipate having.
    You can put together a beautiful strategy, but if you don't 
have the money, you know, then that is not going to be a very 
effective strategy. But I will leave that debate aside for the 
moment.
    Just say whatever it was. Put together a strategy. And, you 
know, we had anticipated cutting--a decrease in the increase, 
really--roughly $500 billion over the course of 10 years and 
then built that strategy.
    Well, that was all well and good until the Budget Control 
Act came along and took another $487 billion whack out of the 
budget.
    And then, of course, sequestration hit for 2 years, a 
couple CRs [continuing resolutions], and you wound up with 
substantially less money than you thought you were going to 
have when you built that strategy.
    And I think what is reflective of this budget that the 
President has submitted is the fact that this budget in fiscal 
year 2015, but especially going forward with 8 more years of 
sequestration still on the books--that amount of money is not 
enough to adequately fund the strategy that the President and 
DOD would like to do, and that is why they put in $115 billion 
for the 4 out-years. That is why they said, ``Here is $28 
billion more we would like to have.''
    And, by the way, it wasn't just magical thinking. They did 
actually put in offsets for the 56, counting the other 
discretionary spending. They put offsets in and said, ``Look, 
if we could do it, if the law could be changed, we would like 
to not spend money here and spend $28 more billion on 
defense.''
    Sequestration and where we are at is going to be 
devastating to defense. But I will say that one of the things 
that harmed the ability of the American people to understand 
this is the fact that the message that has come out ever since 
a week ago, when the budget was first not quite released, but 
at least explained, when, Mr. Secretary, you sort of gave the 
outline of it, is the message from the Republican party has 
been Obama's cutting defense, you know.
    So the American people get the impression that: Look, there 
is not really a problem here. If the administration would 
simply choose not to cut defense, everything would be fine. And 
that is simply false.
    The administration has budgeted to the number that we all 
gave him. The chairman sort of acknowledged that just a moment 
ago. I wrote down the quote here. ``It is the law, and we are 
stuck with it right now.''
    So why, if that is the case, we continually hear 
Republicans saying the Obama administration is bound and 
determined to cut defense and that is all this is about--as 
long as you deliver that message, we got no hope in getting out 
of this because the American people will just say, ``Well, he 
can change his mind and we are fine.''
    No. Sequestration, the law of the land that we passed and, 
yes, the President signed--we are all in this together, but the 
top line is the top line. That is the number we have got. This 
budget does not choose to cut defense. It merely follows the 
law that has been passed.
    Now, I and, I think, a lot of people on this committee want 
to see that law change. I would turn off sequestration tomorrow 
without an offset. I think sequestration has been devastating 
to this economy and, more than anything, devastating to our 
national security.
    Now, I would prefer that we come up with some grand bargain 
and get tax increases and, you know, reductions in--find some 
way to have a better balance. But if I have to choose between 
where we are at now and simply turning off sequestration so we 
stop kicking the hell out of our defense budget and not, 
incidentally, our infrastructure and all manner of other 
important aspects of the discretionary budget, I would turn it 
off. But that is not going to happen, and I think the chairman 
acknowledges that. So we got the number we got.
    Now, the important thing about this hearing is going to be 
how this body chooses to approach what you guys have already 
approached. You have had to make the decision. You have had to 
put together a budget based on that top-line law of the land 
that is not going to change.
    You haven't had the luxury of the fantasy that we all have 
to imagine that somehow we can oppose every cut, offer no 
alternative cuts, and complain about the size of the budget.
    So, you know, you have made the decision on the A-10. You 
have made the decision on force structure, on mothballing 11 
cruisers, on a lot of compensation issues, including the 
housing allowance, some minor savings in the commissaries, a 
whole bunch of issues which are politically unpopular.
    And I hope, though I doubt this will be the case, that over 
the course of the next couple hours we don't just beat you up 
over every isolated one of those decisions. I hope that, if we 
say we don't like this decision, we will say, ``Well, here is 
what I would have done differently. Here is a cut that I would 
have made that would put the force in a better place.''
    Because I do not expect this body to simply rubber-stamp 
what you offered us. Not our job. We are supposed to exercise 
oversight, and if we disagree, we will make some changes. We 
had the whole Block 30 U-2 thing, and we disagreed. Now we are 
moving--and that is fine.
    But to simply say the administration is fecklessly cutting 
the budget and not offer an alternative is really going to spin 
us into the ground in all the ways that you just described. So 
I hope we have a more productive discussion on that.
    I will ask, of that series of things that--you know, you 
all are out there--of the cuts that have been made, did you 
consider alternatives?
    If we were to come along, for instance, and say--you know, 
I think it is 3.5 billion if we don't get rid of the A-10. I 
forget. It is like 4 billion, 5 billion for the cruisers.
    You know, let's take $10 billion of those cuts. And I will 
give you the thought experiment which we ought to be doing, but 
haven't to this point, and say, if you were going to get $10 
billion from some place other than those things that we just 
talked about, what else did you consider, and what might be an 
option?
    Secretary Hagel. Mr. Smith, thank you.
    We did. And we have presented some of those. I will just 
give you an example.
    On the $26 billion that we have asked for for increase in 
this budget--this top-line budget for fiscal year 2015, we 
would roughly take that money, if that is what you are talking 
about, and then the out-year money, too, if we could----
    Mr. Smith. No. That is not what I am talking about. Sorry. 
Maybe I wasn't clear there.
    What I am saying is: Accept the top line as it is. Okay? 
You have made the cuts that you have made. I am not talking 
about what would you add.
    I am talking about, if you get political pushback, for 
instance, to the tune of $10 billion, we won't retire the A-10 
and we won't mothball the cruisers, you know, we won't reduce 
the housing allowance, whatever--let's say that we--and I think 
the number is going to be a little bit higher than $10 billion 
that we want to whack out of it, unfortunately.
    But let's be modest for the moment and say we whack out $10 
billion of your cuts. What would you have to do? How would you 
make up that $10 billion?
    Secretary Hagel. Well--and I know the chairman wanted to 
respond as well--if it is a matter of whacking out, if that is 
your question, those decisions as to which programs, which 
platforms, where would you continue to take those $10 billion 
cuts or whatever, we have thought through that, and that is 
part of the risk that we talk about that we lay out.
    And I will ask the chairman to go into more specifics, but 
let me just generally make this comment, as I already have.
    We will have to continue to put our security and our 
ability to protect this country at risk because you are going 
to continue to take down the entire infrastructure which 
supports readiness, continues to give us a modernization edge--
--
    Mr. Smith. It is always helpful to see what readiness is. 
Basically, you know, you won't--General, why don't you take a 
crack at it.
    General Dempsey. Ranking Member Smith, we have tried to 
keep the joint force in balance. You know, you will hear some 
think tanks suggest, well, you know, get rid of a service or 
completely, you know, change the structure of our aviation 
capabilities.
    I would be happy to enter into the record a document here 
that is titled, ``What does $1 billion buy?'' It is just a menu 
of--so if you were to whack out $10 billion, you could get a 
sense, I think, for where we would have to go to find that.
    [The information referred to can be found in the Appendix 
on page 99.]
    General Dempsey. So here is just some examples. On the 
modernization side, $1 billion buys 10 Joint Strike Fighters--
that is an example--or 2 Littoral Combat Ships or 5 P-8s 
[Poseidon], 980 precision-guided munitions.
    And on the readiness side, a billion dollars pays for 12 F-
16 squadrons to maintain readiness for a year or 3 Army brigade 
combat teams readiness for a year.
    So we can tell you with some clarity--not some clarity--
with great clarity what we would have to do if you don't accept 
our recommendations. And then, you know, you will have to 
decide whether that is an even greater cost than the ones that 
we are proposing.
    Mr. Smith. That is exactly what I was looking for. Thank 
you very much.
    I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, it seems to me, regardless of how the 
overall budget issues are decided, it is a matter of some 
urgency for both of us to try to get more value out of the 
money we spend on defense.
    And I know there is lots of folks here who want to work 
with you to assist in reducing the overhead and bureaucracy 
costs of the Department, but the chairman and Mr. Smith also 
are interested in acquisition reform, taking the next steps to 
try to be smarter about the goods and services that we buy. We 
have had very positive discussions with Mr. Kendall, for 
example, in working together.
    But what I want to ask you is this. It looks to me like, to 
really get to the heart of some of the acquisition issues, it 
is more than Mr. Kendall's shop. It gets into personnel issues 
and a whole variety of things that, really, only at the top 
with some attention can these issues be solved. So lots of 
demands for your time and attention, I realize.
    But my question is: Is improving our acquisition system one 
of those things that you think is important enough for you to 
devote personal attention to trying to make it happen, working 
with both the House and the Senate to get more value out of the 
money we spend?
    Secretary Hagel. Congressman, it is. I have made that a 
priority. The Under Secretary of Defense for Acquisitions, Mr. 
Kendall, who, as you appropriately note, has been working very 
closely with this committee, as well as in the Senate, on this 
issue, meets with me once a week on this particular issue.
    I get a briefing from him. He goes over where we are, what 
have we done, what have we accomplished, Better Buying Power, 
all the different programs that are now in place.
    We can do better. We must do better. We have put a 
particular focus on efficiency. I didn't just start that. As 
you know, Secretary Gates was focused on it. Panetta was 
focused on it. I am focused on it. We have to do that.
    I think Secretary Kendall is doing an extremely effective 
job at this. We have structured that Department. He has 
restructured it. It is across the board. It is everything we 
are doing. And part of that is driven, of course, by the 
realities of resource restraints.
    Mr. Thornberry. Sure.
    Secretary Hagel. But you have to do it, and we are doing 
it.
    Mr. Thornberry. Well, I appreciate that. As I say, I think 
it is going to require your attention to overcome some of these 
obstacles because there is just going to be a reluctance to 
change.
    General Dempsey, let me change the subject completely.
    There are some people, as you know, who express admiration 
for what Mr. Snowden has done and his illegal disclosures. Most 
people don't realize that a lot of what he has disclosed has 
nothing to do with NSA [National Security Agency], but it has 
to do with our military.
    So in this setting, can you describe, as best you can, what 
damage his disclosures have done to our military and how much 
it is going to cost to fix them.
    General Dempsey. The candid answer is we don't know yet. 
But let me tell you what we do know.
    The vast majority of the documents that Mr. Snowden 
exfiltrated from our highest levels of security--the vast 
majority had nothing to do with exposing government oversight 
of domestic activities. The vast majority of those were related 
to our military capabilities, operations, tactics, techniques, 
and procedures.
    We have got a mitigation oversight task force that the 
Secretary of Defense has chartered where, with other agencies 
of government, we are working our way through that which we 
believe he has exfiltrated--and we have, I think, a fairly 
significant amount of knowledge in that regard--and looking at 
the--red-teaming it, if you will, looking at what it could be 
used for and trying to mitigate the effects.
    The mitigation task force will need to function for about 2 
years. That is the magnitude of this challenge. And I suspect 
it could cost billions of dollars to overcome the loss of 
security that has been imposed on us.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Mr. Chairman.
    And thank you again, Secretary Hagel and General Dempsey, 
for being before us.
    I understand that the Department had to work with the 
budget that the Congress set for you, and I understand also 
that, under such budgetary constraints, you have to make 
tradeoffs.
    However, while the President proposes cutting the National 
Guard and Reserves, reducing commissary services, retiring 
aircraft and reducing the U.S. military's end strength, some 
cuts of which I agree with and some I don't--especially when we 
see the real details, we will be able to tell better--the 
Department of Defense continues to make an exception for 
nuclear weapons spending.
    According to the CBO [Congressional Budget Office], between 
2014 and 2023, the cost of the administration's plans for 
nuclear forces will total over $355 billion. And, as we know, 
the United States has the largest arsenal of nuclear weapons.
    And I find it extremely disturbing that we are continuing 
to spend such significant amounts on nuclear weapons when we 
have more than enough to meet our national security needs.
    I don't know about my colleagues, but I would rather keep 
my National Guard and Reserves than have another round of 
nuclear weapons built.
    And so if you can both comment on that and provide this 
committee with an answer on whether you believe nuclear 
nonproliferation activities are important.
    Because this 2015 budget continues at least to demonstrate 
to me that the Department doesn't give it a high priority. You 
have cut again GTRI [Global Threat Reduction Initiative], and I 
am concerned about the non-proliferation programs.
    If you could answer that, I would like that.
    Secretary Hagel. Thank you, Congresswoman.
    First, let me just make a general comment about the 
prioritization of the budget and where we cut and the 
priorities we have made.
    As General Dempsey just noted, as I noted in my opening 
statement, we came at this from a balanced perspective, how do 
we balance our forces, our modernization, our research, our 
technology, our people, the obligations we have to the people, 
our commitments around the world. So that is first.
    Specific to your nuclear question, first, nuclear weapons 
have been--I think most everybody agrees our ability to possess 
nuclear weapons and the capability that it has brought us has 
probably done as much to deter aggression, nuclear deterrence, 
and the start of a World War III as any one thing, other 
things, too.
    The safe, reliable, secure, and ready maintenance and 
posture of those nuclear weapons that we do have and which have 
been coming down, as you know, through a series of treaties, 
the most recent being the new START [Strategic Arms Reduction] 
Treaty, which the Senate, as you know, ratified just a couple 
of years ago, continues to reduce our nuclear warheads and 
delivery mechanisms. We are complying with that new START 
Treaty now.
    We are doing the things that we believe we must do to 
maintain that safe, secure, ready nuclear force, at the same 
time balancing all our other interests as well, but it is an 
important part of our arsenal, the triad system that has been a 
significant deterrent in the world since World War II.
    But that doesn't negate the efforts on non-proliferation. I 
think the President's position has been very clear on this. 
That said, we live in the real world that we live in; so, I 
think we have balanced this about right.
    I don't know if you want to add anything to that.
    General Dempsey. Yeah. I think you wanted my insights as 
well. And I speak in this regard on behalf of the joint chiefs 
because, of course, we have discussed and debated this among 
ourselves. And I think we have allocated an appropriate and 
adequate amount of money into non-proliferation in our budget.
    And in terms of the nuclear arsenal, we are firmly 
committed--our recommendation is to remain firmly committed to 
the triad, the three legs of the nuclear capability, and that 
any further reduction should be done only through negotiations, 
not unilaterally, and that we should commit to modernizing the 
stockpile while we have it.
    Ms. Sanchez. I look forward to delving deeper into this 
subject. Thank you.
    The Chairman. I just, based on your question, told the 
staff that we need to have a classified briefing. And that will 
be open to all members of the committee. I think it is time 
that we have that again.
    Mr. Forbes.
    Ms. Sanchez. And, Mr. Chairman, I ask that I get an 
opportunity to sit on that strategic force because I think it 
would be very interesting for everybody to really figure out 
what is going on. Thank you.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Gentlemen, thank you all for coming here. We 
just wish we had more time to listen to you.
    And, Mr. Secretary, I know you had limited time to talk 
about the funding and, if you had more time--because I know you 
pointed out the $37 billion of sequestration and the impacts on 
there.
    I note, if you had had more time, you would have probably 
talked about the $778 billion of cuts the administration took 
before sequestration, $291 billion in what they called self-
imposed efficiencies, and then $487 billion.
    We are going to give you this chart that the House staff 
prepared and ask if you would reply back in writing if any of 
those numbers are incorrect.
    [The chart referred to can be found in the Appendix on page 
100.]
    Mr. Forbes. Second thing is: I have heard kind of this 
movement of the President's just complying with the law. But in 
point of fact, this budget is $115 billion above the law.
    And then I hear that the President is trying to get his 
defense strategy, but this budget is actually $345 billion less 
than the budget submitted for the defense strategy in 2012, 
which the chairman testified then, on April 19, if we cut one 
more dollar, we couldn't do the defense strategy.
    So at some time if you would just respond back to us in 
writing as to whether my numbers are incorrect.
    [No answer was available at the time of printing.]
    Mr. Forbes. Second thing: If you would let us know 
anytime--because I just must have missed the hearing--I wasn't 
there--that the administration on any of the $778 billion of 
cuts ever expressed concern and said, ``This is too many cuts. 
We shouldn't be doing those.'' If you would get back to us on 
those.
    Chairman Dempsey, I would like to ask you--I am concerned 
because, when this administration came into office, the 
Russians asked us to take our missile defense systems out of 
Europe. We did it. We can turn on the TV [television]. Didn't 
work too well for us.
    Second thing I am concerned about now is we have had three 
administrations, including the Obama administration, when 
looking at the anti-personnel mine ban convention, which is the 
Ottawa Treaty, has said that would be bad for us from a 
strategic point of view, including this administration in 2009.
    Clinton administration actually said that those mines were 
an integral component of U.S. capability to deter and defend 
South Korea from North Korea.
    My question to you is: In your best professional military 
judgment, what advice could you give this committee about the 
military impact if we were to sign that treaty?
    General Dempsey. Summit Ottawa, the convention on land 
mines, I have rendered my military advice that I consider land 
mines, especially the ones that we have, anti-personnel land 
mines, and the way we have designed them, that is to say, self-
destruct--they can be set for 4 hours, 48 hours or 15 days and 
then they self-destruct--that I consider them to be an 
important tool in the arsenal of the Armed Forces of the United 
States.
    Mr. Forbes. And, Mr. Chairman, can you tell us whether or 
not there has been a military assessment that has been done at 
the Pentagon, any white papers that have been written, on the 
importance of those land mines or the impact this treaty would 
have, if we were to sign it.
    General Dempsey. Yes, there have. And, importantly, you 
point out the currency of the threat on the Korean Peninsula, 
and that has been factored in as well.
    Mr. Forbes. And could you share either on a classified or 
unclassified basis with this committee that paper so we can at 
least look at that assessment and what it would be?
    General Dempsey. I will take your request as an official 
request and respond accordingly.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Forbes. Thank you.
    And one last question: Mr. Chairman, has anything changed 
between 2009 and today that would render our use of those mines 
any less important than it was in 2009?
    General Dempsey. My military judgment is actually that the 
tensions on the peninsula have increased.
    Mr. Forbes. Good.
    With that, Mr. Chairman, I yield back. Thank you.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for your leadership.
    Mr. Hale, best wishes to you.
    Yesterday in a hearing we had basically an oversight 
roundtable discussion with Secretary Flournoy, with General 
Mattis, and Dr. Dale, and they all expressed concern over the 
absence of a kind of whole-of-government national strategy.
    Now, we know that we have--I think we have a better whole-
of-government approach amongst the agencies today. But when we 
talk about strategy, is there collaboration between the QDR and 
the QDDR [Quadrennial Diplomacy and Development Review], the 
State Department's Quadrennial Defense Review?
    And how can we work better with you all to really define a 
national strategy better that would inform the discussion that 
we are having right now?
    Secretary Hagel. Congresswoman, the QDR, as you know, 
prescribed by Congress, which is law, is a Department of 
Defense-oriented assessment, strategic review, analysis, 
focused on our Department of Defense strategies.
    That does not disconnect from the rest of the so-called 
whole-of-government environment that we deal with, too, but it 
is a prescribed DOD document.
    Now, the QDR aside, we meet all the time in deputies 
meetings and the National Security Staff agency at the White 
House, the principals National Security Council, our people--
State Department, intelligence agencies, Department of Energy, 
Department of Homeland Security, Department of Treasury.
    We have connecting areas of responsibility that overlap in 
the whole of government all the time. So that is something that 
is actually becoming more and more a reality if for no other 
reason than the kind of world that we live in.
    Mrs. Davis. I think there is a recognition of a better 
working relationship surely, but I guess, when we talk about 
national security and how that is reflected in what we are--you 
know, as we move forward and with our budget, they are 
suggesting that they don't think it is there, and I think 
others have as well.
    So to the extent that we can improve upon that, it might be 
helpful and it might help us better define, you know, whether 
it is resources and budget.
    I mean, what is the goal? I think there seems to be a 
concern that perhaps at least this QDR doesn't reflect it as 
well as it should.
    Thank you.
    I also wanted to ask you about prioritizing the cuts to the 
military personnel that were proposed in the President's 
budget.
    I am wondering, of those cuts, what would be simply non-
negotiable and--in an effort to protect our readiness? And, in 
fact, how do we set assist those non-negotiable discussions 
with keeping faith with our force, which we all, of course, 
feel very strongly about doing?
    Secretary Hagel. First, of course, we need a force 
structure that is capable of protecting this country, of 
fulfilling the missions that we have asked our Department of 
Defense, specifically our services, to fulfill. So we are 
close, I think, to your question, to your point about non-
negotiable, kind of bottom line here.
    And we have talked about this in the risks that we lay out 
on the continued budget restraints--resource restraints. We are 
talking about the Army, 420,000. The reality of that may be the 
recommendation we make. That is getting us perilously 
dangerously close to a line here that none of us want.
    There are lines, as I think you are implying here, in every 
service, all the platforms, that really, really violate the 
ability to protect this country. And we lay those risks out in 
the QDR and in my statement and in connecting documents with 
the budget.
    Mrs. Davis. Thank you.
    And I certainly hope you would continue to do that. I think 
it was very clear, and I would encourage the kind of discussion 
that we had earlier about, you know, what does it take.
    We know that the committee for a number of reasons has 
ignored recommendations----
    The Chairman. Gentlelady's time has expired.
    I am going to have to watch this real close because we are 
going to be at a hard stop at 1:30, the next vote.
    General Dempsey. Can I take 20 seconds, Mr. Chairman?
    I will tell you what I think would be unacceptable, if we 
continue to kick this can down the road, believing somehow that 
it will somehow be solved by our successors when, in fact, 
because we are kicking it down the road, not making the kind of 
tough decisions we need to make collaboratively, we are eating 
away at the Nation's readiness for conflict, which does reduce 
our deterrent capability.
    The Chairman. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Secretary, General, everyone has been thanking you for 
being here. I would like to say the same thing, except, to be 
honest, I can't find anything in this budget for which I am 
thankful.
    But, General Dempsey, if I could ask you first.
    Based on the nuclear posture review, the QDR, and even the 
new nuclear employment guidance, I am under the assumption that 
perhaps the debate is over, that the administration, the chiefs 
and you all agree now that maintaining the nuclear triad 
because of its advantages for our defense as well as deterrence 
is the approach--is definitely the approach.
    Am I correct in that assumption, for the record?
    General Dempsey. For the record, I can speak for myself and 
the joint chiefs. And you are correct.
    Mr. Bishop. Thank you. That is important.
    Can I ask, Mr. Secretary, in this budget, our land-based 
ICBMs [intercontinental ballistic missiles] will start aging 
out in 2020. And I find nothing in this budget for the Air 
Force that will actually give a follow-on effort to sustain 
them.
    What does the administration plan to do, if anything, with 
what appears to be a widening gap between the U.S. and other 
nuclear nations in modernizing our nuclear capabilities, 
especially post-2020?
    Secretary Hagel. Well, it is not because we don't believe 
that it is necessary. It is an area that we have given 
considerable attention to. We will continue to do that.
    We focused this budget on where we thought our most 
significant priorities were as we, to your point, age out. And 
I just recently visited some of those sites when I was in 
Sandia a couple of months ago.
    So I am very much aware----
    Mr. Bishop. So you are telling me there is not a specific 
plan right now post-2020?
    General Dempsey. We have not laid it out.
    Mr. Bishop. All right. Is it the assumption or the 
presentation of the Department of Defense that retiring the A-
10s is a budget-saver?
    Secretary Hagel. Yes.
    Mr. Bishop. Then, isn't it true that, if you are doing 
close air support missions, that the fighter platform is more 
expensive per hour than the A-10?
    Secretary Hagel. I am going to let you hear also from the 
chairman, but let me respond to that.
    There are many considerations that we had to give. And, by 
the way, this was a recommendation by the Air Force and by a 
former A-10 pilot, the chief of staff of the Air Force. I know 
he will be up here and you will have an opportunity to ask him 
specifically that question.
    But the entire realm of consideration when you talk about 
vertical cutoff of a 40-year-old platform versus a more modern 
and versatile platform for our future were all considerations, 
and it does factor in every dynamic of the question.
    But building to the future, I will let the chairman add to 
that, too.
    General Dempsey. Congressman, the A-10--the Chief of Staff 
of the Air Force is trying to reduce the number of platforms in 
his inventory.
    And every time you reduce a platform, you reduce the 
logistics tail and the infrastructure associated with it, which 
is a significant cost savings.
    There are many other platforms that can deliver close air 
support, and that has been the judgment of the Air Force, and I 
support it.
    Mr. Bishop. Thank you. You have answered the question in a 
roundabout way.
    Let me come up with another couple of things. I will make 
these quick questions if you give me quick answers.
    Is it the position of the Department that moving the Apache 
combat aircraft from National Guard to the Active Force is a 
money-saver? And have you done a cost-benefit analysis of it?
    Secretary Hagel. Yes.
    Mr. Bishop. You have done the cost-benefit analysis?
    Secretary Hagel. We have done that. But what is the whole 
point behind having an attack helicopter, that analysis, as to 
the readiness and the use and where they are most effective, 
that was also a significant part of the decisions that we made.
    Mr. Bishop. All right. I am on my yellow sign here; so, I 
am going to try to do these last two very quickly.
    Sometimes there is talk about a BRAC. In absence of 
congressional reauthorization for the BRAC process, does the 
administration intend to effectuate any kind of BRAC action 
independent of congressional action?
    Secretary Hagel. Well, first, we will follow the law. As 
you probably know, in Title 10--I think it is section 2687--the 
Secretary does have some authorities in reorganizing different 
bases. We need a BRAC. We can't continue to carry overhead we 
don't need. We----
    Mr. Bishop. So the answer was you may do something without 
congressional reauthorization?
    Secretary Hagel. As I said, I will follow the law, but I 
have authority now, Congressman.
    Mr. Bishop. I have 10 seconds. I will throw this out and 
ask for a written response some other time.
    Number one, I would like to find out, in BRACs in the past, 
how much of those lands that have been BRACed have actually 
gone into private sector versus simply being given on to a 
taxpayer in another unit, as in the Park Service, et cetera?
    And I will ask you about sequestration later because I am 
out of time. Sorry.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, Secretary Hagel, 
Chairman.
    And, Mr. Hale, thank you for your service, and I wish you 
all the best as well.
    Mr. Secretary, if I could start with you, I want to focus 
first on cyber and Cyber Command.
    In January, four military officers from the four services, 
all fellows with the Center for a New American Security, 
drafted a report noting that, ``In the cyber domain''--and I 
quote--``the services risk building similar capabilities in 
different ways to conduct the same mission with significant 
duplication and overlap,'' end quote.
    Do you believe that the DOD is appropriately structured to 
avoid this concern? And what effect would the potential 
elevation of CYBERCOM [Cyber Command] to the status of a 
functional combatant command might have on those concerns?
    Secretary Hagel. I do believe that we have a cyber 
oversight structure at the Pentagon that is appropriate with 
the right people, competent people. It is something that I pay 
a lot of attention to.
    Cyber Command is an integral part of our system, of our 
structure. Whether it should be a combatant command, I will ask 
for a recommendation, if that should come, from the Chairman of 
Joint Chiefs. But right now I have confidence in the system and 
the structure we have
    General Dempsey. Congressman, I am not concerned that we 
are building redundancy. Our task at building out our cyber 
forces is so significant that we have had--we, of necessity, 
have had to do it through the services.
    At some point in the future, we might adapt. But, for now, 
I am quite confident we are doing it the right way, to include 
what we need here for a national mission force and, also, to 
support combatant commanders.
    Secondly, on your question about whether it should be a 
unified command or a functional command, the greater good, in 
my view--our view, the joint chiefs, was to keep CYBERCOM dual-
hatted with the National Security Agency [NSA]--and, therefore, 
we considered that to be more important--and leave CYBERCOM 
subordinates to STRATCOM [U.S. Strategic Command]. I think we 
are in a pretty good place right now.
    Mr. Langevin. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, on those.
    And I will follow those closely. So thank you for your work 
on that.
    Mr. Secretary, the Quadrennial Defense Review released this 
week states that we will seek to sustain priority investments 
in science and technology, research and development both within 
the defense sector and beyond.
    So, with that, I am certainly pleased to hear this 
emphasis, and I believe that we share the same commitments to 
future capabilities, such as directed energy weapons, 
electromagnetic rail guns, and advanced cyber and space 
capabilities that, obviously, would be so critical to our 
ability to project power in the future.
    However, I am very concerned about the pressure that budget 
cuts right now are placing on our R&D [research and 
development] priorities. And what I wanted to know is--and how, 
of course, that might affect the agility of our development 
system, the balance between service, lab, and industry-funded 
research and whether it might cause the Department to become 
increasingly risk averse when it comes to new technologies.
    Could you speak to the health of our defense R&D ecosystem 
and what areas cause you concern?
    Secretary Hagel. First, the area of research and 
development, technology, science, the focus that the Pentagon 
has always put into that budget, it is a high priority, will 
continue to be a high priority, must be a high priority, 
because it is there that, really, the laboratory of all these 
ideas has to begin. It is the incubator. It is how everything 
in life starts in technology.
    If we don't prioritize that, long term we run a big risk. 
And I don't think any of the leaders at the Pentagon, certainly 
not this Secretary of Defense, would jeopardize our security. 
So it is that way. So it is a priority. It will continue to be 
a priority. It is funded with, we think, an adequate budget.
    On other areas that bother me in liabilities and risks, it 
is the uncertainty part as much as anything else that we have 
been dealing with in our planning----
    Mr. Langevin. We are not sacrificing future R&D right now 
because of a tight budget?
    Secretary Hagel. No, we are not. I mean, we can go through 
the specific programs, but I think I list those pretty well, 
where the risks are, what my concerns are.
    Secretary Hale. It grows slightly in this budget, and 
anything that grows at all in this budget stands out.
    Mr. Langevin. Thank you all. I yield back.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you to the witnesses, being here today.
    To any of you--any of the three of you down there, did you 
in the course of the Strategic Choices Management Review or 
budget preparation or any other analysis--did you ask for or 
generate plans to consolidate COCOM [combatant command] 
headquarters?
    General Dempsey. We have taken a look at the Unified 
Command Plan, the geographic combatant commands and the 
functionals, and our judgment at this point was that we needed 
to retain the current structure. However, they are subject to 
the 20 percent manpower reductions that the Secretary imposed 
last year.
    Mr. Kline. Well, I appreciate the manpower reduction piece, 
but that doesn't really get at the heart of the issue, from my 
perspective.
    We have built a lot of commands over time, and we were just 
talking about Cyber Command and co-locating it--or dual-hatting 
it, I think is the correct phrase, with NSA. We created AFRICOM 
[U.S. Africa Command] at a time of adequate financial 
resources. We are having a little difficulty finding a home for 
it.
    But it does seem to me that, in times like these when we 
are looking at sequestration and really tight budgets, that it 
would make sense to look at consolidating some of those four-
star commands, those COCOMs. And so you have answered my 
question.
    And what I would like to be able to get from you at some 
time is a look at what that planning is. I really, really think 
it is time because we are not in a time of adequate financial 
resources. In fact, that is the whole gist of all of this 
discussion here today. Times are really, really tight and, yet, 
we have quite a significant number of them.
    So I would ask for that information, if you can get that to 
me. That is an official request. Please get that to us.
    And with that, Mr. Chairman, I yield back.
    [The information referred to can be found in the Appendix 
on page 145.]
    The Chairman. The gentleman yields back.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman, to the Secretary, to 
the General, and Mr. Hale, we will miss you.
    I hope this committee will not blame the Pentagon for 
obeying the law, because Congress made up the budget, and all 
of us would like it to be larger, more flexible, but this 
committee so far hasn't shown it is willing to do more than to 
blame the administration for budget cuts that Congress has 
passed.
    At last year's markup, we didn't even use the real budget 
numbers. We used the sequestration-free numbers, the imaginary 
numbers, the fantasy numbers.
    It is almost like magical thinking. So I hope that this 
year, we will be more realistic and join with the Pentagon in 
trying to make the hard decisions that need to be made so that 
we can have a maximum warfighting capability on whatever budget 
Congress comes up with, because let me remind my colleagues, we 
could have a larger budget if we had the courage to vote for 
it. We could find the savings in other places. We could have 
additional revenues, but that is what is lacking is 
congressional courage. So let's not blame the witnesses. They 
are doing the best they can under very difficult circumstances.
    One of my colleagues asked questions about the BRAC 
earlier, the extent to which the Pentagon had flexibility to 
make base closing decisions on its own. BRAC is one of the most 
visible areas in which we in Congress have tied the Pentagon's 
hands, because there is surplus capacity in our defense 
establishment. Some of it the Pentagon officials have been 
urging there would be reductions for for years, and yet, in 
some cases, we even prevent the study of such savings. That is 
truly amazing.
    So not only can we have whatever budgets Congress is 
willing, brave enough to pass, we can offer more flexibility to 
the Pentagon so that you can make maximum effective use of the 
dollars that you do have. And so often, for parochial 
interests, this committee refuses to allow you that freedom. 
That is wrong.
    So would the witnesses be kind enough to give me an 
estimate, a rough estimate of the overall surplus capability 
that the Pentagon now has that could possibly be downsized, 
reduced appropriately, taken off our hands by a BRAC-type 
process?
    Secretary Hagel. We can provide that, Congressman, and I 
appreciate your comments, and we will provide it.
    And Mr. Chairman, we would be very happy to provide it----
    Secretary Hale. I can give them to you.
    Secretary Hagel. We have got a bottom line number.
    Mr. Cooper. A bottom line number would be great from Mr. 
Hale, his valedictory comment.
    Secretary Hagel. I think you are going to want probably 
some sense of how we arrived at that, too, which we will 
provide.
    Secretary Hale. So we can't put it in for BRAC, but if we 
go back to the studies that were done just before the last 
round, we knew we had about 25 percent infrastructure that 
didn't get eliminated in the last round of BRAC. It is probably 
higher now. But I agree with the Secretary; we will give you a 
better number.
    Mr. Cooper. I have heard the 25 percent number for years. 
That is a lot of surplus capacity. And just because it is 
located in someone's State or congressional district doesn't 
mean that should be immune from a sensible process of 
strengthening America's defenses. I have heard from defense 
contractors, as most of my colleagues have, that it is not so 
much the cuts they are worried about, it is the lack of 
flexibility in implementing the budget.
    So why don't we untie the hands of our own Pentagon, so 
that you can be all that you can be, so that you can be as 
effective as possible? That is really the responsibility of 
this committee and of the Armed Services Committee in the 
Senate. And we all can do better if we claim to be proponents 
of strong national defense, of allowing you the tools and the 
flexibility to have a strong national defense. We should not be 
the obstacle on this committee to having the Pentagon be 
capable of maximum effectiveness.
    So there are a number of issues that we could get into. I 
am on the subcommittee that does strategic forces. Let me 
remind my colleagues that just to maintain our nuclear 
establishment, the triad, for example, that is so beloved, that 
is a $355 billion obligation in the coming years according to 
CBO; $355 billion, just for what is considered an actually 
relatively small element of our Pentagon's finances.
    So we in Congress need to be preparing for those 
obligations to be met and fulfilled and possibly even exceeded. 
But this Congress so far does not have the ambition to do the 
job that I think most folks in our Nation want to see this 
Congress do. So if you want to blame anybody, all this 
committee needs to do is look in the mirror.
    Thank you, Mr. Chairman.
    The Chairman. Just to clarify the record a little bit, the 
President submitted a budget last year. We passed a budget in 
the House. The Armed Services Committee passed our National 
Defense Authorization Act in conformity with those numbers. You 
are right, they were Monopoly numbers, but it was what the 
budget passed. We conformed with that, and at least this year, 
we do have a budget that has been accepted by the House and 
Senate, and signed into law by the President, and that is what 
we are--that is what we will be working to on our budget for 
this year.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, Chairman Dempsey, good to see you. I greatly 
appreciate you guys being here, and under this really difficult 
environment, your questions are really important today.
    And the difficult environment that we have, obviously, is 
the budgetary environment and also then the threat environment, 
especially under the--in the light of what we have seen in 
Russia. As there has been some discussion about our nuclear 
deterrent, I just wanted to put some graphs up to frame some of 
my questions. The first is, there was previously a discussion.
    And Mr. Secretary, I think you did an excellent job of 
talking about the issue of proliferation versus our own nuclear 
deterrent. You affirmed a strong commitment to a nuclear 
deterrent. I always want to make the point that non-
proliferation is about the other guy, but there was a statement 
that the United States has the largest arsenal of nuclear 
weapons, and we all know that that is not the case. And I want 
to show this chart, because it really illustrates it greatly. 
The chart is actually a reverse one, meaning the point in the 
middle is present as you are moving inward, where everybody was 
and where they are going to. This is the United States, and 
this is Russia. So we are not sitting on the largest nuclear 
weapons arsenal.
    [The chart referred to can be found in the Appendix on page 
101.]
    Mr. Turner. Now, with respect to cuts and the issue of--
questions that you guys were all being asked and what we know 
that we need to do with our nuclear weapons, because I was 
looking at your QDR, and after you do the assessments of the 
top six things that we need to do militarily, it says that, 
based on these six interests, the joint chiefs prioritized 
these missions. And the number one that was prioritized in the 
QDR was maintain a secure and effective nuclear deterrent, 
number one. And I think it is important because of what it has 
done to make certain that we have peace and stability.
    This chart is the one that shows the cliff that we are on 
with our current nuclear weapons. Because everybody knows, you 
buy one of these things, it is not like you are done. They 
decay. They decline. We have to maintain and modernize them. 
Every one of them have this cliff that is coming up, and so our 
need to invest is important.
    [The chart referred to can be found in the Appendix on page 
102.]
    Mr. Turner. Here is the chart that shows the investment 
that DOD is currently on. You can see there has been a decline, 
decline, decline, and there is this uptick. Even with this 
uptick, it is only going to be about 4 percent of overall DOD 
spending.
    [The chart referred to can be found in the Appendix on page 
103.]
    Mr. Turner. So my question to you, Mr. Secretary is, 
recognizing your vast experience within the Senate and also 
with the Atlantic Council, your relationship with Europe as 
being a strong proponent of the Transatlantic Alliance is one 
that is incredibly important, as we see that now Russia has not 
felt deterred and has moved into Ukraine. We have the New York 
Times reporting that Russia, perhaps, has a new ground launch 
cruise missile that perhaps violates INF [Intermediate-Range 
Nuclear Forces Treaty]. Clearly, everyone is looking for the 
United States to take action.
    Mr. Secretary, what do we need to do in this year's 
budgetary document and in our authorization document with 
respect to the QDR and your work to ensure that we respond to 
strengthen our relationship with Europe and deter Russia in the 
future?
    Secretary Hagel. Congressman, thank you. First, one of the 
points that I have continually made, and I think it has been 
reflected in our priorities at DOD, what the President has 
said, what Secretary of State Kerry is presently doing in 
Europe and trying to work through this Ukrainian crisis with 
our European partners, with our NATO partners--NATO has been 
meeting. I was in NATO last week for 2 days. The focus that we 
continue to put on missile defense in Europe, I was in Poland a 
few weeks ago where, as you know, we will be doing more with 
them, missile defense, Romania. The commitment that we have 
expressed clearly, completely, and again, reflected in our 
budget, reflected, I think, in everything we are doing with our 
force posturing, with our relationships using European forums, 
our economic, diplomatic efforts; that commitment remains 
steadfast. I said it in Munich. I said it at NATO, and I think 
it has been--the message has been clearly given by the 
President on down in this administration.
    Mr. Turner. Well, I appreciate your answer.
    And Chairman McKeon, I think one of the most important 
things that we need to do is to make certain that the 
administration's policy with respect to Russia reflect a change 
in this upcoming NDAA [National Defense Authorization Act]. The 
Washington Post just recently said that the foreign policy of 
this administration is based on fantasy; that fantasy being 
with respect to Russia. I think that we need to begin to signal 
that change and that change needs to be in this NDAA and we 
certainly look forward to a dialogue as to the way both of you 
believe we need to send that signal to Russia. Thank you.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, Secretary 
Hagel, General Dempsey, Mr. Hale, thank you for your 
extraordinary service, and your testimony this morning.
    I greatly appreciate the commitment to the rebalance in the 
fiscal year 2015 budget. I think there is more that our 
government can do to support it, but I am very grateful for 
what they have done so far. Last year's defense authorization 
bill made important progress on the realignment of Marines from 
Okinawa to Guam. And I am grateful for that. The Governor of 
Okinawa signing the landfill permit was a critical milestone 
and showed good faith from Japan to move forward.
    However, there are still restrictions in law on the 
obligation and expenditures of these funds. How important is it 
to remove these restrictions so that we can spend their funds, 
and do you hear from Japan about this matter?
    Mr. Secretary.
    Secretary Hagel. Obviously, Japan is a very key, important 
partner. We count on Japan, that relationship. We have a mutual 
defense treaty with Japan, working closely with the government 
of Japan, and what they are doing, the ``Tippy Two'' radar 
site, which they agreed on last year, as you note, the Futenma 
move and the landfill permit. So we will continue to stay 
closely aligned with Japan as we see an Asia-Pacific expand 
become more and more important to the world, world affairs, our 
economy, our relationships. With our rebalance, that 
partnership will remain strong.
    Ms. Bordallo. Would there be any way that we could lift 
these restrictions on the spending of these funds?
    Secretary Hagel. On Okinawa? Well, as you know, and as you 
have noted in your comments, we will be moving and rotating 
Marines, rotating now in Australia, moving them to Guam, doing 
the things that you are well aware of. Again, I would say in 
answer to your question about restriction of funds or any area 
touching those funds, we have tried to balance the requirements 
that we think we need for our future and especially as we stay 
committed to the Asia-Pacific.
    Ms. Bordallo. Thank you. I have another question for you, 
Mr. Secretary. Can you comment on the importance of the 
National Guard State Partnership Program [SPP]? I noted that 
the QDR talks about the importance of building a capacity 
partnership. And the SPP program does just that, and I know our 
combatant commanders are very supportive of this. Are we 
looking to expand this program further in the Pacific and 
Africa Commands AOR [area of responsibility]?
    Secretary Hagel. Well, those relationships continue to be 
very strong. I am going to ask the chairman if he would like to 
respond to this. It will continue to be strong. It has been 
very effective, and we look forward to find ways to broaden and 
expand it.
    Mr. Chairman.
    General Dempsey. And we reflected the support of the 
program in the budget, and in fact, just this last week, there 
were two more nations entered into the State Partnership 
Program. Yeah, it is a very effective program.
    Ms. Bordallo. Since I am the ranking member on the 
Readiness Subcommittee, I wonder if you could just briefly, if 
not here because of the time situation, discuss the readiness 
consequences if the anticipated savings needed to fund improved 
readiness are not achieved in the coming year. What is the most 
serious risk if this should occur?
    General Dempsey. Well, as you know, Congresswoman, we 
submit a readiness report monthly, and it has reflected the 
fact that, given not only the depth, but the mechanism of 
sequestration, we have had no choice, literally, no choice but 
to go and raid our readiness accounts in order to find the 
money to achieve the depth of the reductions. And so we have 
about a 2- or 3-year significant readiness hole that we need to 
begin to fill back in. And it is one of the reasons I am very 
supportive of the $26 billion add because in general terms, 
about 40 percent of that would go to readiness; about 40 
percent to modernization; about 20 percent to sustainment, 
repair, and maintenance of facilities that are underinvested in 
right now in the current budget.
    Ms. Bordallo. Thank you, General.
    And I yield back, Mr. Chair.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Secretary, thanks for being here. As you know, I chair the 
Strategic Forces Subcommittee, and I am very concerned about 
Russia's activities in violation of the INF Treaty. I know you 
have had seven engagements with your Russian counterparts in 
the last year since you became the Defense Secretary. Could you 
share with the committee the message you conveyed to him about 
our concerns over this INF Treaty?
    Secretary Hagel. Congressman, as you know, in these 
conversations and you are correct, I have a very open line of 
communication with the Russian Minister of Defense, and I just 
spoke to him a few days ago. We talk about everything, of 
course. This specific subject is one that we have generally 
talked about, mainly when I talk with him and we have a regular 
conference call, then we talk when we are not just scheduled to 
talk, but when issues come up, like Ukraine, and so on.
    But because the State Department has the main, as you know, 
certification issue on this determination responsibility, we 
work with them. But this is a general area that I do discuss 
with him.
    Mr. Rogers. How about NATO? I know you met three times with 
NATO. Tell me about the concerns they have expressed and what 
we have done to reassure them that we are taking this 
seriously.
    Secretary Hagel. Well, I know, and I noted in my opening 
comments about some of the actions that NATO is taking now, we 
are taking. As I noted also, I was just at a 2-day NATO meeting 
in Brussels last week. We conveyed a NATO Ukraine commission 
meeting. At that meeting was then the Acting Minister of 
Defense for the Ukraine. As you know, NATO had a meeting 
yesterday with the NATO Russian commission. The NATO piece of 
this continues to be very important.
    We continue to stay closely aligned with and connected to 
NATO. I noted some actions that I have taken and directed 
yesterday regarding our partners in that area. So NATO remains 
a committed partner. We are committed to that relationship. We 
will fully stay committed to that partnership because----
    Mr. Rogers. Did NATO express to you concern that maybe we 
weren't as committed to it? And did they express any 
aggravation that we have known about these activities since 
2008 and they just learned about them in January of this year?
    Secretary Hagel. No, they did not to me, and they have 
never in all of my official NATO forum meetings, and my many, 
many bilateral NATO Defense Minister meetings have ever 
expressed that kind of doubt to me about any of this. I know 
the chairman will want to say something, too, but go ahead, 
please.
    Mr. Rogers. Do you share my view that they are in violation 
of the treaty, the INF Treaty?
    Secretary Hagel. Well, again, I haven't seen all of the 
documentation on it, and I--we are asking for that now. I am 
asking for that, but that is the way I would answer it. We 
would be very happy to come up here and give you a clear----
    Mr. Rogers. Before we get----
    Secretary Hagel [continuing]. Closed briefing on this.
    Mr. Rogers. Go ahead, General.
    General Dempsey. That report is not due until April, 
Congressman, on the potential violation, and it will have to be 
done in a very classified setting as you well know. My NATO 
partners are concerned about that, but they are also concerned 
about Russia's intervention into Ukraine on the basis of ethnic 
discrimination because, as you know, those borders in Eastern 
Europe, I mean, there are 400,000 ethnic Romanians living in 
Western Ukraine. So, you know, this is a--would be a terrible 
precedent if this became a commonplace occurrence. That is what 
they are worried about.
    Mr. Rogers. And I don't blame them.
    General Dempsey. Yeah.
    Mr. Rogers. You know, this is their backyard.
    But Mr. Secretary, I have got three questions that I would 
like for you to have responded to in writing. They are--and 
they deal with the manner in which we would deal with Russia 
about these deployed forces that are in violation of the 
treaty.
    First, when it comes to Aegis Weapon System, which is at 
the heart of Aegis Ashore technology, it was designed in part 
to defeat cruise missiles. Would the sites in Poland and 
Romania add value to the defense of our allies and deployed 
forces? That is the first question.
    Second, we will have a third Aegis Ashore battery in Hawaii 
at the conclusion of testing. What value would it have if it 
moved to the Pacific or the Baltic States to help defend our 
allies against Russia's INF violations.
    And finally, how much would it cost to rotate U.S. dual-
capable aircraft to NATO-allied states to help defend Europe 
from Russia's INF violations. If you would have those in 
writing, I would appreciate it.
    Secretary Hagel. We will respond.
    [The information referred to can be found in the Appendix 
on page 145.]
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chair.
    And thank you all for being here. You are making very 
difficult choices, very challenging choices, and I don't envy 
you that. And I think we here in Congress have to be a part of 
that process as you move forward and try to find the best way 
to best protect our country.
    One of the things, and we have had some reference to it, is 
that, you know, in the course of this, I think the military 
have to be well positioned to take advantage of technological 
advancements while being mindful of the economic realities that 
we face today. We all confront this in our daily lives. All of 
our lives are changing as a result of those extraordinary 
advancements, and the military certainly is part of it. I 
happen to be from Massachusetts, a State whose ecosystem is 
focused on addressing these challenges. And we continue to 
invest in some of the best technological minds and resources 
that our country has to offer. And we serve as a willing and 
able partner to the military.
    We have heard Mr. Thornberry reference the acquisition 
process. And I think that the type of rapid technological 
innovation that the military is trying to take advantage of 
places great pressure on DOD's acquisition system, 
specifically, in the realm of information technology [IT] and 
cyber. And it is in these realms where the ability to rapidly 
assess needs and field new technologies is critical. And DOD 
will increasingly need an acquisition system that works for IT 
and cyber. So just a comment that I hope, as you are looking at 
all of this, you are paying particular attention to creating 
vehicles that enable you to be very responsive in real time to 
take advantage of emerging technologies and to better protect 
our country.
    And Secretary Hagel, I am encouraged by your statement 
regarding the importance of research and development. The QDR 
strongly emphasizes the important role that QDR and innovation 
will play in our ability to meet future threats as well.
    But based on budget requests over the last 5 years, we as a 
country have been less inclined to put our money where our 
mouth is. In fact, partly due to congressional action, defense-
related R&D has taken the deepest percentage cut during the 
downturn since World War II. So this is a big concern for me 
despite your comments. I appreciate your comments. But we do 
know that these kinds of advances and this kind of investment 
does take money. So it is just a comment that, do we want to 
make this real, not just in words only?
    I do want to turn, though, to the issue of sexual assault. 
There are important votes taking place today in the Senate 
reflective of this body and the Senate, deep concern about the 
prevalence of sexual assault. You both have worked very hard 
with Congress to create more tools to fight sexual assault. We 
appreciate that. One of those tools is creation of the Special 
Victim's Counsel Program giving military victims of sexual 
assault an access to an attorney. We have mandated that the Air 
Force's Special Victim's Counsel Program be implemented by 
every service. We hear very encouraging stories about how many 
survivors are taking advantage of this and to real effect. But 
we do know that these tools only work if commanders and every 
service member under their command are aware that these tools 
exist, and we still do hear stories that there is not as broad 
an understanding of this as there should be.
    So, General Dempsey, could you tell me more about how you 
are making sure that service members are aware of the resources 
available to them to fight sexual assault? How are we making 
sure that every officer and enlisted member knows about these 
tools?
    General Dempsey. Three things, briefly. One is, we are 
currently under a mandated 1-year review that was directed by 
the President of the United States. So this has the interest of 
the Commander in Chief. We are also working with the guidance 
of the Secretary of Defense, 21 initiatives. And then 
internally, as a JCS, we are meeting to establish our own 
initiatives and to make sure we have got the metrics right, 
make sure we have got the media, meaning social media, which is 
where these kids normally dwell these days. We have got the 
right information mechanisms to do that. And I just to assure 
you of that, I was in Ramstein Air Base on the way back from 
Afghanistan and asked to meet with one of the Air Force's 
special victim's counselors so she could tell me what her scope 
is, how she feels about her ability to reach out to folks. She 
was actually quite content, I suppose, that the information is 
available and that she had access and she had the authority she 
needed to perform her duties. But look, we just got to keep at 
it.
    The Chairman. The gentlelady's time is expired.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you all for being here.
    General Dempsey, thank you for your magnificent service to 
the country and to the cause of human freedom.
    And Mr. Hale, thank you for your service to this committee, 
and I wish you the best in the future.
    And Mr. Secretary, thank you for your service to the 
country and this administration.
    I will start with you, if I could, and let me first ask you 
for diplomatic immunity here. I constantly find myself shaking 
my head at the decisions and actions of this President, but it 
seems the greatest consistency that he has had is in the 
perpetration of one foreign policy and national security 
debacle after another. The administration has now ensconced 
Iran in a protocol that is really protected, allowing them to 
enrich uranium all the while they are modernizing their missile 
defense or their missile capability faster than ever before.
    And I don't know of any credible voice, Mr. Secretary, 
anywhere who would deny where we now live in a world where the 
modernization and proliferation of ballistic missiles is not at 
an all-time high or is at an all-time high. I don't know that 
anyone would deny that. So yet, today, the President of the 
United States and the Secretary of Defense presents this 
committee with the lowest budget for the Missile Defense Agency 
ever presented by this President in the 5 years of his 
Presidency. And I guess my question very simply is: Is the 
lowest budget for missile defense in the last 5 years the best 
way that you, sir, know how to show a strong and continued 
commitment to homeland and NATO and missile defenses, and is 
this the best way to protect the American people and our 
allies?
    Secretary Hagel. Congressman, ballistic missile defense is 
a priority. I announced last year that we were increasing our 
missile interceptors by 14, building 44, we would have total.
    Mr. Franks. Forgive me, sir, that is after this 
administration canceled them previously, but please proceed.
    Secretary Hagel. Well, all I can answer for----
    Mr. Franks. Yes, sir.
    Secretary Hagel [continuing]. Is since I have been here and 
what I have done, and you asked, I think, partly the question 
directed at me, and so I can only account for my actions as 
Secretary of Defense, and that is first.
    Second, I think I have been very clear, and I think 
Secretary of Defense before me, Secretary Panetta, and before 
him, the importance of missile defense. I think other ways we 
have shown the importance of that is continuing our missile 
defense system in Europe with our European partners. As I 
noted, I was just in Poland. I just noted to the Congresswoman, 
that in relationship to our partnership with the Japanese 
``Tippy Two'' radar sites, as this is a global issue in defense 
of our country, we, as you know, we need those sites, the Aegis 
missile defense capacity as we station it, posture it, position 
it working with allies, continues to be a priority.
    Mr. Franks. Well, let me shift gears on you here.
    Secretary Hagel. So I think we are pretty clear on this.
    Mr. Franks. Well, I don't think the budget represents that. 
I don't think that it indicates that. But in any case, I will 
move on to a different question.
    As you know, we are on a path to reducing our strategic 
nuclear deterrence in accordance with the New START Treaty, 
which really reduced American capability far more than it did 
Russia's. And now according to the QDR that you just released, 
the United States would be, quote, ``The United States would be 
prepared to reduce ceilings on deployed strategic warheads by 
as much as an additional one-third below New START levels.''
    Now, Mr. Secretary, I have got to tell you, this is a 
trajectory that frightens me because it seems a strategy 
designed by those who live in a world of grand vision rather 
than one of the--the world of the one that we live in. And I 
guess I first ask you, do you put your full faith in Russia 
actually complying with another round of reductions, and do you 
feel that this will make the United States safer 20 years from 
now?
    Secretary Hagel. My first answer would be, as I have given 
more than once, on more than one occasion, President Reagan 
commented about ``trust but verify.'' That is why we have 
verification built into all of our treaties. And that is the 
only thing that works in any way. As to the New START Treaty, 
we are complying with the requirements of the New START Treaty. 
That is law, as you know. The United States Senate, after the 
President submitted it, ratified that treaty. As has been 
noted, there would be no unilateral actions taken by this 
administration on going below the current levels. Those would 
have to all be, as we have done in every administration, 
negotiated through treaties.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Secretary Hagel. Thank you.
    The Chairman. Thank you.
    Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you to Chairman Dempsey, 
Secretary Hagel, and Mr. Hale. I thank you all for your 
extraordinary leadership.
    Let me say to Secretary Hagel and Chairman Dempsey that in 
my conversations with you privately, you have both shown to 
have a great deal of commitment to address the issue of sexual 
assault and rape in the military, and I believe you. But I must 
tell you, I have grave reservations about those in positions of 
authority right under you that are not necessarily taking your 
direction seriously.
    Over a year ago, Vice Chair Winnefeld convened a meeting at 
the Pentagon, in which Members of the House and Senate were 
invited, and many generals sat around a very large table to 
discuss this issue. It was a good meeting. And the vice chair 
had indicated at that time that there would be more. That was 
over a year ago. There has never been another meeting.
    There was an email in March of 2011 by a brigadier general 
after meeting with a Congresswoman, in which he apologized for 
emailing it late because he had masturbated three times over 
the past 2 hours after meeting with a Congresswoman. That was 
in an email, an official email to one of his superiors or many 
more, and nothing happened. And it was only until that email 
was exposed in another sexual abuse case that there was any 
punishment levelled. And I question what the punishment is 
when, in fact, this general is now working for you, General 
Dempsey, in the Joint Staff.
    I met yesterday with General Snow, the newest SAPRO [Sexual 
Assault Prevention and Response Office] director. And what he 
said to me was when he was given the post, his superior said to 
him, ``You know, I know this isn't on your bucket list.'' This 
is not some, you know, take-one-for-the-team position. And yet, 
we have had four SAPRO directors in the last 4 or 5 years, and 
they are only 18-month stints. So if they are only 18-month 
stints and you bring someone in who has no expertise, no 
background, what is our expectation about how seriously we are 
really taking these cases? Now, let me start with you Secretary 
Hagel. You ordered a directive----
    General Dempsey. Could I respond? Would it be appropriate?
    Ms. Speier. Yes, certainly you can.
    General Dempsey. First of all, just because you haven't 
been invited to a meeting, Congresswoman, please don't assume 
that there haven't been other meetings. I mean, I mentioned 
earlier I had many sessions with the Joint Chiefs.
    Ms. Speier. No, I meant with Members of Congress. It was 
one that was going to reconvene.
    General Dempsey. Sure, no, I understand, and I will go back 
and research why we haven't invited you back. But there has 
been plenty of meetings.
    Secondly, on that young man who as--who you say--that is 
part of an ongoing investigation and action that I simply 
can't--that I can't talk about because of the ongoing 
investigation.
    And, you know, to your third point about the bucket list 
comment, I am the one that made that. Now, let me tell you why 
I made it. I wanted to get his reaction. I wanted to see if he 
was going to take this job with the fervor and commitment that 
I wanted. And if he had said, ``Yeah, you are right, General, 
this is not on my bucket list,'' he wouldn't have been hired. I 
am the one that said that.
    Ms. Speier. All right. Secretary Hagel, you asked that all 
of the services rescreen all soldiers who were in, quote, 
``positions of trust,'' including sexual assault counselors, 
recruiters, and drill sergeants. The Army disqualified 585 
soldiers as counselors, recruiters, or drill sergeants because 
they discovered infractions of sexual assault, child abuse, or 
drunk driving. The Navy only dropped three recruiters and two 
counselors. The Air Force dropped zero, and the Marine Corps 
dropped zero.
    Now, my question is, first of all, this was not going to be 
made public, except for the fact that it was leaked to a 
reporter, and that is how it became public to Members of 
Congress. The disparity of having 588 in the Army who are 
disqualified, zero in the Air Force, zero in the Marine Corps, 
and only 5 in the Navy suggests that they are using different 
means by which to do the screening.
    As I understand it, in some cases, all they did was 
determine whether or not they were on a civilian sexual 
predator registry. So I guess my question to you is, are you 
going to reissue another directive? Are you going to ask the 
Air Force and the Marine Corps to go back and scrub like the 
Army did, and will you make it public?
    The Chairman. Would you please respond for the record?
    The gentlelady's time is expired.
    Secretary Hagel. I will.
    [The information referred to can be found in the Appendix 
on page 145.]
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Secretary Hagel, General Dempsey, and Mr. Hale, thank you 
for your service. I have communicated with officials from 
Israeli missile defense forces. They say that Israel would much 
better be able to meet its security needs if that part of the 
Obama budget were increased by $350 million.
    Mr. Chairman, I ask unanimous consent to put into the 
record documents received from the Israeli Missile Defense 
Organization asking for additional funding in this budget.
    The Chairman. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
beginning on page 104.]
    Mr. Lamborn. Thank you.
    Secretary Hagel and General Dempsey, the outcome of the 
Obama administration's attempts to negotiate verifiable--a 
verifiable end to Iran's program to produce a nuclear weapon is 
still up in the air. However, apart from that, Iran continues 
to support terrorism and instability around the world. It is 
proven that they supplied the explosives and weapons to kill 
hundreds of our soldiers and Marines in Iraq. And they are 
continuing programs to develop ballistic missiles and other 
weapons of mass destruction. Should companies that do business 
with the Department of Defense also be doing business with 
Iran?
    Secretary Hagel. Congressman, we have sanctions in place, 
as you know, to address that. And companies would violate those 
sanctions if they were doing that kind of business with Iran. I 
might also add, if I might, Congressman, on the missile defense 
with Israel, I probably speak as much with the defense minister 
of Israel, General Ya'alon, as any one defense minister. And 
the commitments that we have made to the missile defense 
systems in Israel remain very clear. They are in the budget, 
Iron Dome, David's Sling. So I would like to have more money, 
too, in my budget. But I don't think there is any equivocation 
or question about our commitment to those systems.
    Mr. Lamborn. Well, I appreciate what has been done. I am 
just thinking this is something we should give more attention 
to, and we will continue those discussions in committee here.
    And on the sanctions issue, one news report has indicated 
that companies doing business with the Department of Defense to 
the tune of the $100 billion are looking at doing more business 
with Tehran now that the sort of floodgates have been open, and 
some people would disagree with that term ``floodgates'' since 
this recent deal with Iran, but that is how some people out 
there in the business world are looking at it.
    Secretary Hagel. Well, as you have noted, regarding 
floodgates, no floodgates have been open. We still keep our 
strong sanctions on Iran. No deal has been made with Iran. What 
is in place is--and is clicking down, that 60, or 6-month 
process to build, if we can, a framework of engagement with the 
Iranians and our National Security Council countries and ours 
to get to what we want to get to, and that is to assure that 
Iran does not have--doesn't get nuclear weapons. The other 
issues that you mentioned, which we are quite mindful of--and 
as I have said many times, others have said in this 
administration, including the President, they are a state 
sponsor of terrorism. So we have to deal with that as well. But 
there is no opening of floodgates. The sanctions are still 
there.
    Mr. Lamborn. Okay, thank you for that answer. And also, 
Secretary Hagel, given the Russian push into the Ukraine, the 
uncertainty involving Iran we just touched on, continuing 
instability in North Korea, Chinese expansion, the loss of 
almost 2 million documents through Edward Snowden's treachery, 
potential cyber attacks from shadowy players, were it not for 
budget constraints, would you be advocating for the reductions 
that are in this budget?
    Secretary Hagel. I wouldn't be advocating for the 
reductions in the budget at all. Reposturing, resetting based 
on coming out of, as I have said, two of America's longest 
wars, one of them America's longest war, we have always done 
that. New threats, and you just presented an inventory of many 
of those, starting with cyber; we need to restructure, 
reposture regardless of the resources.
    Mr. Lamborn. I am just wondering when the concentration is 
on the mission versus the budget, and which comes first.
    Secretary Hagel. Well, the strategy and the mission has to 
come first, but I don't think, other than you are interested in 
a college paper seminar project, if you can't implement the 
strategy, and if it is not resource--if it is not resource-
facilitated, not driven, a business plan that our chairman has 
probably put together many of them. I have done so, many of you 
on this committee have over the years. I never put together a 
business plan or a strategy, unless I didn't think how was I 
going to implement that, and how was I going to carry that out.
    So it is the strategy, the mission, the responsibilities, 
of course, and then you build out, but you still have to 
connect the resources to it.
    Mr. Lamborn. Thank you.
    Secretary Hagel. Thank you.
    The Chairman. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And I just want to, before I begin my questions, I want to 
join with my colleagues in thanking you, Mr. Hale, for your 
service to this country, for your integrity and hard work. We 
will miss you, and we wish you well.
    Mr. Secretary, and Mr. Chairman, I really appreciate the 
challenges that you face in developing a budget under the 
sequestration requirements. I think we all understand that that 
is almost an impossible task. There is no question that we have 
to reduce our debt and deficit, but I share the view of many in 
this committee and in the Congress that sequestration is 
absolutely the wrong way to do it. And I believe it seriously 
is compromising our national security.
    Chairman Dempsey, let me pose my first question to you. But 
I will preface it by talking a little bit about my district and 
the men and women of the Air Force and the Army who serve our 
country there.
    I am very proud to represent Davis-Monthan Air Force Base 
where I grew up as a kid, home to the 355th Fighter Wing, where 
the A-10 operates and is training the next generation of close 
air support pilots. I also represent the Army Garrison at Fort 
Huachuca, and I have adopted the 162nd Air National Guard 
Fighter Wing of the Air National Guard just across my district 
line. And I would hope, Mr. Secretary and Mr. Chairman, that 
you could come and visit our district, and meet the men and 
women who are serving this country so courageously. I hope you 
can come when the weather is cooler than it is here but not as 
cold as it is now. It will be good to come in the spring or in 
the fall.
    These military installations have a long and distinguished 
history of defending the Nation. And the budget proposal you 
put forward this week, last week calls for the divestment of 
the A-10.
    Mr. Chairman, I understand the need to find budget savings. 
However, the A-10 I think we all know plays a crucial role in 
protecting our service members on the ground, a role that 
simply cannot be suitably replicated in all aspects by any 
other aircraft in our inventory at this time. I am a supporter 
of the F-35. I am a supporter of UAVs [unmanned aerial 
vehicles]. I believe that other airframes can perform aspects 
of close air support, but none can take the place and perform 
like the A-10. Just yesterday, in this hearing room, General--
Admiral Locklear said there are capabilities out there that 
will not, will not parallel what the A-10 can offer. General 
Austin in the same hearing said that he had seen the A-10s 
perform magnificently in Iraq and Afghanistan. And previously, 
Major General Bill Hix made the critical crucial point that the 
A-10 serves as a flying artillery when ground troops cannot 
be--request indirect fire support due to logistical issues. And 
just 7 months ago, in this hearing room as well, General Welch 
told me, quote, ``Until the Air Force, until the Air Force has 
sufficient numbers of F-35s, the Air Force intends to keep the 
A-10 viable and combat ready.''
    And Mr. Chairman, from an Army officer's perspective, who 
has commanded ground troops, how is it possible that it is not 
in our Nation's best interest to keep this proven workhorse 
flying?
    I would ask Mr. Secretary, since we are getting close to 
time, ask the same question of you. We, I believe, are making a 
grave mistake in divesting ourselves of the A-10, when it is 
performing so magnificently and there is no other airframe that 
can do the job it has done.
    Mr. Chairman Dempsey and Mr. Secretary.
    General Dempsey. Yeah, and I will make this brief, 
Congressman. The A-10 is a wonderful system, but it is also an 
old system. And it is also vulnerable in a high-intensity 
environment in a way that it is not vulnerable today in Iraq 
and Afghanistan. The Air Force has other platforms that can 
produce that flying artillery you described, so does the Army, 
called the Apache helicopter. It is a prudent budget decision 
made in the face of significant cuts. If we had the money we 
thought we would have, you know, in 2010, we probably wouldn't 
be having this conversation, but we are having this 
conversation.
    Secretary Hagel. Congressman, the only thing I would add is 
that this was a recommendation that the Air Force made to me, 
General Welch. You know, he is a former A-10 pilot. It is not a 
matter of, was it a platform that wasn't everything you said it 
was. But General Dempsey just laid out the realities of a 40-
year platform when we are looking down the road at the kind of 
requirements we are going to need in the future with the 
restraints we have.
    Mr. Barber. Let me just add I have got 4 seconds. We have 
put $1.1 billion in upgrading this aircraft--we need to keep it 
flying.
    The Chairman. The gentleman's time is expired.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman, and Chairman Dempsey, 
Secretary Hagel, Mr. Hale.
    Thank you all so much for your service to our Nation. 
Thanks for joining us today. Secretary Hagel, let me begin with 
this: You have spoken very eloquently about the increased risk 
around the world that we face, the threats that are out there. 
You have heard Members here speak about the specifics of those 
threats. I want to look in a little broader perspective, as you 
have identified those threats.
    In looking at the budget that you projected going forward, 
I am curious as to how you feel that budget in the face of 
those threats relates to, in any way, shape, or form there 
being an increased risk to the men and women that serve this 
Nation if they are placed in a conflict. And then, secondly, 
under this budget scenario, is there any possibility that there 
is an increased situation where we may not win in a conflict? I 
think those are two things that are very, very concerning to 
me. I want to get your perspective on that. Again, any 
increased risk to the men and women in harm's way and any 
increased possibility that we may lose in a conflict that we 
might become engaged in.
    Secretary Hagel. Congressman, thank you.
    Your first question, increased risk to the men and women in 
uniform that we would send, have sent, into harm's way. I don't 
know if you were here, and a couple of my opening comments on 
this specific issue. So I won't replow that same ground. But as 
you said, in way of your question, as I noted in my statement, 
how we take care of our men and women isn't just compensation. 
Yes, that is a big part of it. But it is, to your point, making 
certain, no question that they are prepared in every way.
    That has been a priority, will continue to be a priority. 
Any time you take cuts the size that we are taking, and the 
steep abrupt cuts that we are taking, there is going to be 
risk. I mean, look at the Army last year and the Marines, for 
example, and ground troops. What the Army in particular had to 
do to do is stand down much of their training. Well, that cuts 
right into readiness, and that cuts right to risk. That is just 
one element.
    But the budget we propose over the next 5 years we think 
addresses that. The chairman will give his opinion on this, but 
this was not without the chiefs, our senior enlisted, without 
the complete integration and involvement of our uniform 
military.
    On the larger, the second question was the risk on----
    Mr. Wittman. Well, is there any increased possibility that 
in a conflict----
    Secretary Hagel. War, we lose a war?
    Mr. Wittman [continuing]. That we might lose.
    Secretary Hagel. First, the world is uncertain. I can't 
guarantee the outcome of anything. But what we are trying to 
do, as I said, in the strategic guidance that the President 
gave us in 2012, what our QDR was based on, what our focus was 
based on, is winning wars. And I noted that. The world is 
unpredictable. But we want to be prepared to win a war. And 
that is the kind of budget that we have presented. That is the 
focus. That is our priority.
    Mr. Wittman. Very good.
    Chairman Dempsey, I am going to get your perspective, but I 
want also if you would, to drill down a little bit and give us 
the perspective, too, on the challenges with the Army that it 
now is having to face a decreased capacity in end strength and 
decreased capability as far as less modernization and what does 
that mean for them in having to carry out OPLANs [operation 
plans] and CONPLANs [Concept of Operations Plans] that they are 
going to be faced with? If you could obviously answer the 
general question, but then drill down a little bit as to the 
Army perspective.
    General Dempsey. Yeah, what I will do is just give you--I 
will react to your question, but actually, I would like to take 
it for the record, the opportunity to answer. This is a very 
profound question. This is the question we have been struggling 
with for 3 years, frankly. But I will tell you this: In 2020, 
we will still be the most powerful nation in the world if we 
achieve the promises in the QDR. And the promises in the QDR 
actually involve institutional reform, flexibility, so that we 
can take the money that the country has decided to invest in us 
and use it to keep the force in balance. If we can do that, 
then in 2020, I have confidence in telling you we will still be 
the most powerful nation in the world, with over 1 million men 
and women in uniform. That is not counting the Guard and 
Reserve. It will be up around 2 million with the strongest 
system of alliances, a global network of forward-operating 
bases and allies and partners, control of the global commons, 
but not unchallenged and not at times at risk. Let me answer 
that question more fully for the record.
    Mr. Wittman. Sure, very good.
    [The information referred to can be found in the Appendix 
on page 145.]
    The Chairman. The gentleman's time is expired. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.
    And thank you each for being here.
    Mr. Secretary, I wanted to start by asking about the role 
of the Reserve Component in the National Guard. Would you agree 
that there are some missions that are best suited for the 
Active Component and others that are best suited for the 
Reserve Component and additionally, would you agree that, 
despite who takes the leadership in a given role, both Active 
and Reserve Components should be equally capable of providing 
forces for all mission sets?
    Secretary Hagel. First, thank you, Congressman.
    First, as I said, and I said in my opening statement, I 
have said, all the chiefs have said, it is reflected in the 
budget. The Active Army is integrated into--or the other way 
around, the National Guard Reserve integrated into the Active 
in the sense that it is part of our complete national security 
enterprise and our military. They are vital, the National Guard 
and Reserve, to that system, and they will be. That is first.
    Second, the National Guard has different responsibilities, 
Reserves do, than the Active Duty. The Active Duty is there for 
one reason. That is Active Duty. They have got to be prepared, 
agile, immediate. They have got to have the equipment, the 
training, everything that sets them up for that mission and to 
accomplish that mission. The National Guard Reserves aren't the 
same, but they integrate. They work together. The Reserves, 
National Guard work in Afghanistan and Iraq, very important. 
But that also includes the training, and the preparation, and 
the movement, and logistics that go with being able to move 
your combat brigades and all of the things that go into that. 
That also gets us into the aviation piece of that; what do the 
Governors need in order to use the National Guard to fulfill 
their requirements as well as keeping the National Guard and 
Reserves ready and so on?
    We have tried to focus on that balance as we go forward on 
requirements that we know we are going to have, threats that 
are out there, and that is the kind of strategic guidance that 
we use to prepare the budget.
    Mr. Kilmer. Thank you.
    With the time I have remaining, I wanted to ask also about, 
after reviewing the budget, and reflecting on the rebound 
toward Asia, I am concerned and hearing concern about the 
reduction to the Navy ship depot maintenance budget of $1.4 
billion. And there is an operations cut in that regard as well. 
I remember the old FRAM oil filter, ``Pay me now or pay 
later.'' Does this set us up for more costly bills down the 
road if we use our ships more and can't repair them? Wouldn't 
we then have to move up our plans to replace some of these 
tired vessels to ensure our overall capacity?
    Secretary Hagel. Well, Congressman, I think that gets to 
the point of what the Navy has recommended, and some of the, I 
think, pretty creative ideas they have got and being able to 
bring some of our ships out and upgrade them and overhaul them, 
not taking them out of the fleet, but bringing more capacity, 
longer lifespan. I mean, all of these things are part of 
addressing your question; this also, within the framework of 
the budget restraints we have, the resource restraints.
    Mr. Kilmer. Thank you.
    And I may just ask for the answer in follow-up. Mr. Hale, I 
am encouraged by the serious look that is taking place on 
acquisition reform. I wanted to get your sense of what needs to 
be done to properly address this issue? I am sure that there 
are--that both policy and process are factors in this, and I 
wanted to get a sense of what do you think the biggest factors 
are in that regard?
    Secretary Hale. Well, I think I am going to let Frank 
Kendall answer that one for the record primarily, but I will 
say, we are pursuing a variety of initiatives, as I think you 
are aware; a greater use of competition, increasing our trade 
craft and services contracting, because we spend so much on 
that, and I think we can do better. We have seen some tangible 
results, like less funding or less cost for the EELV [Evolved 
Expendable Launch Vehicle] contract. I think we are on the way. 
It deserves more work, and it will get it, and I am going to 
let him expand on that.
    [The information referred to can be found in the Appendix 
on page 146.]
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson [presiding]. Thank you.
    We now proceed to Dr. John Fleming of Louisiana.
    Dr. Fleming. I thank you, Mr. Chairman.
    And I want to thank our panel of witnesses today. Thank you 
for your service to our Nation.
    I want to change the subject a little bit here. Secretary 
Hagel, in January, the DOD published a revised instruction that 
was in response to the religious liberty language included in 
both the fiscal year 2013 and fiscal year 2014 NDAA. However, 
the directive failed in a number of ways to address the 
concerns of Members of Congress, which I noted in a letter sent 
to you this week. It was March 4th. You probably haven't had a 
chance to review it yet.
    Mr. Secretary, can you explain how the Department intends 
to ensure that protection is provided for a service member's 
freedom to discuss, explain, mention, and reference their 
specific faith tenets, either in private or in public, while 
completing an official military duty? And just to mention here 
also, the directive does specifically but very narrowly address 
such things as attire, jewelry, headwear, and so forth. But it 
seems to ignore the really important parts of this, which is, 
again, the freedom to discuss, explain, mention, and reference 
their specific faith tenets.
    Secretary Hagel. You note, Congressman, the memo--standards 
that we have published to bring a service-wide standard to 
acknowledge religious freedom, expression of that, but at the 
same time, not proselytizing, and there is a difference. We 
tried to give some framework of standards across all of the 
services. On the--you mentioned specifically headwear. Some of 
the specific areas that are always close calls, the good order 
and discipline of our system has to be maintained.
    We have given the local commanders the call on their 
judgment, depending on the mission. We are not trying to 
inhibit anyone's freedoms to express themselves praying five 
times a day, but it can't interfere with the mission of the 
military either. It has to maintain the good order and 
discipline of the military.
    So the local commander is an important last arbiter in 
this. Each command, each situation is a little different. We 
try to build in flexibility to that. But for example, no member 
of the clergy is told to, is expected to, should, is forced to 
do something that would be against his or her religion. So we 
tried to give a standard but also some flexibility.
    Dr. Fleming. Well, Mr. Secretary, I mean, for instance, we 
get reports that members somehow are disciplined or told to 
remove a Bible that is on their desk. In one case, there was 
some prose written, I think, by a chaplain. It had to do with 
the old standard, ``There is no such thing as an atheist in a 
fox hole.'' We hear about prayers that have to receive some 
sort of scrutiny by command, the word ``Jesus'' removed. And so 
what I am saying is, it doesn't appear, at least thus far, that 
the directives have addressed this at all. Again, it is 
jewelry, it is cosmetic things which I think does not address 
what we put in the NDAA both in fiscal year 2013, and 2014.
    Secretary Hagel. First of all, I am not aware of the 
specific issues, and I would be glad to look into them.
    Dr. Fleming. They are all outlined in ``A Clear and Present 
Danger,'' through the Family Research Council, so I will be 
happy to upload that to you.
    Secretary Hagel. Okay. But to your bigger question and 
answer, local commanders have authority and responsibility to 
make those kind of calls, based on what they think is 
appropriate for their command. Again, we have tried to give 
them some overall guidance for all our services, but I would be 
glad to look at the specifics of this.
    Dr. Fleming. Well, I guess a good start would be the letter 
that we have sent you, which, of course, you have not had an 
opportunity----
    Secretary Hagel. I have not seen it yet, but I will look at 
it and respond.
    Dr. Fleming. So I think that would be a good start on this. 
We have already had one hearing. I think we planned for another 
one soon. In fact, Mr. Wilson is the subcommittee chairman of 
that committee, so we would like to delve into this further.
    Secretary Hagel. I will respond to you.
    Dr. Fleming. Thank you.
    I yield back.
    The Chairman [presiding]. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. I have some 
significant concerns. You know, after a year of various 
representatives from DOD testifying to your commitment to 
maintaining the National Guard as an operational force, I am 
concerned that the proposals as pertaining to the Guard 
aviation really does change the fundamental nature of that. By 
taking away the AH-64s [Apache helicopters], by taking away the 
Apaches, you have basically gotten rid of the combat aviation 
brigades in the Guard, so that instead of having aviation for 
combat, aviation brigades, you now have combat support, 
aviation support brigades. Does that not change the fundamental 
nature of the divisions, the Guard divisions, and how they can 
go into the fight?
    Secretary Hagel. If I might, I am going to ask the chairman 
to respond to this because the chairman, with his experience to 
begin with, has something to say about this, but more to the 
point, he and the chiefs, in particular the Army chief--and by 
the way, the National Guard chief, General Frank Grass, who was 
involved in all of this and, as you know, has a voice at the 
table with the other chiefs. And he is an important voice in 
all of this. And we listened carefully, obviously, to what 
General Grass's viewpoints were. I want you to know, first of 
all, before I ask the chairman to respond, is that we took a 
very clear look at all of this, what we are going to need for 
the future, roles of the Guard, Reserve, Active, how we bring 
value added to all of that, as we must, for the future. So if I 
might, I will ask the chairman to respond to that.
    Ms. Duckworth. Just before you respond, General Dempsey, 
just quickly, I understand that both General Grass and, of 
course, the Army chief himself had input into this. I do find 
myself somewhat skeptical when I hear the Army chief talking 
about how National Guard troops and Reserve troops only train 
39 days a year when we all know darn well that most of them do 
certainly more than that, and I certainly did more than that as 
an aviator.
    And I think that was either a careless statement or a 
statement meant to deceive. So I do have some skepticism when 
it comes to the Army chief's desire to not cannibalize the 
Guard in order to maintain his force.
    With that, General Dempsey.
    Secretary Hagel. General, may I just respond quickly. I am 
well aware of the comment. I am well aware of your concerns. I 
am also well aware of your distinguished service as an aviator. 
So I do know that you know exactly what you are talking about 
on this issue, so thank you.
    Mr. Chairman.
    General Dempsey. In the limited time available, but I am 
sure this will be a longer conversation as this evolves. But 
the Army's motivation in moving, particularly the Apache around 
is they are trying to move from seven air frames to four. I 
think you probably know that.
    Ms. Duckworth. I don't have a dog in this hunt because 
there is no Apaches in Illinois, so it is not a fight that I am 
in. But my question is, what does this do to the fundamental 
nature of the divisions in the Guard, as opposed to the Active 
Duty divisions if you take away the CABs [combat aviation 
brigades] out of the Guard's division?
    General Dempsey. You correctly point out that the aviation 
aspect--the combat aviation aspect of the Guard division will 
be fundamentally altered. But I do think, in terms of them 
remaining operational and having the other, I don't know, 12 or 
15 systems that define combat capable, in some ways, it will 
make us more interdependent, frankly, the Guard, the Active and 
the Reserve Component. And that is where I think we are headed 
by the way, more interdependence as opposed to 
interoperability. And by the way, the Air Force is probably 
ahead of us--ahead of the Army in that regard.
    Ms. Duckworth. I only have a minute left. I will take your 
answer for the record. I would like to know what analysis you 
did into the Active Duty taking over of equipment that was 
purchased with NGREA [National Guard & Reserve Equipment 
Appropriation] funding, specifically the 72s, the Lakotas, that 
many of them were bought with 2012 NGREA funding. That is 
funding that is provided by Congress directly to the Guard and 
to the Reserve to purchase equipment for a dual-use function, 
both combat and domestic, and if there is any analysis that you 
did on whether or not you can actually do that. Thank you.
    General Dempsey. Yeah, we will, Congresswoman. By the way, 
I am reminded that it is very challenging to have a 
conversation with a helicopter pilot about Army aviation.
    [The information referred to can be found in the Appendix 
on page 146.]
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Dempsey, thank you for your service as the Chairman 
of Joint Chiefs of Staff.
    And, Secretary Hagel, as the Secretary of Defense.
    And thank you both for your service in the United States 
Army as combat veterans.
    Our previous National Defense Authorization Act authorized 
the National Commission on the Structure of the Air Force, and 
I have got the report here. And it was issued on January 30 to 
the Congress, and it is very impressive. And I think one of the 
thesis of this report is that in order to save money without 
compromising capability, that we need to push more capability. 
We need to look at the force structure, and in this report, it 
looks at the United States Air Force and says, what can we do 
in the Guard and Reserve versus what can we do on Active Duty 
in terms of saving money? Your predecessor, Secretary of 
Defense Robert Gates, would tell us in these hearings that the 
trajectory of personnel cost is going to eat into acquisition 
costs, irrespective of what else happens to the budget.
    And so we now have, I think, I am co-sponsoring an 
amendment by Chairman Wilson of South Carolina, in the 
Personnel Subcommittee, that would set up the same process for 
the United States Army in terms of looking at its force 
structure and what could be done in the Guard and Reserve. I am 
writing amendments to do the same for the United States Marine 
Corps and the Navy. And so I am wondering where you see this 
going, because I really think that this is, having served in 
both the Army and the Marine Corps and in both their Reserve 
Components, I mean, I really think that we can rely on the 
Guard and Reserve more than we do, albeit we don't want to go 
back, as they transition from an operational reserve to a 
strategic reserve, we have got to make sure that we address 
their training requirements. We don't want to go back to the 
status quo ante when Reserve units are showing up or Guard 
units are showing up for the first call and were ill-prepared 
to go to combat.
    General Dempsey, I am wondering if you could address that.
    General Dempsey. You know, you are not going to find a 
bigger fan of the Guard and Reserve than me, having served 3 
years in Iraq almost consecutively. But I also, as we continue 
to do this analysis, and I think the Army, I am not sure 
whether we need a study or not. Frankly, it would depend on 
what charter you gave it and what composition you would direct. 
But let me set that aside for a minute. If you want someone to 
be ready and as capable as someone who is Active, then you have 
to pay for them to achieve that level of readiness. This really 
is not magic. So if you want a Guard who is ready tonight, it 
is going to cost you the same, precisely the same, as it will 
cost you to have an Active Duty. The issue for us is, again, 
that word keeps coming back, balance. And we are eager to have 
that conversation. We are not trying to direct it in any one 
particular direction. We think we have got in the Army's plan 
the proper balance. If someone suggests otherwise, then let's 
have that conversation.
    Mr. Coffman. We will have that conversation. And what you 
have just mentioned doesn't take into account the legacy cost 
where, you know, an Active Duty soldier may, with 20 years, 
retires at age, say, 40, 42, is going to draw 50 percent of 
their base pay from the date of retirement, whereas that 
reservist with 20 years is not going to draw it until age 60. 
There is significant legacy cost differences.
    Mr. Secretary, do you have any comments on this?
    Secretary Hagel. I think that the chairman laid it out 
pretty clearly, and I would just add to one thing he said. We 
are not trying to push anybody aside here. We would welcome the 
input and the ideas and just as Chairman Dempsey said.
    Mr. Coffman. Well, I think we are clearly going to look at 
how we structure this. I think these findings are impressive in 
this report. I have written the four recommendations in 
amendment form that I am going to try to put into the National 
Defense Authorization Act that will produce savings. And we are 
going to take the same processes to all the other branches of 
service.
    Thank you.
    Mr. Chairman, I yield back.
    General Dempsey. If I could, Mr. Chairman, I just want to 
ensure--I don't know this, but I suspect the Air Force hasn't 
had time to, not rebut it, but comment upon it and present 
their alternative view. And I would hate to have the 
recommendations in that review be placed into the NDAA in a 
binding fashion before we have this debate.
    Mr. Coffman. Mr. Chairman, in accordance to this report, 
the Air Force fully participated in it. Thank you.
    The Chairman. Thank you.
    Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your time today and for your 
service to our country.
    Particularly to Mr. Hale, congratulations, and we wish you 
good luck.
    I wanted to draw your attention, if I could, with my time 
to the $20 billion or so we spend every year on energy in the 
Department and to raise a little comment in response to 
something I heard about what happened at yesterday's Senate 
Armed Services Committee, where some of the folks attacked the 
Navy's investments in bio fuels, including algae and 
alternative energy resources.
    For my part, I wanted to just encourage you that I agree 
with you that the investments are designed to enhance 
operational security and that reducing the reliance on 
conventional fuels and improving the energy efficiency of our 
operations and installations has both strategic and tactical 
benefits but also promotes cost savings, which is important for 
us to support your mission as well, in terms of equipping our 
soldiers and our warfighters and our bases.
    So I want to commend the Department and the services for 
all the work they do and have continued to do to promote energy 
security and efficiency. I know there is a lot more work to do, 
but I just wanted to thank you, in particular, Mr. Secretary, 
for signing the letter to Senator Mikulski, dated January 2 
with Secretary Vilsack and Secretary Moniz. I appreciate that.
    My question on this was to sort of maybe give us an update 
on the latest initiatives to integrate energy considerations 
into planning and force development activities and then maybe 
give us some sense of how we can be helpful here at Congress in 
supporting that effort.
    Secretary Hagel. Thank you, Congressman. You know, we have 
an Office of Energy Resources Development and Assistant 
Secretary, and you deal with her I am sure and know her well. 
Starting with your number that we are in the area of about $20 
billion roughly of what we expend, DOD, on fuel and what it 
takes to propel this large enterprise. And we are constantly 
working inside, with others outside, as we develop research and 
finding ways to, yes, get cheaper, more effective, more 
efficient ways of producing energy, but secure, secure energy. 
And we have I think, over the last 10 years, done a lot of 
interesting things. I mean, you know about the third-party 
private sector investments on some of our bases where we get 
first priority to that energy. It is much cheaper. It is 
secure. It is there. But also, as you know well, we are all 
over the world, ships, planes, bases. So it is not just North 
America. We have got to rely on secure energy sources 
everywhere in the world, so we are constantly working to 
improve that and find new ways to do it and will continue to 
do.
    General Dempsey. If I could add from the military JCS 
perspective, we are interested in becoming more efficient, 
saving money, and so forth. But if you are looking for where 
you can be helpful, operational energy. For example, a U.S. 
Army or Marine Corps infantry platoon probably carries about 
400 pounds of batteries in order to power all the devices that 
we have given them over time. To the extent that we can invest 
in and find ways to either improve the batteries or somehow 
replace them, then we become more combat effective. And that is 
what we are interested in.
    Mr. Peters. I appreciate that. I always recount the story 
of my first visit from the Commandant of the Marines, as a 
member of this committee. He sat down with a whole group of top 
level Marine Corps officers, and the thing he wanted to talk to 
me about was solar energy. Not because he is a tree hugger, but 
in terms of in the battlefield, it has become so useful. And, 
of course, that is what this committee is about. So we want to 
be helpful and supportive. And also I know there are a lot of 
new smart grid technologies that help you out in the field 
remain independent from electric grids that might not be the 
most friendly in terms of our relationship with those 
countries. So I appreciate what you are doing. Thanks again for 
your service, and thank you for being here today.
    The Chairman. Thank you.
    We are getting close to our final series of votes, and I 
want to ask unanimous consent to enter Members' comments in the 
record for those who are in attendance but don't have a chance 
to address the witnesses, and then I would ask that those 
Members' questions be responded to the record promptly if you 
could.
    Secretary Hagel. Mr. Chairman, we will prioritize all those 
questions and get them back to you immediately.
    The Chairman. Thank you very much.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And I will be brief and try to give additional Members a 
chance to ask the question. You have been sitting there for 4 
hours, I guess, since 9:30 answering questions. And I have been 
sitting here wondering if I was going to get to ask one, so I 
don't know who has got the worst seat in the house.
    Just the point I would like to make, I know a lot of tough 
decisions are having to be made, and we are trying to balance 
national security with some very serious constraints. And I do 
hope that, after the upcoming elections, that we will get back 
to trying to get to the big deal where we are able to get the 
priorities of this country in order.
    It is clear to me that defense cannot take all of the cuts 
that are coming to the discretionary side of the equation, and 
choices have to be made. With that, I would make this one 
point. The A-10s, and I know you have heard a lot about it. The 
F-35 has not proven itself in battle yet. Once the F-35 has 
proven itself in battle, I may feel differently about this. And 
I certainly respect General Welsh and all of you at the table 
as well. But for the same price over the course of 5 years, you 
can have 212 F-35s and 246 A-10s, or you can have 238 F-35s, 
according to the numbers that come from what you have given us. 
So that is 212 F-35s and 246 A-10s or 238 F-35s over the 5-year 
period, and I would just respectfully submit that the 246 A-10s 
are more important to national security and protecting our men 
and women and our troops in combat and can do more than 26 F-
35s can.
    One of our admirals yesterday, was it Locklear, said that, 
you know, no matter how good the plane is or the ship is, it 
can't be in two places at one time. And I would just hope that 
you would consider that recommendation as we go forward.
    And with that, Mr. Chairman, I will yield the remainder of 
my time so that other Members can ask questions.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses, and particularly to Mr. 
Hale, went through that audit review subcommittee at 8:00 in 
the morning every week for a while, and you did great work 
helping us with that. So congratulations on a great career.
    Mr. Secretary, your budget in terms of shipbuilding is 
going to keep the Seapower committee busy this year, but again, 
obviously, a lot of hard work and thought has been put into it. 
And, again, we look forward to working with Secretary Mabus and 
others in that process. The investment in the SSBN [ballistic 
missile submarine] design account of $1.2 billion, I think, 
again, follows up all of the strategic review studies, Nuclear 
Posture Review, QDR, et cetera, about how important the 
replacement of the Ohio program is to our national defense. 
That, number one, is a very good move in terms of trying to 
bring down the costs, because the more design we can put on 
requirements and to get that--and they have made great progress 
going from $7 billion to $5 billion a copy.
    Again, this budget I think shows it is serious, (a) about 
the importance of the program and (b) about trying to continue 
that process of cost reduction. But obviously, looking out, we 
are going to hit a point when we have to start building these, 
that the strain on the shipbuilding account is going to be a 
bulge, and something has got to give here in terms of whether 
we can continue to maintain a 300-ship Navy and obviously meet 
this critical requirement.
    You know, Secretary Mabus was quoted the other day about 
the fact that we need to start having a national conversation 
about how we fund this program. It is a strategic, you know, 
issue in terms of our national defense. The triad post-SALT II 
[Strategic Arms Limitation Talks] is going to show that sea-
based nuclear deterrents is most survivable and probably is 
going to be the heaviest leg of the triad. And I guess the 
question is how do we get that conversation out of the realm of 
bar talk and start really having it serious, in terms of this 
committee and the Pentagon, in terms of, you know, whether 
again we fund it like we did missile defense and sort of 
outside of the Navy's account or whether we have to look at, 
you know, restructuring again the respective branches' budgets?
    Again, we have got good work from CRS [Congressional 
Research Service] that shows it is less than 1 percent of DOD's 
overall budget. But again, I think it is an issue that 2021, 
when we started buying these things, seemed maybe a long way 
away. It is not. We have got to start really focusing on this 
issue if we are going to protect the shipbuilding plan.
    Secretary Hagel. First, thank you, Congressman, for all of 
your time on this. I know how integral you have been and how 
important your leadership has been to this. As to your 
question, how do you develop a national conversation, I suspect 
to start with, the budget that we are presenting this week and 
the QDR that was brought up this week is going to generate some 
considerable interest and dialogue as we go along, as it 
should. It will come out of this committee. It will come out of 
the Budget Committee. It will be out of Appropriations. 
Everybody will have a hand at giving their opinion, as well as 
all the think tanks and all the writers and everybody who has 
something to say about this.
    Then I think the military organizations, military 
associations, those groups always have a perspective on this. 
And I suspect they will also weigh in on their perspective to 
your point, not just this budget but this budget being kind of 
the platform that can be used for that larger debate, which you 
are talking about, which you are right needs to be had, as to 
how does it integrate overall into our larger security system 
and our future, economics, all that go into that as well. So I 
think your point is right. I would welcome that.
    I think we are willing partners in that, and I think surely 
we have manifested that in every way, and we participate in 
every forum we are invited to. I know that is not a good 
answer----
    Mr. Courtney. Well, I think it is actually. It gives us 
some direction as we approach markup down the road. We really 
need to start incorporating some real language so that this 
issue gets fleshed out and, again, outside of just a sort of 
informal process, but we need to focus on this because it is 
going to be a big issue for the Navy's shipbuilding plan, and 
we want to balance all that. So I appreciate that answer.
    I yield back.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    I want to thank this distinguished panel.
    And first of all, I am going to submit questions to the 
record, but I just want to make a statement, and particularly 
as it relates to our National Guard and our aviators. I don't 
have a dog in the fight as it relates to the Apaches, but I 
have had the National Guard folks come and talk to me about 
their brigade combat team structure as it mirrors the Army, and 
so I get that.
    But I will say from a dad of three soldiers, one who is an 
Army National Guard chopper pilot, they train. It is not--when 
I was in the Air National Guard, we trained twice a month, and 
then we did our summer camp. These guys train all the time. I 
mean, they train not only on the weekend drill, but they train 
to keep proficient because they have to meet the same standards 
as any other helicopter pilot within the Army. So I just want 
to make sure that that is clear in regards to my stance.
    One last thing, as it relates to BRAC, I was not here when 
the last BRAC took place, but could you tell me, since 2005 
BRAC, what are the savings that we accrued since then? Do we 
have a dollar amount of what we have saved?
    Secretary Hagel. We do and the comptroller can go into as 
much detail as you want, but just very quickly, we are 
realizing from the past BRACs, I believe about $12 billion 
annually in savings, and we have all that documented how did we 
get to that and so on. The last BRAC, 2005, which gets held up 
is the bad BRAC, costs us money and so on and so on. That BRAC 
is not a good one to compare, partly because----
    Mr. Nugent. So the next BRAC is going to be better?
    Secretary Hagel. No, no. Go back----
    Mr. Nugent. I see Mr. Hale's head shaking yes.
    Secretary Hagel. Well, the next BRAC will be better, but 
for comparison reasons, you can't compare something that hasn't 
happened. For comparison reasons, the 2005 BRAC was as much 
about reorganization as it was about savings and doing the 
other things that you normally get out of BRAC, or at least 
that is the mission of BRAC, to eliminate overhead that you 
don't need. Past BRACs have done that, and we have accomplished 
significant savings, and I think we are looking at future BRACs 
if we can do this, and I will let Mr. Hale respond here, that 
it may be $2 billion a year.
    Mr. Nugent. I don't mean to cut you short, Mr. Secretary. 
Mr. Hale, if you would respond for the record to me because I 
would like to yield the rest of my time to Mrs. Walorski if she 
would like.
    Thank you very much again, gentlemen.
    [No answer was available at the time of printing.]
    Mrs. Walorski. Thank you, Representative Nugent.
    Gentlemen, thanks for being here.
    General Dempsey, what has been your role in the foreign 
transfers for transfers of GTMO [Guantanamo Bay Naval Base] 
detainees?
    General Dempsey. I don't have a role in the process, a 
formal role in the process, but the Secretary of Defense takes 
me into consultation.
    Mrs. Walorski. Do you concur on all those transfers? Do you 
have an official----
    General Dempsey. I don't have the responsibility to concur, 
but I consult. In other words, I discuss with the Secretary of 
Defense the risk in the transfer.
    Mrs. Walorski. Do you have any concerns about the potential 
risk of GTMO detainees to Yemen?
    General Dempsey. Yemen is a rather unstable platform and so 
the Yemenese in GTMO are a particular challenge to us.
    Mrs. Walorski. Do you agree with the White House assessment 
that there are some GTMO detainees that are too dangerous to 
transfer or release?
    General Dempsey. In general, I agree that, of the 155 
population, there are some who are too dangerous to transfer or 
release.
    Mrs. Walorski. And, Secretary Hagel, is the 
administration's policy still that the issue of concurrence 
from all national security principals is the needed before a 
foreign transfer?
    Secretary Hagel. Yes, and we do that.
    Mrs. Walorski. And do you have any reason to believe there 
will be changes to this practice of concurrence?
    Secretary Hagel. No.
    Mrs. Walorski. What happens if analysis by the Intelligence 
Community of a particular host country's capacity, willingness, 
and past practices impacts your determinations? So what if 
another agency comes up and says we have a problem, for 
example, moving to the Sudan or releasing these people; what 
happens then?
    Secretary Hagel. Well, we have to resolve it. I mean, you 
have given me a hypothetical, so we have to resolve it. So far, 
since I have been Secretary of Defense, every decision that I 
have made a determination on here has been concurred to.
    Mrs. Walorski. And do you have any reason to believe that 
that concurrence process will change?
    Secretary Hagel. No.
    Mrs. Walorski. Thank you. I yield back my time.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Secretary, the OCO [Overseas Contingency Operation] 
budget that you propose is of $79 billion, and yet we don't 
have an agreement with the Afghan Government about what to do, 
presumably until after the Presidential election in April. So 
can you give us an idea what the $79 billion is for?
    Secretary Hagel. Yes, I can. It is not all Afghanistan, as 
you know. To answer that, I will ask the comptroller to----
    Mr. Larsen. Just give me the $79 billion part.
    Secretary Hale. The $79 billion is a placeholder. We don't 
have an OCO budget and won't until conditions permit the 
President to make a decision about enduring presence, so there 
is no content behind it. It is simply a placeholder.
    Mr. Larsen. A $79 billion placeholder?
    Secretary Hale. Right.
    Mr. Larsen. Which is kind of in line, well, last year was 
80-ish; the year before was 80-ish.
    Secretary Hale. It is based on the request from last year 
and no more, no less. It is a placeholder. Once we get that 
decision, we will do a formal budget amendment, and then you 
will have detail behind it.
    Mr. Larsen. With regards to the BAH, Basic Housing 
Allowance, you noted in your either testimony or in the backup 
material that the average for someone across the force will be 
about 5 percent out of pocket after the changes. That is a mean 
average, so who is it--how is that going to fall? How is that 
going to distribute? Who is going to be paying zero percent, 
and who is going to be paying 10 percent?
    Secretary Hagel. Congressman, everybody will be paying 
something.
    Mr. Larsen. I understand that. Okay.
    Secretary Hagel. So 5 percent is as low as we believe it 
would go or as much as we would ask anyone to pay out of 
pocket.
    Mr. Larsen. So the backup documents we have say an average 
of 5 percent.
    Secretary Hale. Let me add to that. The way we are 
designing it is so that the out-of-pocket cost is equal by pay 
grade, because we felt that would be more understandable.
    Mr. Larsen. Proportional.
    Secretary Hale. And so it is going to vary by the high- or 
low-cost areas, and we can supply for the record the range. 
None will be zero, as the Secretary said. Some will be less 
than 5; some more.
    Mr. Larsen. All right. And finally, on TRICARE for Life, 
you are submitting a previous proposal on TRICARE for Life, 
what was the previous proposal?
    Secretary Hale. That there would be an enrollment fee of up 
to 1 percent of retired pay, with a maximum $300 per 
individual, except for flag and general officer retirees. Then 
it would be $400.
    Mr. Larsen. And that is for new retirees, not for existing.
    Secretary Hale. Correct. Only those who enter on or after 
enactment.
    Mr. Larsen. Great. I just want to know what my phone calls 
are going to be about. I appreciate it very much.
    Secretary Hale. Glad to help.
    Mr. Larsen. Thank you. Yield back.
    The Chairman. I would just like to clarify the question 
about OCO. That doesn't just count Afghanistan, does it? And it 
does have other, AFRICOM, there are some other expenses in 
there. And then we don't yet know what the final disposition of 
Afghanistan is going to be, so that number could go higher or 
it could go lower once you get to the point of actually looking 
at it, right?
    Secretary Hale. Right. I suspect it will be lower, but we 
don't know yet.
    The Chairman. Thank you.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Secretary Hagel, the President's initiative, the 
Opportunity, Security and Growth Initiative in the budget 
request offers $26 billion for additional defense spending, 
which I think is appropriate. I think a lot of people on this 
committee would agree that the defense budget is inadequate, in 
large part because of Congress, and we want to get it fixed.
    The challenge is it has been tied to an additional $30 
billion in domestic social spending. I was wondering in your 
opinion, do you think the President would be open to the idea 
of supporting the Department of Defense with that $26 billion 
apart from the additional $30 billion in domestic social 
spending.
    Secretary Hagel. That is a decision that the President 
would have to make, and I can't negotiate that for him, but I 
believe that that was presented as part of the total. Our $26 
billion is part of the total package, and that is the way it 
came in. But that would not be my role or responsibility. We 
are part of the total of the I think 58, 56, 58, yeah.
    Mr. Bridenstine. So, as the Secretary of Defense, your 
personal opinion, do you think that it is right to hold that 
$26 billion hostage for an additional $30 billion in social 
spending?
    Secretary Hagel. Well, my personal opinion is an opinion of 
the Secretary of Defense, and so----
    Mr. Bridenstine. Would you share that with us, as the 
Secretary of Defense, would that be your opinion that it is 
inappropriate to hold the $26 billion hostage to an additional 
30?
    Secretary Hagel. No. That was part of the President's total 
budget, just as we are part of the administration. And it was 
presented that way. Again, that is not my area. I think the OMB 
[Office of Management and Budget] Director was up here today. 
That would be a question I think for her. No, we are part of 
the administration's budget proposal as a whole.
    Mr. Bridenstine. Right. But the whole package, the whole 
initiative, is what is troubling. I would like----
    Secretary Hagel. I support the whole package, if that is 
what you are getting at. But that is not my responsibility. My 
responsibility is this $26 billion and doing everything I can 
to convince the Congress that my part of it is worthy of the 
consideration.
    Mr. Bridenstine. I think the challenge a lot of us have on 
this committee is the fact that we want to be there. We want to 
help, but it is difficult when the President puts us in a 
position where, okay, we will do that if, if you agree to an 
additional $30 billion in social spending, and that makes a lot 
of us look at the President's budget request and not take the 
military, the Department of Defense provision seriously, 
because it is almost like he put a poison pill intentionally so 
that the $26 billion would never get voted on. That is the 
challenge a lot of us on this side of the aisle see in this 
President's budget request.
    I have got about a minute and 50 remaining. The next 
question is, when you think about the nation of Israel and the 
United States and our support for the nation of Israel, if 
Israel were to be attacked today from Iran or another 
neighboring country, is the United States currently prepared 
and ready to respond to that attack?
    Secretary Hagel. Go ahead.
    General Dempsey. Yes, we have some defense agreements with 
Israel and contingency plans to support them.
    Mr. Bridenstine. Roger that. I yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    General Dempsey, you talked about, there is no choice but 
to raid the readiness accounts and that we have dug a 2- to 3-
year readiness hole. Part of the challenge is that when I go 
home, people don't see sequester as a big deal. Perhaps they 
don't understand. Perhaps they don't, so how would you--you 
know, the district that I represent from El Paso with Fort 
Bliss presence, Joint Base San Antonio on the other end, and 
Laughlin in the middle, it is clearly a huge issue. So how 
would you, if people say, for example, you can find more money 
through efficiencies, can you find more money through 
efficiencies? I mean, is that enough? Are there enough 
efficiencies out there to save you?
    General Dempsey. No, that is the right question, 
Congressman. Of course we can find more money in efficiencies, 
but we are talking about if you add up all of the different 
reductions that we are faced with, it comes out to a little 
over a trillion dollars. You can't find a trillion dollars 
worth of efficiency. I think the Secretary has driven us to 
wring out as much as we can, and we are still looking.
    The reason your constituents don't feel it though, is if 
you have got a unit at Fort Bliss or any other post, camp, or 
station in any of the other Armed Forces, what the community 
sees is whether those men and women are still getting paid. Are 
they still coming downtown to use restaurants and make 
purchases. They don't really see that they may be on the base 
not training.
    And so let me use the basketball analogy. It is that time 
of year. It is March Madness, and I don't mean the budget, 
although I might make that analogy. You know, if you have a 
basketball team, you can train it at individual skills. Then 
you put it together to scrimmage itself, and then, at some 
point, you scrimmage another team. And then, at some point, you 
actually put it in a game. Because of this readiness hole, 
there is a large portion of the Armed Forces that are doing 
individual drills and maybe playing games against themselves. 
But they are not training against a world-class adversary like 
you would at the National Training Center or someplace.
    Mr. Gallego. And so that ability not to train, does that in 
a very real way endanger our men and women in uniform as they 
go about trying to accomplish their missions?
    General Dempsey. I can give you a one-word answer to that: 
Yes.
    Mr. Gallego. Can you give me examples of how you would, as 
a believer in plain English as opposed to--the only part of 
politics I don't like is the political part because we all get 
caught up in the politics of it all. In very plain English, 
what has the sequester done, in two sentences or less, what has 
the sequester done to the military might of the United States?
    General Dempsey. In two sentences or less, it has forced us 
to make some bad investment decisions because we haven't had 
certainty, time, or flexibility to do otherwise, and it has put 
us in a position where we have had to raid--let me use another 
word--rob our readiness accounts in order to get the money we 
need to reduce, you know, to find where we can reduce it, 
because we don't have access to the other places in the near 
term.
    Mr. Gallego. And the impact of robbing those readiness is 
what?
    General Dempsey. Is that we are far less ready than we 
should be for the world that we confront.
    Mr. Gallego. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you.
    We have just under 6 minutes left in the vote. We have one 
final Member's questions to work in, but we have 314 that 
haven't voted.
    So, Mr. Byrne.
    Mr. Byrne. Secretary Hagel, I want to ask you some 
questions about the Littoral Combat Ship [LCS]. In your memo of 
24 February to the Secretary of Navy and in your prepared 
remarks today, which are virtually identical, you say that you 
want to see some alternative proposals made regarding the 
procurement of a capable and lethal small surface combatant 
generally consistent with the capabilities of a frigate. And 
then you give the Secretary of the Navy three options, one of 
which is to continue with the existing LCS, or modified LCS, 
and the other is to go forward with another existing vessel, or 
to design a new vessel.
    So let me ask a couple of questions. With regard to the 
LCS, clearly, by virtue of your wording there, if the Secretary 
of the Navy can show you that he can meet your requirements on 
capability and lethality, you would accept either an existing 
Littoral Combat Ship or modified version Littoral Combat Ship, 
would you not?
    Secretary Hagel. I don't think that was an option I gave in 
my directive as to go ahead with the LCS as it is. I think if 
you reread that, Congressman, I don't think that was what I 
said.
    Mr. Byrne. Well, I will read it back to you. It says, 
options considered should include a completely new design----
    Secretary Hagel. A completely new design is not the same 
LCS.
    Mr. Byrne. Existing ships design, and you say including the 
LCS. Then you say and a modified LCS, so by virtue of the fact 
that you include in your parenthetical including the LCS and an 
existing ship design, that would mean the existing LCS design?
    Secretary Hagel. I have given the Secretary of the Navy and 
the Chief of Naval Operations not options; I have given them 
directives as to what I want to see for them to come back to 
me, survivability, combat power, more capability. Can they do 
that with an existing design that would give more 
survivability, more capability, more combat power? That is not, 
in my opinion, why we need automatically 52 of the LCS's. The 
original point was the LCS is fulfilling, will fulfill the 
mission that we have asked it to fulfill. That is not in 
dispute. The bigger question--and I suspect you have read the 
entire memo--if you build out the LCS system to 52, in a 300-
ship Navy, that represents about a sixth of our Navy. Every 
test we have seen--never designed to do otherwise, which I 
agree with--but it doesn't have the survivability, capability, 
firepower, as ships we may well need to confront much more 
sophisticated adversaries, especially in the Asia-Pacific, in 
the next few years.
    Mr. Byrne. If it met those requirements, though, you would 
accept a modified LCS?
    Secretary Hagel. I have said that, yes, yes, if it meets 
those requirements.
    Mr. Byrne. Now, let me go to the other, and these were, the 
way I read it, it looks like these were options that you gave 
for him to look at and give you reports on. One was the 
development of a new design. In our current fiscal environment, 
which is very limited, as we have heard all day, is it 
practical, is it good common sense that we would actually go 
and design a new ship with the long time period that it would 
take to develop that ship and the attendant expense now that we 
have reached a fairly low expense on a per ship basis with the 
LCS down to $350 million a vessel?
    Secretary Hagel. Well, let's start with the LCS production 
lines as they are. As you know there are two different hulls; 
one made in Alabama and one made in Wisconsin. So there are 
variations to those hulls, and then you put on top of that the 
profiles and what we need to adjust there. What the Chief of 
Naval Operations [CNO] has advised me and combat surface 
commanders have advised me, and I have gone to talk to every 
one of them, including your guest yesterday afternoon, Admiral 
Locklear, about this, is you don't need to go back and spend 
billions of dollars of redesigning a ship. There is a lot of 
design already that you could build on the existing systems or 
match and mix and so on. CNO says it is doable. All of his 
commanders tell me it is doable to come back to them--back to 
me within the timeframe I have asked. And they have agreed with 
that. I think the CNO will tell you that, and I think Secretary 
Mabus will tell you that.
    Mr. Byrne. Well, I have talked to Secretary Mabus, and he 
has made it very clear that he considers the LCS to be a 
significant part of the future of the Navy. And one of the 
things that you have charged him with doing is looking at a 
potential new ship design that is based upon a frigate. The 
last frigate we commissioned was over 25 years ago. We don't 
have a frigate in operation or a shipyard that----
    Secretary Hagel. I didn't say based on a frigate. I 
referenced frigate in there, like a frigate. So it doesn't need 
to be a frigate.
    Mr. Byrne. We would have to design a new frigate or 
something like a frigate to meet that requirement if we didn't 
go with existing design.
    Secretary Hagel. That is your opinion, which I respect. 
What I am saying is the reference I am making is the CNO told 
me, sitting in my office, that they could do this; they could 
comply with my request. Secretary Mabus knows about this. He 
said, and he said it in a speech last week downtown, that it 
was a fair request, and he looked forward to complying to it 
and with it.
    The Chairman. The gentleman's time----
    Secretary Hagel. I know LCS is important to the Secretary. 
I spent a lot of time with the Secretary. I don't discount his 
advice, but there is enough testing out there, Congressman, 
that tells me and others who have evaluated this ship that 
there is a big, big question whether we want a sixth of our 
Navy to be LCS's.
    Mr. Byrne. Thank you, Mr. Chairman.
    The Chairman. But if we had a 500-ship Navy----
    Mr. Byrne. We will buy more.
    The Chairman. The gentleman's time is expired.
    Thank you very much for your patience, for your 
explanations. This hearing is adjourned.
    [Whereupon, at 2:00 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 6, 2014

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2014

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
      
   
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 6, 2014

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
      
         
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 6, 2014

=======================================================================

      
              RESPONSE TO QUESTIONS SUBMITTED BY MR. KLINE

    Secretary Hagel and General Dempsey. DOD considered some options 
for consolidating Combatant Command HQ staffs as part of our annual 
budget development and review process. However, we did not move forward 
with any changes in this year's request. We believe the current 
structure of six geographic and three functional combatant commands 
remains the most effective construct to address today's global security 
environment and the Unified Command Plan reflects this assessment. 
However, in accordance with Secretary Hagel's QDR direction, we are 
proceeding with a 20 percent reduction in all command staffs to provide 
future cost savings consistent with the intent of sequestration.   [See 
page 26.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. ROGERS
    Secretary Hagel Yes. The planned Aegis Ashore sites in Poland and 
Romania will add value to the defense of our allies and deployed forces 
in the European Command Theater of Operations. The Aegis Ashore Weapon 
System is a regional defense system designed to defeat short- and 
medium range ballistic missiles, and eventually intermediate range 
ballistic missiles. The system re-hosts the Aegis Ballistic Missile 
Defense (BMD) components of the Navy Aegis BMD Destroyer, including the 
water (surface ship) radar surveillance and control (SPY) radar, 
vertical launching system, computing infrastructure, command, control, 
communications, computers and intelligence systems and operator 
consoles in the ashore configuration. In its current configuration, 
Aegis Ashore cannot defeat cruise missiles, but that capability could 
be restored with software modifications and additional hardware.
    The Aegis Ashore System is designed so it can be constructed, 
disassembled, and moved, if necessary. However, it is not designed to 
counter ballistic missile threats from Russia.
    The Department already has dual capable aircraft rotating to NATO-
allied states in support of our deterrence mission in Europe.   [See 
page 32.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. WITTMAN
    General Dempsey. Any diminution of resources brings added risk to 
both the force and our military strategy. With respect to the Army, 
these risks will be manifested in less capacity and lower readiness. 
While it is unlikely we would lose a conflict, the cost of prevailing 
may now be higher, in both economic and human terms. To mitigate these 
risks, we must maintain and develop key capabilities. Therefore, 
modernization programs that provide the technological overmatch needed 
to deter or defeat our adversaries must be preserved. Specifically, it 
is critical we maintain an intelligence apparatus capable of providing 
the warning and time required to mobilize capacity and regenerate 
readiness in response to a crisis. This budget aims to strike this 
delicate balance between capability, capacity, and readiness that 
ensures we will win any conflict while managing the risks to our men 
and women.   [See page 41.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MS. SPEIER
    Secretary Hagel As you know, last May, I ordered refresher training 
and a review of credentials and qualifications of Sexual Assault 
Response Coordinators (SARCs), Sexual Assault Prevention and Response 
(SAPR) Victim Advocates (VA), and recruiters. Some of the Services 
expanded their reviews. In addition, subsequent and separate from these 
reviews, the Department published detailed criteria for the screening, 
selection, training, certification, and decertification of SARCs and 
SAPR VAs who serve the Department. These criteria were published in 
January 2014, and such exacting standards should help ensure that the 
Department fields professionals of the highest caliber in our advocacy 
programs.
    Based upon the practices identified by the Services and our Defense 
Sexual Assault Advocate Certification Program, I intend to direct the 
Acting Under Secretary of Defense for Personnel and Readiness to review 
and determine if additional standards are necessary to screen, select, 
train, and certify occupants of sensitive positions supporting SAPR or 
those who directly engage, support, or instruct our newest and most 
vulnerable service members. These positions include: SARCs, SAPR VAs, 
recruiters, healthcare providers authorized to conduct a Sexual Assault 
Forensic Exam, Special Victims Capability Investigators, Special 
Victims Capability Legal Team, Special Victims Counsel, and initial 
military trainers. Following this review, I will determine if a 
rescreening of these sensitive positions is necessary.   [See page 37.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. KILMER
    Secretary Hagel The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)), the Honorable Frank Kendall, 
directed a number of parallel efforts to institute a continuous 
improvement process for the Defense acquisition system. Prominent 
elements include: Better Buying Power initiatives; an interim policy 
update to the Department of Defense Instruction (DoDI) 5000.02, 
``Operation of the Defense Acquisition System''; a more dynamic 
coupling of military requirements and Defense Acquisition processes; 
and a review of current statutes aimed at suggesting a comprehensive 
consolidation and streamlining of legislative prescriptions for Defense 
acquisition.
    If the Congressman or the Committee would like more information on 
any of these initiatives directed by Mr. Kendall, his staff would 
welcome the opportunity to provide a briefing.   [See page 43.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Secretary Hagel. No UH-72 Lakota's purchased with NGREA funds have 
been transferred from the Army National Guard (ARNG) to the Active 
Component Army. The ARNG received two UH-72 Lakota's from NGREA funding 
in 2012 and were funded for an additional 127 aircraft from 2009 thru 
2012. The two UH-72's that were purchased with NGREA funds were 
delivered in 2013 to the ARNG's High-Altitude Army National Guard 
Aviation Training Site (HAATS) in Centennial, Colorado. HAATS provides 
high altitude training for military pilots from all Services and 
components, as well as to approved international aircrew. This unit has 
a training mission and there is no intent to remove any Lakotas from 
the ARNG at this time.
    The Assistant Secretary of Defense for Reserve Affairs tracks all 
equipment procured for the National Guard and Reserve, including the 
equipment filtered through the Active procurement appropriations as 
well as that procured using NGREA. The ARNG is currently scheduled to 
receive an additional 34 UH-72's in the FY2013 P-1R as well as a 
Congressional addition in FY 2014 of $75M for 10 aircraft.   [See page 
46.]
    General Dempsey. No UH-72 Lakota aircraft, NGREA or otherwise 
funded, have ever been transferred from the National Guard to the 
Active Army. Such a transfer was initially considered under the Army's 
Aviation Restructuring Initiative, but ultimately rejected. Any 
transfers of aircraft that may occur between the National Guard and the 
active Army as part of this initiative will be in full compliance with 
all applicable laws.   [See page 46.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. Are you adequately resourced to plan, execute, and 
oversee the contract support you would need in the event of a major 
contingency?
    Secretary Hagel. In conjunction with the Joint Staff and the 
Services, the Office of the Secretary of Defense (OSD) continues to 
institutionalize operational contract support (OCS) through a variety 
of initiatives in the areas of education, training, joint exercises, 
and doctrine; incorporating lessons learned from exercises and current 
operations. The Department has established the OCS Functional 
Capabilities Integration Board to actively monitor all ongoing and 
planned OCS related initiatives across the Department.
    Initiatives include: expanding OCS training for contingency 
contracting officers, planners and senior leaders; infusing OCS into 
operational plans and developing OCS planning factors; developing 
automated tools; developing an OCS common operating picture; 
integrating OCS into the Chairman Joint Chiefs of Staff Exercise 
Program and executing stand-alone OCS focused joint exercises; testing 
the OCS Mission Integrator (OMI) Concept; developing OCS measures of 
effectiveness; and, formalizing our measure of OCS readiness using the 
Defense Readiness Reporting System.
    While the Department has made progress in establishing a burgeoning 
OCS capability for current and future contingency operations, funding 
for OCS initiatives will continue to face resourcing challenges and 
fiscal risk in light of the Department's overall limited resources.
    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. Are you adequately resourced to plan, execute, and 
oversee the contract support you would need in the event of a major 
contingency?
    General Dempsey. Resourcing to plan, execute, oversee and integrate 
operational contract support (OCS) across the Department of Defense has 
many facets, multiple equities, and currently disparate resourcing 
streams. As such, achieving the ability to adequately plan, execute and 
oversee contract support in event of a major contingency requires a 
culture change that can only occur with institutionalization of the key 
tenants of OCS across the DOTMLPF-P spectrum from strategic to tactical 
levels. The FY14-17 OCS Action Plan, currently in staffing, includes 
over 180 strategic actions to address the highest priority gaps 
outlined in the 2011 Joint Requirements Oversight Council-approved OCS 
Initial Capability Document. In scoping the associated tasks and 
setting completion dates, the Action Plan's stakeholders have factored-
in available resources. However, more work remains to be done to 
determine the full set of actions and costs. The Department provided a 
``Report on Contingency Contracting and Operational Contract Support 
(OCS) Lessons Learned'' in December 2013. This report addressed OCS 
efforts across doctrine, organization, training, materiel, leadership & 
education, personnel, facilities and policy (DOTMLPF-P) in response to 
Title VIII, Items of Special Interest, Report on Contingency 
Contracting Lessons Learned, of the fiscal year 2013 House Armed 
Services Committee (HASC) Report (112-479). The report highlights the 
Department's progress since 2003 in developing and implementing actions 
to educate and train acquisition and non-acquisition personnel in 
requirements development and the planning, execution, and oversight of 
contracting actions, what we call ``OCS'', in response to 
contingencies. Since submission of that report, the Department:
    <bullet>  Conducted the first-ever OCS joint exercise (OCSJX) in 
January 2014 with over 500 participants including contractors.
    <bullet>  Taught the Joint OCS Planning and Execution Course 
(JOPEC) to 113 students from four geographic combatant commands (GCC) 
with plans to train an additional 106 students from the other GCCs 
before the end of the fiscal year.
    <bullet>  Provided the Joint Forces Staff College tailored 
educational material for integrating OCS into their Joint and Combined 
Warfighting School (JCWS) curriculum. The Joint and Combined 
Warfighting School plans to adapt this new material fully to their 
existing curriculum by the 2nd quarter FY15.
    <bullet>  Is updating the ``Introductory OCS Commander and Staff 
Course'' for the department's on-line training program, ``Joint 
Knowledge Online,'' with release aligned to publication of the updated 
Joint Publication 4-10, Operational Contract Support, this FY.
    <bullet>  Began initial planning with U.S. Pacific Command 
(USPACOM) to serve as the supported commander for OCSJX 2015.
    <bullet>  Initiated an effort with USPACOM to demonstrate the OCS 
Mission Integrator (OMI) element identified in the approved OCS Joint 
Concept.
    As stated in the 2014 Quadrennial Defense Review, the Department is 
committed to the opportunity represented by a Total Force mindset. 
Properly integrated and managed, OCS can help mitigate the risks 
intrinsic in a smaller, uniformed force structure and address many 
lessons from the last decade of war. To assure this outcome, it would 
benefit from continued institutionalization across DOTMLPF-P.
    The OCS Joint Concept was approved by JROCM 159-13 and guides OCS 
capability development for JF 2020. The OCS Joint Concept is aligned to 
the Capstone Concept for Joint Operations (CCJO) and depicts a Total 
Force enabling concept that integrates OCS into global military 
operations. The OMI is the major organizational solution element in the 
OCS Joint Concept. The 2014 QDR states, ``Given the planned reductions 
to the uniformed force, changes to our force structure, and the 
Department's strategic direction under fiscal constraints, the 
Department must continue to find efficiencies in its total force of 
active and reserve military, civilian personnel, and contracted 
support. The Department needs the flexibility to size and structure all 
elements of its Total Force in a manner that most efficiently and 
effectively meets mission requirements, delivers the readiness our 
Commanders require, and preserves the viability, morale, and welfare of 
the All-Volunteer Force.''
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Each of the COCOMs that have testified before this 
committee this year have expressed their dependence on key enablers, in 
particular ISR. Understanding that there are very real budget 
limitations that you have had to work within, where have you had to 
accept risk across the Department's ISR capabilities, and are you 
comfortable with the balance between the DOD's ISR resources and those 
of the Intelligence Community?
    Secretary Hagel. The Department of Defense's FY 2015 budget request 
reflects those critical choices necessary to address key intelligence 
requirements in support of today's operations, while making the 
necessary investments to maintain our intelligence advantage. In this 
period of declining resources, however, those choices come with 
increased levels of risk for some mission areas. For instance, 
reductions to force end-strength pose some mission risk as the 
intelligence challenges that DOD faces, now and in the future, will 
continue to increase in number and complexity. As part of these budget-
driven manpower reductions, DOD reduced the direct support staffs at 
the COCOMs' J-2s and Joint Intelligence Operations Centers (JIOCs).
    Global rivals and potential adversaries are developing advanced 
capabilities and sophisticated weapons systems, which will inevitably 
post increased risks to our forces and National Security. To meet these 
emerging threats, more advanced systems and capabilities will be 
required. However, existing budget constraints have forced DOD to 
terminate or delay some operational or modernization programs in order 
to protect higher priorities in procurement, research, and development. 
For example, DOD's decision to retire the U-2 and retain the RQ-4B 
(Global Hawk Block 30) acknowledges our willingness to accept a 
capability risk in manned high-altitude ISR in favor of long-term 
affordability.
    It is the Department's position that the FY 2015 President's budget 
request strikes an effective balance between the resources of the DOD 
ISR enterprise and those of the Intelligence Community. As always, DOD 
will continue to work closely with the Office of the Director of 
National Intelligence to adjust resources as needed in order to 
continue providing unmatched ISR capabilities in support of the 
National Security Strategy.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. With regard to prior rounds of Defense Base Closures 
and Realignments (BRAC), how many bases which were closed in the 1991, 
1993, 1995, and 2005 rounds of BRAC have ended up in private ownership 
(meaning private sector or non-profit)? You may answer in terms of 
total acreage or percentages of bases.
    Secretary Hagel. The Department tracks property disposed under BRAC 
by acreage across conveyance or disposal methods delegated by the 
General Services Administration. The 1988, 1991, 1993, 1995, and 2005 
rounds of BRAC resulted in the Department conveying 168,099 acres (35%) 
of the property to Federal agencies, and 307,883 acres (65%) to non-
Federal users, including state and local governments, non-profits, and 
private-sector interests.
    Mr. Bishop. With regard to prior rounds of Defense Base Closures 
and Realignments (BRAC), how many bases which were closed in the 1991, 
1993, 1995, and 2005 rounds of BRAC have ended up in private ownership 
(meaning private sector or non-profit)? You may answer in terms of 
total acreage or percentages of bases.
    General Dempsey. There are a range of BRAC property disposal 
authorities for public benefit uses, such as parks, schools, and law 
enforcement. Public benefit conveyances (surplus real property 
converted for public uses) account for 14% (69,009 acres) of disposed 
BRAC properties. In addition, BRAC property can be conveyed to a Local 
Redevelopment Authority (LRA), which is a DOD-recognized public entity, 
through an Economic Development Conveyance (EDC), for job creation 
purposes. EDCs account for 28% (133,060 acres) of disposed acreage. 
Once conveyed, the LRA, rather than the Department of Defense, may 
lease or sell this property to the private sector for economic 
development purposes. BRAC property also can be conveyed directly to 
the private sector through a public bid sale process, and this disposal 
method accounts for 2% (8,622 acres) of disposed BRAC properties. Other 
BRAC disposal methods include conservation conveyances (13%/60,646 
acres), DOD-to-DOD transfers (3%/14,288 acres), Federal transfers (15%/
72,791 acres), reversions where future interest is retained (18%/86,393 
acres), negotiated sales to public entities (2%/11,193 acres), and 
other miscellaneous disposal methods (4%/19,980 acres).
    NOTE: Answer coordinated with USD(I&E) Office of Economic 
Adjustment using GSA 2012 BRAC Oversight Report dtd December 31, 2012.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. As we continue modernization of our nuclear deterrent 
and prepare to invest $355 billion in the nuclear weapons enterprise 
(CBO estimate), can the pursuit of further verifiable nuclear weapons 
reductions increase national security? What are Russian (and Chinese) 
concerns about discussing further nuclear weapons reductions?
    Secretary Hagel. In the course of developing the current nuclear 
employment guidance, the Administration determined that the United 
States can pursue some further reductions while maintaining strategic 
deterrence and stability, regional deterrence, and assurance of our 
allies and partners. However, any such reductions should only be 
conducted on a mutually agreed upon basis. Russia has so far shown no 
interest in negotiating further reductions, nor would the current 
climate be conducive to such negotiations.
    The United States does not anticipate negotiating nuclear arms 
reductions with China in the near term. Rather, our goal is to engage 
in a meaningful and sustained dialogue about how each side views 
nuclear weapons and their respective military modernization, because 
this can play a role over time in preventing miscommunication, 
misperception, and miscalculation in the relationship. We will continue 
to discuss such matters in the P5.
    Mr. Cooper. As we continue modernization of our nuclear deterrent 
and prepare to invest $355 billion in the nuclear weapons enterprise 
(CBO estimate), can the pursuit of further verifiable nuclear weapons 
reductions increase national security? What are Russian (and Chinese) 
concerns about discussing further nuclear weapons reductions?
    General Dempsey. The United States can pursue further reductions 
while maintaining strategic deterrence and stability, regional 
deterrence, and assurance of our allies and partners. However, I 
believe such reductions should only be done on a mutually negotiated 
basis, with full consideration for the trajectory of other potential 
threats and in a manner that maintains strategic stability. Even then, 
our plan to modernize our nuclear deterrent and recapitalize its 
supporting infrastructure remains fragile and very vulnerable to 
additional budget cuts, which could alter our calculus for maintaining 
strategic stability.
    As we continue to implement guidance from the Nuclear Posture 
Review and the most recent nuclear weapons employment strategy, we 
remain focused on maintaining and improving strategic stability with 
Russia and China. We intend to maintain this stability with the lowest 
possible number of nuclear weapons. However, Russia, by its words and 
actions, has demonstrated no interest in negotiating further reductions 
until after the New START Treaty limits are achieved and we will not 
enter into any agreement with the Russian Federation that is not in the 
national security interest of the United States. Russia has expressed 
significant reticence with proceeding down a path of further strategic 
nuclear reductions without including other nuclear weapons states in 
the next phase of disarmament. Furthermore, Russia perceives the West 
as having technologically and numerically superior conventional forces; 
its primary defense against an overwhelming conventional threat remains 
its nuclear deterrent. Therefore, it seeks to retain the level of these 
forces as long as it can while modernizing its conventional forces to a 
level commensurate with peer competitors. With regard to Chinese 
interest in nuclear weapons reductions, we continue to discuss such 
matters in the P5 although China has not expressed interest in such 
reductions.
    Sources: FACT SHEET: Nuclear Weapons Employment Strategy of the 
United States, http://www.whitehouse.gov/the-press-office/2013/06/19/
fact-sheet-nuclear-weapons-employment-strategy-united-states Report on 
Nuclear Weapons Employment Strategy of the United States (RNES), 
Specified in Section 491 of 10 U.S.C. http://www.defense.gov/pubs/
reporttoCongressonUSNuclearEmploymentStrategy_Section491.pdf
    Mr. Cooper. Do you support the process by which the DOD is 
considering reducing potentially up to 50 ICBMs to determine how to 
best implement New START and ensure we maintain a strong nuclear 
deterrent? Why is this process important? What would be the consequence 
of prohibiting any reductions to the number of ICBM and ICBM silos?
    General Dempsey. The Department has carefully considered the 
strategic implications of the various options for implementing a 
nuclear force structure within New START limits. I have supported and 
participated in this process, which concluded with the announcement of 
a treaty-compliant U.S. strategic force structure composed in part of 
400 deployed Minuteman III ICBMs, for a total of 454 deployed and non-
deployed launchers of ICBMs. We've taken the New START reductions in a 
manner that best preserves our TRIAD. Prohibiting reductions in any one 
leg of the TRIAD will have a profound affect on the other legs.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. During the DOD's Strategic Choices Management Review 
(SCMR) and development of the FY15 DOD Budget Request--did you task 
Combatant Commanders to submit plans to consolidate HQ staff and move 
to a more streamlined or regionally aligned Combatant Command structure 
that reduces the number of commands?
    Secretary Hagel. During the Strategic Choices Management Review the 
headquarters team, which included representatives from Office of the 
Secretary of Defense (OSD), the Joint Staff, the Military Departments, 
and the Combatant Commands, did consider all options including 
consolidation of the Combatant Commands. Given the global security 
environment, the SCMR ultimately decided that the current structure of 
six geographic commands and three functional commands remains the most 
effective construct. While the Department will continue to exploit 
opportunities to reduce costs, including organizational modifications, 
it must also ensure that critical operational capacities necessary to 
attain national security objectives are preserved.
    Mr. Kline. While the Department of Defense developed the FY15 
budget request, did the Department of Defense review plans to 
consolidate Combatant Command HQ staff? If so, why did the Department 
not move forward with such a plan? How much money and manpower did the 
Department of Defense project would be saved by consolidation of 
Combatant Commands?
    Secretary Hagel. DOD considered some options for consolidating 
Combatant Command HQ staffs as part of our annual budget development 
and review process. However, the department did not move forward with 
any changes in this year's request. The current structure of six 
geographic and three functional combatant commands remains the most 
effective construct to address today's global security environment and 
the Unified Command Plan reflects this assessment. However, in 
accordance with the QDR's direction, the department is proceeding with 
a 20 percent reduction in all command staffs to provide future cost 
savings consistent with the intent of sequestration.
    Mr. Kline. What is the status of DOD's implementation of all four 
of GAO's recommendations in its May 2013 Report (GAO-13-293) entitled--
``DOD Needs to Periodically Review and Improve Visibility Of Combatant 
Commands' Resources?''
    Secretary Hagel. The DOD has begun implementing the four 
recommendations identified by GAO in its May 2013 Report (GAO-13-293) 
entitled--``DOD Needs to Periodically Review and Improve Visibility Of 
Combatant Commands' Resources.''
    <bullet>  GAO Recommendation 1: Periodic evaluation of the 
Combatant Commands and their existing size and structure to meet their 
current missions. While the Department non-concurred with this 
recommendation, the Joint Manpower and Personnel Program, CJCS 
Instruction (CJCSI) 1001.01A, is currently under revision and the DOD 
is examining other methods to determine the proper size and structure 
of Combatant Commands.
    <bullet>  GAO Recommendation 2: Requirement for the Combatant 
Commands to identify, manage, and track all personnel data. The 
Department concurred with this recommendation and is revising CJCSI 
1001.01A as well as the DOD Directive Guidance for Management of 
Manpower (DOD Directive 1100.4). Moreover, the Fourth Estate Manpower 
Tracking System (formerly e-JMAPS) will track all personnel data, 
including temporary personnel, and identify specific guidelines and 
timelines to input/review personnel data.
    <bullet>  GAO Recommendation 3: Requirement for the Joint Staff, 
the Combatant Commands, and the Service components develop and 
implement a formal process to gather information on Service component 
commands' personnel. The Department concurred with this recommendation. 
Currently, the Joint Staff's formal process is to request assistance 
from the Service Components to track personnel billets.
    <bullet>  GAO Recommendation 4: Provide full-time equivalent 
information and detailed funding information for each combatant command 
with the annual budget documents. The Department concurred with this 
recommendation and is currently working with the Services to determine 
the most efficient method for collecting this level of information. The 
method for collecting this information will be included in an update to 
the DOD Financial Management Regulation (FMR) (DOD FMR 7000.14R) to 
support the future Program Budget Review cycle.
    Mr. Kline. What is the current status of implementation of the 
TRICARE Prime changes for those retirees not within 100 miles of a 
Military Treatment Facility (MTF) that began on October 1, 2013? Is the 
Department of Defense keeping statistics on retirees transitioned from 
TRICARE Prime to TRICARE Standard? Is the Department of Defense 
tracking the changes in costs to the retirees who were transitioned 
beginning October 1, 2013, to TRICARE Standard from TRICARE Prime? What 
is the DOD's estimated savings and cost rationalization for 
transitioning retirees outside the 40 mile radius of an MTF (now 100 
miles under the FY14 NDAA) from TRICARE Prime to TRICARE Standard?
    Secretary Hagel. The TRICARE beneficiaries who were not eligible to 
continue their TRICARE Prime enrollment, had on October 1, 2013, 
immediate access to TRICARE Standard. The Department is not tracking 
these beneficiaries, although it initially identified 181,000, of the 
5.4 million TRICARE Prime enrollees, impacted by the closure of the 
Prime Service Area (PSA) where they live. Approximately 32,600 of those 
beneficiaries re-enrolled in a remaining PSA. The Department did not 
close a PSA built around a military treatment facility (MTF) or base 
realignment (BRAC) site. In 2009, a TRICARE Standard beneficiary paid 
about $19.50 more per month in out-of-pocket costs compared to a 
TRICARE Prime beneficiary.
    Eliminating the non-MTF and non-BRAC PSAs reduces the cost of 
administering TRICARE by approximately $45 to $56 million per year. The 
projected savings are based on a TRICARE Prime enrollee's healthcare 
cost being about $600 more per year than the cost of providing TRICARE 
Standard, and the administrative savings involved with establishing and 
maintaining the PSAs. The National Defense Authorization Act for Fiscal 
Year 2014 gives the beneficiaries dis-enrolled from TRICARE Prime on 
October 1, 2013, due to the PSA changes, a ``one-time'' election to 
continue their TRICARE Prime enrollment. Dis-enrolled beneficiaries who 
reside: (1) in a zip code that was a PSA as of September 30, 2013, and 
(2) within 100 miles of a military MTF, are eligible to make this one-
time election. To ensure the affected beneficiaries are aware of their 
one-time enrollment option, they will be mailed a letter advising them 
of re-enrollment options and processes. The letters will be mailed at 
the end of April 2014. The beneficiaries will have until June 30, 2014, 
to make their election.
    Mr. Kline. There remains two vacancies on the Advisory Committee on 
Arlington National Cemetery. When does the Department of Defense intend 
to fill the two current vacancies on the Advisory Committee on 
Arlington National Cemetery? Does the Department of Defense intend to 
nominate a member with a background in the United States Marine Corps 
to fill at least one of the positions?
    Secretary Hagel. The Army is currently processing nominations and 
diligently working to fill the two current vacancies. With regard to 
the composition of the Advisory Committee, the Secretary of the Army is 
committed to ensuring the Advisory Committee is comprised of members 
who are committed to our nation's veterans and their families with 
demonstrated technical expertise, professional preeminence, relevant 
points of view, and no potential conflict of interests.
    Diverse representation of all constituent interest is critical to 
meeting the Committee's chartered purpose. The Secretary of the Army is 
committed to ensuring that all branches of the military services are 
represented, as well as ensuring, whenever possible, appropriate Gold 
Star Family representation on the Committee. Additionally, subcommittee 
representation beyond parent committee members has yet to be finalized, 
but the intent is to round out the subcommittees with members having 
specific interest or expertise in a subcommittee's area of 
responsibility.
    Mr. Kline. What does the Department of Defense plan to do to 
address the recent ethics and integrity issues?
    Secretary Hagel. There are a variety of efforts and specialized 
training programs underway in DOD that are being managed by the Office 
of the Secretary of Defense, the Joint Staff, and the Military 
Departments. Key among these efforts are a number of professional 
character initiatives for flag and general officers developed by the 
Chairman of the Joint Chiefs of Staff and endorsed by the Secretary of 
Defense. These initiatives include staff assistance visits to the 
Combatant Commands to review practices and procedures with respect to, 
for example, acceptance of gifts and use of Government vehicles and 
military aircraft. Senior leader ethics continuing education will occur 
as a follow-up to the staff assist visits. Further, a character-focused 
360 degree assessment for military leaders is undergoing testing with 
full implementation among the Joint Staff and Combatant Commander 
general and flag officers by mid-summer 2014.
    Several of these professional character initiatives include 
enhancements to DOD's ethics program that are being managed by the DOD 
Office of General Counsel (OGC). For example, last year, OGC created 
the Committee on Standards of Conduct (CSC). The CSC was established in 
response to requests for enhanced clarity and consistency in the legal 
interpretations of DOD regulations and other policies which promote the 
ethical conduct of DOD military and civilian personnel and the proper 
use of DOD resources. Its purpose is to facilitate the resolution or 
reconciliation of disparate legal interpretations of DOD ethics policy 
issuances, thereby promoting consistency in legal advice.
    Additionally, in 2013, the Department's Office of General Counsel 
(OGC) conducted leader-led, values-based ethics training for the 
personnel of the Office of the Secretary of Defense. The live training 
sessions were intended to better equip DOD personnel to evaluate 
ethical dilemmas and make ethical decisions relying on both ethics 
regulations and fundamental ethical values. OGC will continue to 
facilitate leader-led values-based training in 2014. Importantly, OGC 
also made its values-based ethics training materials available to the 
Military Departments and the Joint Staff, and encouraged them to use 
these materials as part of their 2014 training. The Military 
Departments and the Joint Staff are currently investigating how to 
include these materials in their annual ethics training.
    In addition to these professional character initiatives, I directed 
an assessment of the curricula of a variety of professional military 
education offerings available to military officers at every stage of 
their careers, as well as an evaluation as to whether these educational 
opportunities sufficiently reflect and reinforce fundamental ethical 
values and the hallmarks of ethical leadership. The review by the 
Chairman and Service Chiefs documented that core values and ethical 
leadership are a major focus of professional military education (PME) 
throughout the Department.
    Earlier this year, Chairman Dempsey and I appeared in a broadcast 
on the Pentagon Channel, during which we emphasized the importance of 
leadership, professionalism, and character to members of the DOD 
community.
    Finally, on March 25, 2014, I announced the appointment of Navy 
Rear Admiral Margaret Klein to serve as my senior advisor for military 
professionalism. Rear Admiral Klein will serve as the coordinator for 
the DOD to help to ensure the effective integration and implementation 
of ongoing efforts to further improve professional conduct, to include 
moral and ethical decision-making. Under the charter of her new office 
she will make recommendations to the Secretary of Defense, the Chairman 
of the Joint Chiefs of Staff, and the Military Departments, as 
appropriate, in order to complement and enhance the efforts listed 
above.
    Mr. Kline. Does the Department plan to appoint a panel or military 
or civilian lead to review current accountability standards to address 
ethics and integrity issues? Has the Department of Defense looked at 
expanding 360 reviews for Commanders and Senior Enlisted at all levels? 
Has the Department of Defense looked at new DOD screening methods for 
entry level--mid level--or senior level leaders to address ethics and 
integrity issues? Has the Department of Defense looked at current 
whistleblower protections and issues with service members that come 
forward having a hard time getting retaliatory information from their 
service records which effectively discourages reporting?
    Secretary Hagel. I recently appointed Rear Admiral Klein to serve 
as my senior advisor for military professionalism. I anticipate that 
among her core responsibilities, she will examine accountability 
standards and measures as they relate to issues of integrity and 
military professionalism.
    The Joint Staff is developing a 360 degree assessment focused on 
character for general and flag officers serving in joint assignments. 
Testing of the 360 degree assessment instrument is on track for the 
April-May 2014 timeframe. Once the 360 degree tool is fully vetted and 
implemented, the Joint Staff will look to expand it to Joint Staff 
Senior Executive Service, military O-6, and civilian GS-15 personnel.
    Each of the Military Departments has a variant of the 360 degree 
assessment tool in use or under development. The Army's 360 degree 
program is the most mature, while the Air Force instituted a general 
officer 360 degree program in 2013. The Navy uses a 360 degree 
instrument for new flag officers and for some two- and three-star 
officers. The Marines' program is in the initial development stage.
    Character and standards of conduct are considered in each of the 
service officer and enlisted military performance evaluation processes, 
and service members receive feedback on their performance as part of 
those processes.
    When a service member is a victim of reprisal for being a 
whistleblower, the service member may petition his or her Military 
Department's Board for Correction of Military (or Naval) Records for 
relief. The Boards consider each petition carefully, and have broad 
discretion to fashion relief appropriate to the circumstances of each 
case. Given the availability and robust nature of this remedy for 
whistleblowers who suffer reprisal, and the few cases where those 
service members who petition the Boards express disagreement with the 
resulting Board action; the Department currently has no plans to 
further review this issue. However, the Department will continue to 
monitor this issue, and will take action should doing so become 
appropriate.
    Mr. Kline. Does the DOD have a requirement to report to Congress 
when the Department or a specific service begins any investigation of 
an ethics lapse or widespread integrity violation issue?
    Secretary Hagel. DOD and the Military Departments Inspectors 
General initiate investigations into alleged ethics violations. 
However, there is no requirement for reporting to Congress on such 
initiation. Reporting such information before a thorough and objective 
investigation is completed risks harm to the investigative process, as 
well as to the individual's privacy, personal reputation, and right to 
impartial adjudication of the allegations. The DOD Inspector General 
provides Congress with a semi-annual report that summarizes its work, 
as well as the work of the audit and investigative agencies of the 
Military Departments. This report highlights, among other things, 
substantiated cases of senior official misconduct, criminal 
convictions, and suspensions and debarments of non-Federal entities.
    Mr. Kline. While the Department of Defense developed the FY15 
budget request, did the Department of Defense review plans to 
consolidate Combatant Command HQ staff? If so, why did the Department 
not move forward with such a plan? How much money and manpower did the 
Department of Defense project would be saved by consolidation of 
Combatant Commands?
    General Dempsey. DOD considered some options for consolidating 
Combatant Command HQ staffs as part of our annual budget development 
and review process. However, we did not move forward with any changes 
in this year's request. We believe the current structure of six 
geographic and three functional combatant commands remains the most 
effective construct to address today's global security environment and 
the Unified Command Plan reflects this assessment. However, in 
accordance with Secretary Hagel's QDR direction, we are proceeding with 
a 20 percent reduction in all command staffs to provide future cost 
savings consistent with the intent of sequestration.
    Mr. Kline. What does the Department of Defense plan to do to 
address the recent ethics and integrity issues?
    General Dempsey. The Joint Staff and the Office of the Secretary of 
Defense staff (OSD) have been working a number of general and flag 
officer (G/FO) professional character initiatives since Spring 2013. 
The OSD-led initiatives focus primarily on the clarification and 
standardization of ethics rules and regulations concerning such issues 
as the use of enlisted aides, personal security details, gifts, and 
spouse travel. The Joint Staff-led initiatives include the following:
    <bullet>  A character-focused 360 degree assessment for all Joint 
Staff and Combatant Command G/FOs is in development; testing of the 
assessment instrument is on track for Apr-May 2014
    <bullet>  Ethics staff assist visits to the ensure Combatant 
Command HQ compliance with ethics rules and regulations; as of 31 Mar 
2014, visits have been completed at USSOUTHCOM, USEUCOM, USAFRICOM, 
USCENTCOM, and USSOCOM. The remaining CCMDs are scheduled for visits in 
the near term.
    <bullet>  Senior leader ethics continuing education will occur as a 
follow up to each of the staff assist visits at the combatant commands 
to provide feedback from those visits as well as an educational 
roundtable led by a Senior Fellow and ethics subject matter expert
    <bullet>  A handbook on standards of ethical conduct was created 
for joint G/FOs and their support staffs to aid them in issues related 
to ethics rules and regulations
    <bullet>  Annual senior leader ethics training has been updated to 
incorporate best practices for the Services, including interactive 
vignettes that focus on the application of judgment and self-awareness
    <bullet>  Ethics curriculum in Professional Military Education is 
being updated to ensure a greater focus on ethical decision making 
based on the shared values of the Profession of Arms
    On 25 March, 2014, the Secretary of Defense appointed RADM Margaret 
``Peg'' Klein as his Senior Advisor for Military Professionalism. RADM 
Klein will coordinate the actions of the Joint Staff, the Combatant 
Commands, and each of the military services--working directly with the 
Service Secretaries and the Service Chiefs--on the Department of 
Defense's (DOD) focus on ethics, character, and competence in all 
activities at every level of command with an uncompromising culture of 
accountability. This effort is in the very initial stages and the scope 
and functions of that office will be further developed by RADM Klein 
and her support staff in the Office of the Undersecretary of Defense 
for Personnel and Readiness.
    Mr. Kline. Does the Department plan to appoint a panel or military 
or civilian lead to review current accountability standards to address 
ethics and integrity issues? Has the Department of Defense looked at 
expanding 360 reviews for Commanders and Senior Enlisted at all levels? 
Has the Department of Defense looked at new DOD screening methods for 
entry level--mid level--or senior level leaders to address ethics and 
integrity issues? Has the Department of Defense looked at current 
whistleblower protections and issues with service members that come 
forward having a hard time getting retaliatory information from their 
service records which effectively discourages reporting?
    General Dempsey. On 25 March, 2014, the Secretary of Defense 
appointed RADM Margaret ``Peg'' Klein as his Senior Advisor for 
Military Professionalism. RADM Klein will coordinate the actions of the 
Joint Staff, the Combatant Commands, and each of the military 
services--working directly with the Service Secretaries and the Service 
Chiefs--on the Department of Defense's (DOD) focus on ethics, 
character, and competence in all activities at every level of command 
with an uncompromising culture of accountability. This effort is in the 
very initial stages and the scope and functions of that office will be 
further developed by RADM Klein and her support staff in the Office of 
the Undersecretary of Defense for Personnel and Readiness.
    In addition, as one of the Chairman of the Joint Chiefs of Staff's 
general and flag officer professional character initiatives, the Office 
of the Secretary of Defense's Standards of Conduct Office established 
the Committee on the Standards of Conduct in Nov 2013 to review and 
clarify legal interpretations of issues related to ethics rules and 
regulations.
    The Joint Staff is developing a 360 assessment focused on character 
for general and flag officers serving in joint assignments (e.g: On the 
Joint Staff and Combatant Commands.) Testing of the 360 assessment 
instrument is on track for Apr-May 2014. Once the 360 is implemented 
and fully vetted, the Joint Staff will look to expand it to Joint Staff 
and Combatant Command General and Flag officers, Senior Executive 
Service, military O6, and civilian GS15 personnel.
    Each of the Services has various levels of 360 assessments in use 
or under development. The Army's 360 program is the most mature, while 
the Air Force instituted a general officer 360 program in 2013. The 
Navy uses a 360 instrument for new flag officers and some two- and 
three-star officers and the Marines' program is in the initial 
development stage.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. The 2014 Omnibus required the Army to workload the 
Army arsenals to efficient levels. How will you ensure sufficient 
workload is infused into the arsenals to keep them efficient, not just 
warm? Where will this workload come from? (the Army, Defense Logistics 
Agency, other Services, etc). When can we expect a full plan to 
implement this requirement to be released?
    Secretary Hagel. The Department is working in several aligned areas 
to assist the Army arsenals identify and obtain workload from a variety 
of sources.
    There is an emerging policy framework, designed to identify 
sustaining workloads and critical arsenal manufacturing capabilities. 
This framework is currently being reviewed within the Department, with 
estimated publication early this summer.
    Other on-going actions by the Office of the Secretary of Defense 
(OSD) and the Army include:
    <bullet>  Developing a more refined process to identify arsenal 
critical manufacturing capabilities and workloads necessary to sustain 
those capabilities.
    <bullet>  Implementing the web-centric Materiel Enterprise 
Capabilities Database. This tool is designed to showcase the arsenals' 
current capabilities and workforce skills to the full range of 
potential Military Service customers.
    <bullet>  Developing and implementing a framework that supports use 
of the arsenals to satisfy Defense Logistics Agency (DLA) and other 
service manufacturing requirements.
    <bullet>  Publishing an Army policy that encourages program 
managers (PMs) to utilize arsenals for manufacturing requirements.
    <bullet>  Encouraging the use of available legal authorities to 
derive workloads from sales outside the Department, increasing public-
private partnering, and supporting foreign military sales.
    The size of the arsenals coupled with the current period of 
declining resources, however, does challenge the Department's ability 
to identify sufficient workload to operate the Army arsenals as 
efficiently and effectively as both the Congress and the Department 
would like.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. As part of the negotiated FY2014 National Defense 
Authorization Act, Congress included report language requiring DLA to 
conduct a market survey to determine if and how many athletic footwear 
suppliers currently have or will have in the near future the ability to 
produce a 100% Berry compliant shoe that can be issued to enlisted 
recruits when they report for duty.
    DLA issued another Sources Sought announcement in late January, 
2014 calling for industry input by February 14, 2014. DLA is currently 
in the process of assessing the responses received to determine the 
capacity of domestic footwear suppliers to provide the quantity, 
quality and kind of footwear required within cost limits.
    What were the results of the 2014 Sources Sought announcement 
insofar as the number, names, and capacities of the total number of 
respondents and of the total number of respondents, how many of the 
respondents did DLA determine to have the capability and capacity to 
produce Berry compliant athletic footwear?
    Secretary Hagel. Currently there is no known source of a fully 
domestic/Berry Amendment compliant athletic shoe being sold 
commercially in the marketplace. Four firms responded and indicated the 
capacity to produce a fully domestic/Berry Compliant shoe. These firms 
have also indicated that all component materials and subassemblies 
would be fully domestic in their product offering.
    Ms. Tsongas. Once the DLA has qualified a sufficient number of 
sources with the capability to produce a Berry compliant shoe, what is 
the Department's plan--to include anticipated quantities, costs, 
timelines and other acquisition metrics--regarding the pursuit of 
further procurement actions such as the issuance of a Request for 
Proposal for the acquisition of Berry compliant athletic footwear for 
initial entry recruits in FY2014?
    Secretary Hagel. On April 25, 2014, the Deputy Secretary of Defense 
issued a policy memorandum with respect to athletic shoes offered to 
recruits at basic training. Though at present time no footwear 
manufacturer sells Berry Amendment-compliant athletic shoes in the 
commercial marketplace, under this policy memo DOD recognizes the 
potential for such shoes to enter the market in the future and has an 
interest in having its recruits purchase domestically manufactured 
athletic shoes to the maximum extent practicable. Currently, DLA does 
not have a requirement from the Services to purchase Berry compliant 
athletic shoes and does not anticipate requirements in the near term. 
If DLA receives a requirement from the Services to purchase athletic 
shoes, the procurement will be compliant with the restrictions of the 
Berry Amendment.
    Ms. Tsongas. What is the breakdown of resources the Department has 
allocated toward the implementation of the National Action Plan on 
Women, Peace, and Security?
    Secretary Hagel. The Department has not captured the entirety of 
the funding that supports the U.S. National Action Plan on Women, 
Peace, and Security (NAP) because the effort is incorporated into many 
ongoing activities of the Department, including integration of NAP 
objectives into key policy and strategic guidance, and training 
addressing NAP objectives. A copy of the ``U.S. Department of Defense 
Annual Report on Implementation of Executive Order 13595 and the U.S. 
National Action Plan on Women, Peace, and Security'' is attached. The 
report describes how instruction on Women, Peace, and Security issues, 
including the value of inclusive participation in conflict prevention, 
peace processes, and security initiatives; international human rights 
law and international humanitarian law; protection of civilians; 
prevention of sexual and gender-based violence; prevention of sexual 
exploitation and abuse; and combating trafficking in persons have 
become a part of the Department's internal employee and service member 
practices, and how NAP objectives are included in the Department's 
partner nation capacity building strategies.
    [The report referred to can be found in the Appendix on page 103.]
    Ms. Tsongas. For the first time since the Afghanistan Security 
Forces Fund was established, money was explicitly authorized last year 
for recruitment and retention of women in the Afghan Security Forces. 
How will that money be directed to impact not only the number of women 
in the forces but also the institutional reforms required to ensure 
safe and equitable service of women?
    General Dempsey. DOD has yet to finalize its 2014 financial 
activity plan for allocating the $25 million dollars set aside in the 
Afghanistan Security Forces Fund for women's issues. Initial 
discussions among the Office of the Secretary of Defense, State 
Department, Joint Staff, United States Central Command, United States 
Forces-Afghanistan and Combined Security Transition Command--
Afghanistan, have focused on expanding and upgrading facilities for 
women in the Afghanistan National Security Forces as well as other 
gender-focused institutional reforms.
    Ms. Tsongas. What institutional reforms and programmatic 
interventions can be employed to reduce the incidence of sexual 
violence, harassment, and death threats against the women who serve in 
the Afghan National Security Forces?
    General Dempsey. The implementation of a gender policy within 
Afghanistan's National Security Forces is a complex, long-term project, 
but there has been significant progress. DOD maintains a robust program 
dedicated to improving the recruitment, retention, and treatment of 
women in the ANSF. This program is centered on Gender Advisors working 
closely with their Afghan partners on various initiatives and programs 
to reduce sexual violence, harassment, and death threats to women 
serving in the ANSF. For example; on 25 November 2013, Afghanistan 
observed the International Day for the Elimination of Violence Against 
Women. This day also marked the beginning of a 16-day comprehensive 
campaign against gender-based violence. This campaign was heavily 
supported and funded by the United States.
    The Afghan Ministry of Defense (MoD) Human Rights and Gender 
Integration (HR&GI) office lacks sufficient expertise and resources to 
implement female management policies. The HR&GI sought external support 
in order to increase training and education capacity for Afghanistan 
National Army on human rights and gender integration issues.
    Under the leadership of Minister Daudzai, the Afghan Ministry of 
Interior (MoI) has shown significant support for women, and is taking 
steps to better protect and empower female police and staff. Shortly 
after taking office, Mintster Daudzai promoted COL Hekmat Shahi, 
director of the Gender, Human Rights, and Children's Rights Directorate 
(GHRCR) to Brigadier General and enhanced the status of GHRCR by moving 
it from and Office to a Directorate. In late 2013, the GHRCR 
Directorate and the Strategy and Policy Directorate developed a 
strategy for properly integrating females into the Afghanistan National 
Police and improving gender rights across Afghanistan.
    The ANSF institutional reforms are a positive sign that, at all 
levels, the Afghan government leadership is dedicated to improving the 
treatment of women. Although there is much yet to be accomplished, DOD 
remains committed to using a portion of Afghanistan Security Force 
Funds to support these efforts.
    Ms. Tsongas. How do you intend to ensure attention to and oversight 
of DOD elements implementing the National Action Plan on Women, Peace 
and Security among the senior leadership of the Office of the Secretary 
of Defense and the Joint Staff?
    General Dempsey. The Joint Staff worked closely with OSD to develop 
and approve implementation guidance for the U.S. National Action Plan 
(NAP) on Women, Peace, and Security (WPS). As a result, DOD now has an 
active WPS working group that shares best practices to identify and 
solve NAP implementation issues at the appropriate level.
    Ms. Tsongas. General Dempsey, you mentioned during the hearing that 
you are using new media to inform commanders and servicemembers about 
resources to prevent sexual assault. As I mentioned during the hearing, 
these tools only work if commanders and every servicemember under their 
command are aware that they exist. I am concerned about your efforts to 
make people aware of the availability of the Special Victims Counsel 
program. Can you elaborate on what specific steps you are taking to 
inform servicemembers of the special victims counsel program?
    General Dempsey. I can assure you that the Special Victim's Counsel 
is well publicized and I personally use every opportunity to discuss 
how important it is that all leaders and service members are aware of 
the legal assistance available to victims of sexual assault. In 
addition to SVC information that is posted on Service Judge Advocate 
General and Sexual Assault Prevention and Response websites, each 
Military Department has launched an aggressive campaign to ensure 
widest dissemination of information on the Special Victims Counsel 
program.
    Army: The Army publicized the program and services available to 
service members through Army-wide, national and local installation news 
media.
    <bullet>  SVCs have conducted numerous town halls at local 
installations.
    <bullet>  The Sexual Harassment/Assault Response and Prevention 
(SHARP) Program Office published a ``STAND TO!'' article on the SVC 
program which reached approximately 15,600 subscribers and was posted 
to the Department of Defense website, which reached an even more 
sizable audience.
    <bullet>  The SHARP program, in coordination with OTJAG, developed 
an original video vignette that highlights victim legal support. The 
video vignette is published on the SHARP website and is available for 
use by all Army Command SHARP program managers in communicating to 
their publics about SHARP victim support services.
    <bullet>  SVCs are directed to conduct outreach with installation 
stakeholders after attending their training course. Required 
stakeholders are Victim Advocates, SARCs, SHARP Program Managers, 
Medical Community, Senior Judge Advocates, Commanders. Navy: The Navy 
currently has 26 of 29 Victims' Legal Counsel (VLC) in place in 21 
different locations around the Fleet.
    <bullet>  Numerous articles on the VLC program and services have 
appeared in Navy-wide publications and local base newspapers.
    <bullet>  As of 28 March 2014, attorneys in the program had 
conducted 389 outreach briefs to 9,001 attendees.
    <bullet>  A VLCP NAVADMIN (message) will be released and trigger 
the distribution of VLC posters and tri-folds (already prepared) to 
local commands to be placed on bulletin boards and other public areas 
around command spaces. The Navy plans to set up a blog once the 
NAVADMIN has been released.
    <bullet>  In addition to educating personnel outside the JAG Corps, 
the VLCP office has provided information on the standup and operation 
of the VLCP to JAG Corps leadership and Staff Judge Advocates stationed 
around the Fleet.
    <bullet>  The Navy VLC program has a link on the JAG Corps website 
which can be found at www.jag.navy.mil.
    Air Force: The AF trained all personnel involved in the military 
justice process about the SVC program so they are knowledgeable and 
aware. The first official person to come in contact with the victim is 
required to notify the victim that they might be eligible for the 
service and can request SVC (SARC, OSI, VA, TC).
    <bullet>  Initially, the AF conducted a media blitz where many 
local bases ran stories on the SVC program in base papers. AF also 
conducted several national-level media interviews to get the message 
out and released a PSA to air on base commander channels.
    <bullet>  Leveraged formal gatherings and groups to further educate 
leadership around the force. For instance, the SVC program was also 
briefed to all wing commanders at the Chief's SAPR Summit and is also 
briefed during the new wing commander's orientation course.
    <bullet>  Conducts outreach by briefing at Commander's calls, 
Newcomer briefings, First Term Airman Center, and other org groups (Top 
3, etc.).
    <bullet>  Designed posters that provide information about the SVC 
program and how to contact an SVC. The posters are distributed 
throughout the AF and located on unit bulletin boards. For bases 
without an SVC, SARCs include info about the program during their info 
briefings to the base.
    <bullet>  In addition to information about the SVC program on the 
JAGC public webpage, there is a JAGC Facebook page.
    Marine Corps: The Marine Corps Victims' Legal Counsel Organization 
(VLCO) has fifteen active duty judge advocates located among the four 
regional Legal Services Support Sections (LSSS) and their outlying 
installations. These judge advocates, along with Headquarters Marine 
Corps, have ensured the widest dissemination of information about the 
availability of victim legal services for service members and military 
dependents.
    <bullet>  In October 2013, the Marine Corps published MARADMIN 583/
13 to all service members to announce the establishment of VLCO and 
revised its Legal Administration Manual (LEGADMINMAN) for commanders. A 
VLCO public website has also been established.
    <bullet>  Between October 2013--February 2014, the VLCO Officer-in-
Charge traveled extensively throughout the Marine Corps in all four 
regions to inform key personnel about VLCO services, including meetings 
and presentations with commanders, SARCs and victim advocates, Family 
Advocacy personnel, VWAP personnel, military criminal investigators, 
and judge advocates.
    <bullet>  Outreach efforts continue by Regional Victims' Legal 
Counsel (RVLC) based out of MCB Quantico (VA), Camp Lejeune (NC), Camp 
Pendleton (CA) and Camp Butler (Okinawa) spreading awareness of victim 
legal services via meetings and unit presentations.
    <bullet>  VLCO personnel have conducted several interviews with 
newspaper reporters to support articles published in national and local 
installation newspapers.
    National Guard: The stand-up of the NG SVC program is pending a 
policy authorization from the Secretary of Army; such policy 
authorization is required based on the legislative implementation of a 
SVC program. Specifically, Section 1716 of NDAA FY 14 limits the SVC 
services to those individuals eligible for military assistance under 10 
U.S.C. Sec. 1044e. Under 10 U.S.C. Sec. 1044e, NG members are not 
generally eligible for legal assistance unless they are serving on 
active duty, have retired, or have recently mobilized for more than 30 
days. Currently requests for SVC representation are being handled on a 
case-by-case basis in coordination with the OTJAG.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Within the QDR an emphasis is placed on innovation. 
Will the emphasis on innovation apply to the ``new normal'' challenges 
that deal with the violent extremists threats? Will this emphasis on 
innovation aid in the Train, Advise, and Assist mission in Afghanistan?
    Secretary Hagel. In pursuing the Department's objective to disrupt 
violent extremists who threaten the United States, national interests, 
and those of our allies and partners, are furthered by innovation and 
adaptation. The QDR report's emphasis on innovation includes our 
ongoing efforts to find new ways to maximize our partners' 
contributions to their own security and to coordinate planning on 
combined activities to pursue shared goals.
    As stated in the QDR report, the Department will rebalance 
counterterrorism efforts toward a greater emphasis on building partner 
capacity, especially in fragile states. At the same time, we will be 
retaining our own robust capability for direct action, including 
pursuing innovation in the areas of intelligence, persistent 
surveillance, precision strike, and the use of Special Operations 
Forces. Combatant Commanders will also invigorate their efforts to 
adjust contingency planning to reflect more closely the changing 
strategic environment.
    One aspect of innovation as envisioned in the QDR is drawn from the 
Department's experience in building both the Iraqi and Afghan Armed 
forces; both efforts yielded valuable lessons about how to build 
partner security capacity and train, advise, and assist (TAA) partner 
nation forces more effectively. These efforts included the use of U.S. 
general purpose forces (GPF) to do a large-scale TAA mission by 
partnering with host nation forces at the operational and tactical 
levels. In Afghanistan, this concept was refined by establishing and 
deploying Security Force Assistance Brigades (SFABs), which are combat 
units re-missioned to conduct TAA. In addition, significant amounts of 
funding were appropriated to the Department of Defense to train and 
equip Iraqi and Afghan military and police forces, and to enable those 
forces to assume security for their own country. This was a departure 
from using traditional Title 22 security assistance funding. Programs 
like the Afghanistan Security Forces Fund have afforded flexibility to 
implement a sizable program in a hostile environment. For the post-2014 
TAA mission in Afghanistan, DOD will seek continued funding for the 
Afghan National Security Forces (ANSF) so that they may continue to 
improve their capabilities in security in Afghanistan.
    Mr. Shuster. As we decrease our military, budget China has 
increased theirs. How will the United States gain transparency of 
China's increase in applications?
    Secretary Hagel. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. DOD financial management resources: Now more than 
ever, it makes sense for the DOD to be able to manage its books and 
failing to properly source the audit mission would be disastrous and a 
moral killer, effectively stunting progress and momentum, progress that 
cannot be restarted with the flip of a switch.
    Does the Department have the necessary resources to ensure that the 
FIAR plan continues to move forward?
    Secretary Hagel. Yes. Despite recent challenges with the Defense 
budget, substantial funds have been set aside to support achievement of 
auditable financial statements. For Fiscal Year (FY) 2015, the 
Department budgeted over $600 million for audit readiness efforts, 
including retaining independent public accounting firms to conduct 
validations and audits and resolve financial system deficiencies. 
Congress can assist by continuing to focus on the Department's FIAR 
requirements and by ensuring that sufficient funds are available in a 
stable budget environment.
    Resources also include people. The Department needs to hire more 
experienced and qualified employees to support audits. Attracting 
certified public accountants has been difficult, and ongoing hiring 
freezes exacerbate the problem. The Department has put in place a 
course-based financial management certification program. Additionally, 
the Department is delivering immediate, practical training on the 
importance of audit readiness to financial managers as well as others 
who play a role. Through these employee training initiatives and 
programs, the Department seeks to ensure that the financial management 
workforce has the knowledge, skills, and abilities necessary to meet 
DOD resourcing challenges and achieve auditable financial statements.
    Mr. Conaway. Can you assure the committee that the FIAR plan will 
move ahead?
    Secretary Hagel. Yes, the FIAR plan will continue to guide the 
Department, moving forward. The goals and priorities laid out in the 
FIAR Plan Status Report are sound, and we are making progress. Further, 
the FIAR approach to achieving audit readiness is both sensible and 
cost-effective, and the Government Accountability Office and DOD Office 
of the Inspector General agree. Recently, the U.S. Marine Corps 
received an unmodified (favorable) audit opinion on its Schedule of 
Budgetary Activity, becoming the first military service in the 
Department to garner a favorable audit opinion. This significant 
accomplishment demonstrates that a military service can achieve audit 
readiness, and it validates the FIAR approach. Most of the Department, 
including the three remaining military services, plan to follow this 
model in FY 2015.
    Mr. Conaway. Can you assure the committee that the audit mission 
will remain a priority for you and the leadership within the DOD?
    Secretary Hagel. Yes, the audit mission will continue to be a 
priority until we have institutionalized it as part of our routine 
business. The Department's senior leaders and I are closely monitoring 
progress, addressing challenges, and focusing people and resources on 
the work needed to accomplish audit readiness on the Schedule of 
Budgetary Activity by September 30, 2014, and full financial 
statements' audit readiness by September 30, 2017. I have made that 
commitment, and have been joined by senior leaders of the Services and 
other defense organizations. Including FIAR objectives in Senior 
Executive Service performance plans is helping to sustain that 
leadership commitment.
    Mr. Conaway. Can you comment on what appears to be a lack of 
progress and the 4th estates' leadership's commitment to getting audit 
done?
    Secretary Hagel. A number of 4th Estate agencies have achieved a 
favorable audit opinion on their financial statements and are in 
sustainment. The remaining 4th Estate agencies are correcting 
deficiencies and enhancing internal controls with the goal of earning 
unqualified opinions. As with the military services, the 4th Estate has 
achieved audit readiness on appropriations received and is preparing 
for Schedule of Budgetary Activity (SBA) audits to begin in FY 2015. 
Organizations within the 4th Estate that are not already under audit 
have submitted their initial management assertions. Our financial audit 
team within the Office of the Under Secretary of Defense (Comptroller) 
is evaluating these submissions while also working to establish a 
common audit infrastructure to support future defense-wide SBA audits. 
Estate progress will be monitored within our ongoing governance process 
that includes engagement with agencies' senior leaders as well as 
leaders on my immediate staff. We are making progress and 4th Estate 
leaders are fully involved.
    Mr. Conaway. Last year we discussed the U.S. response to the 
ongoing situation in Syria; to date there have been 126K deaths, there 
are currently 2.5M refugees, and 6.5M displaced people. As well, there 
are now an estimated 10K Sunni Jihadist foreign fighters operating in 
Syria, all of which has had a destabilizing effect in Jordan, Lebanon, 
and Iraq--where ISIS has conducted several prison breaks to source 
terrorist fighters. To date, our leadership in this conflict can 
account for only 4% of priority one and priority two chemicals that 
have been removed from Syria: 1) What has to happen--what is the 
threshold--for the U.S. to take a larger, more direct role in shaping 
the outcome in Syria? 2) If the Assad regime does not fully comply with 
the chemical weapons agreement, what policy tools, approach, and 
military posture will the U.S. employ to respond?
    Secretary Hagel. The U.S. approach to Syria involves the entire 
government; there is no U.S. military solution to this very complex, 
long-term problem, but we are operating three lines of effort. First, 
we are supporting our partners in the region, including Syria's 
neighbors, with border security as they face a variety of challenges 
stemming from the Syrian conflict. Second, we continue to work with the 
international community to provide humanitarian aid to the Syrian 
people. Third, we continue to support, along with the State Department 
and other U.S. departments and agencies, the moderate opposition in 
Syria as a means of countering both the Assad regime and the extremist 
groups. Any changes in U.S. policy on Syria would be forged through a 
whole-of-government approach.
    Regarding the chemical weapons issue, as of March 6, 2014, 28.6 
percent of the total chemicals slated for removal have been removed 
from Syria, which includes 18.9 percent of Priority 1 chemicals and 
50.9 percent of Priority 2 chemicals. We expect the Syrian Government 
to fully comply with its responsibilities under UN Security Council 
Resolution 2118 and the relevant decisions of the Organization for the 
Prohibition of Chemical Weapons (OPCW) Executive Council. UN Security 
Council Resolution 2118 allows for regular review of Syria's progress, 
or lack thereof, and provides for referral of cases of non-compliance 
with OPCW decisions or UNSCR 2118 to the UN Security Council to 
consider imposition of measures under Chapter VII of the UN Charter.
    Mr. Conaway. Important strategic air bases located in Qatar and 
United Arab Emirates provide the U.S. with the ability to project 
force, conduct Intelligence, reconnaissance, and surveillance (ISR) 
missions, and further reassure Gulf partners that the U.S. continues to 
be engaged in the region. These bases are financed through Overseas 
Contingency Operations (OCO) funds. 1) If OCO funds are cut from the 
FY15 budget due to the drawdown and subsequent end to the U.S. war in 
Afghanistan, how will you seek funding to continue operations from 
these bases, or will the U.S. terminate operations at these bases?
    Secretary Hagel. In September 2012, the Deputy Secretary of Defense 
published a memorandum detailing the global defense posture enduring 
location master list. This document defines locations, spread 
throughout the world, and their intended use. The Air Force bases in 
Qatar and the United Arab Emirate have been identified as enduring 
locations. Both locations are currently operating in an expanded 
capacity and are expected to be properly scoped upon the end of 
operations in Afghanistan. The Air Force will continue requesting OCO 
resources to support expanded operating functions until base operations 
are adjusted for the enduring mission.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. Is the Army planning on consolidating all or some of 
the Army Test and Evaluation Command (ATEC) mission sets? If so, what 
ATEC sites are currently being considered for consolidation, and where 
would the mission be moved?
    Secretary Hagel. ATEC is not planning to reorganize or consolidate 
mission sets. If future studies and analysis were to conclude the need 
to internally reorganize or consolidate subordinate commands within 
ATEC, the command would use the appropriate channels within the 
Department of the Army, the Department of Defense, and the Congress to 
properly inform all relevant stakeholders.
    Mr. Barber. If the Army were to relocate its developmental tester 
for C4ISR from the environmentally unique location at the Electronic 
Proving Ground at Fort Huachuca to a lab environment, how would this 
impact future research and development of C4ISR assets for the 
military?
    Secretary Hagel. Given the nature of command, control, 
communications, computers, intelligence, surveillance and 
reconnaissance (C4ISR) testing, the Army cannot relocate developmental 
testing to a purely lab-based environment. Effective developmental 
testing requires open air or field testing under operationally 
realistic conditions. The Army is not changing its developmental test 
protocols and plans to continue the balanced use of lab-based and open 
air or field testing.
    Mr. Barber. During the decisionmaking process to recommend 
divestiture of the A-10, did the Department consider Ground Commanders' 
input on the capabilities needed to best support troops on the ground 
when they request close air support. How did the Department get this 
input? What was the input from Ground Commanders and Combatant 
Commanders?
    Secretary Hagel. Ground Commanders' input was considered during the 
development of the FY15 budget. Services and Combatant Commanders were 
actively engaged during deliberations and decision making. While 
acknowledging the reliable performance of the A-10, Ground Commanders 
and Combatant Commanders are not wedded to a specific aircraft but 
require the Close Air Support (CAS) capability that the A-10 and other 
proven aircraft, such as the F-15E, F-16, B-1, and F/A-18, and in the 
near future, the F-35 provide. Since 2006, about 80% of CAS missions 
have been executed by platforms other than the A-10. With the A-10 
divestiture, other multi-role aircraft provide a balanced capability 
across multiple mission sets for the Combatant Commanders, and the 
Department saves resources by divesting an entire weapon system.
    Mr. Barber. What factors did the Department of Defense analyze to 
determine its proposed slowdown of military compensation and benefits?
    Secretary Hagel. The Department's military and civilian leaders 
conducted a broad analysis to arrive at our proposed package of 
compensation adjustments. The Department took a holistic approach to 
this issue and carefully crafted the proposals to reform military 
compensation in a fair, responsible, and sustainable way. The 
Department considered the impact of these adjustments on military 
members and their families, recognizing that no one serving our nation 
in uniform is overpaid for what they do, but also that if we continue 
on the current course, the choices will only grow more difficult and 
painful. The Department considered how military compensation compares 
with private-sector compensation, both before and after the proposed 
changes. Military members currently receive a robust package of pay and 
benefits, and after the proposed changes, the package will remain 
robust and will continue to compare very favorably with the private 
sector. Finally, the Department considered the need to balance the 
member's quality of life and quality of service as well as the benefits 
of reinvesting the funds from slowing compensation growth into training 
and readiness. Overall, even after making these changes and slowing the 
growth in military compensation, the Department will still be able to 
recruit and retain a high-quality force and offer generous, 
competitive, and sustainable benefits.
    Mr. Barber. If there is a decrease in military compensation and 
benefits, what is the expected affect to retention and recruitment in 
our All-Volunteer Force?
    Secretary Hagel. The Department's military and civilian leaders 
conducted substantial analysis to arrive at our proposed package of 
compensation adjustments. The Department concluded that, even after 
making these changes and slowing the growth in military compensation, 
the Department will still be able to recruit and retain a high quality 
force and offer generous, competitive, and sustainable benefits.
    Mr. Barber. Has the Department of Defense, in concert with the 
Department of Veterans Affairs, considered other courses of action to 
decrease military healthcare spending rather than the TRICARE changes 
that were presented? If so, then what were those courses of action 
considered?
    Secretary Hagel. We actively work with the Department of Veterans 
Affairs to identify opportunities to provide quality care more 
efficiently, conveniently and at a lower overall cost to the 
Government. Examples of our successful initiatives include Joint 
Incentive Fund projects in which we jointly position resources to serve 
the largest population at the lowest cost and partnering to deliver 
cost effective, timely Integrated Disability Evaluation System physical 
exams that reduce the cost of disability exams to the Government and 
the complexity to the patient. In recent years, additional emphasis was 
placed on achieving savings and efficiencies within the operational 
environment of the Military Health System to complement our efforts 
with the VA. This has been a success story, with roughly $3 billion in 
savings per year achieved through programs like Federal Ceiling Pricing 
(a discount drug program) and implementing the Outpatient Prospective 
Payment system (a transition to more favorable Medicare rates for 
private hospitals).
    The Department of Defense will continue to look for ways to operate 
more efficiently, and effectively, to better serve our service members 
and veterans.
    Mr. Barber. Has the Department of Defense done any economic 
analysis of how military personnel reductions and military weapon 
divestment will affect local economies surrounding DOD installations?
    Secretary Hagel. The Department has not conducted such an analysis. 
DOD's Office of Economic Adjustment has authority to assist states and 
localities to conduct such analysis as part of a broader economic 
adjustment response once a reduction is publicly announced and found to 
have a direct and significant adverse consequence on the local area.
    Within this budget, the Department is balancing readiness, 
capability, and capacity--making sure that whatever size force we have, 
we can afford to keep our people properly trained, equipped, 
compensated and prepared to accomplish their mission. As significant 
force structure reductions take place, the excess infrastructure 
associated with that force structure must also be reduced. If not, 
readiness, modernization, and even more force structure will have to be 
cut. The most efficient and effective way to eliminate excess 
infrastructure is through the Base Realignment and Closure process--
thus the Department's request for a 2017 round.
    BRAC is the only fair, objective, and proven process for closing 
and realigning installations. BRAC provides a sound analytical process 
that places military value above all other considerations. 
Additionally, when the Department closes and realigns bases within the 
statutory BRAC process, the local community is a key participant. BRAC 
allows communities a role in re-use decisions for the property, 
provides them assistance in developing a redevelopment strategy and 
offers the community the opportunity to obtain the property at low cost 
or, in some cases, no cost provided their redevelopment plan creates 
jobs.
    Mr. Barber. The A-10 has recently been installed with advanced 
targeting pods, the latest in guided weapons, new electronics and new 
wings which will extend the life of the planes in a cost-effective way.
    Considering we do not know the type of conflicts we may face in the 
coming decade, whether it be further insurgency or possibly more 
terrorism, an asymmetric war or another large land conflict with a 
growing super power.
    We just don't know.
    The point is, Mr. Secretary, should we not be prepared for all 
contingencies? Don't we owe that to our nation and our service members?
    Should we not have the tools at hand to ably prosecute whatever we 
may face, especially a strong and capable tool such as the A-10 that 
has proven itself in war, performed different roles such as combat and 
rescue, received new modifications, and successfully protected 
thousands of ground troops?
    Secretary Hagel. The A-10 has received periodic upgrades as do all 
other aircraft in the DOD inventory. What is unique is that the A-10 
was designed for a single mission in an era that cannot compare nor 
predict the proliferation of threats to the aircraft that we see today. 
The A-10 was optimized to fly low and slow in permissive environments 
in order to achieve the accuracy and effectiveness demanded by the 
supported ground forces. Unfortunately, in a fiscally-constrained 
environment, the Department no longer retains the luxury of operating 
and sustaining single-mission aircraft. Divesting the entire fleet 
provides significant savings that cannot be obtained by divesting only 
portions of a fleet because we are also able to eliminate the 
infrastructure associated with the fleet, including training units, 
test units, and development of future sustainability programs. During 
Desert Storm (1991), six of the thirteen USAF aircraft lost to enemy 
fire were A-10s. Infrared missiles, carried by enemy troops, were 
responsible for the greatest number of losses by any single platform 
during Desert Storm. Small arms fire and anti-aircraft artillery also 
damaged thirteen additional A-10s. The losses were substantial enough 
that commanders had to reconsider A-10 tasking against the formidable 
front-line Iraqi units.
    With the uncertainty that lies in predicting future conflicts, we 
owe the nation flexible weapons systems that can perform and deliver in 
any future contested environment. Even today, the A-10 provides only a 
fraction of the Close Air Support (CAS) required in theater. The 
capabilities of the A-10 are replicated throughout the DOD TACAIR 
inventory. Aircraft other than the A-10 have effectively provided over 
80% of the required CAS missions in our most recent conflicts. With 
modern sensors, communications, and precision-guided munitions, the air 
forces can now achieve the desired effects with speed and from higher 
altitudes, allowing us to do the job with more survivable aircraft and 
tactics, while simultaneously providing the Combatant Commander the 
options required in other mission sets. Finally, the Department has 
long planned to eventually replace the A-10C fleet with the F-35A Joint 
Strike Fighter. As we await the delivery of more F-35s, the F-15E, F-
16, and F/A-18 have proven their ability to provide highly effective 
CAS.
    Mr. Barber. Secretary Hagel, you mentioned cyber security as an 
important priority for DOD and I could not agree more with your 
sentiment.
    While we continue improving our cyber defense to meet the rapidly 
changing technology through research and development, it is important 
that we have the infrastructure to adequately test these technologies.
    I want to bring to your attention an important aspect of this 
endeavor. In my district, we have Fort Huachuca's Electronic Proving 
Ground (EPG).
    This installation is the Army's C5I (command, control, 
communications, computers, cyber and intelligence) Developmental Tester 
which uses its infrastructure and unique geographical location to 
provide the best real world tests.
    This area has the most pristine electronic range with the most 
quiet electromagnetic spectrum and no over flights by aircraft. This 
ultimately allows realistic testing of important cyber assets that will 
improve DOD's mission. Mr. Secretary, would you agree that the Army 
should utilize all of its developmental testing assets for C5I? Would 
you also agree that it should use both its environmentally unique test 
ranges as well as its laboratories, so that we can best provide for the 
future research and development for DOD's important mission of cyber 
warfare?
    Secretary Hagel. The Department of the Army will continue to use 
all of its research and development and test and evaluation 
capabilities to support the maturation and development of current and 
future technologies in support of cybersecurity, cyberwarfare, and 
command, control, communications, computers, and intelligence system 
acquisition. These assets include laboratories, controlled ranges, and 
operationally realistic test environments.
    Mr. Barber. During the decisionmaking process to recommend 
divestiture of the A-10, did the Department consider Ground Commanders' 
input on the capabilities needed to best support troops on the ground 
when they request close air support. How did the Department get this 
input? What was the input from Ground Commanders and Combatant 
Commanders?
    General Dempsey. Ground Commanders' input was considered during the 
development of the FY15 budget. Services and Combatant Commanders were 
actively engaged during deliberations and decision making. While 
acknowledging the reliable performance of the A-10, Ground Commanders 
and Combatant Commanders are not wedded to a specific aircraft but 
require the Close Air Support (CAS) capability that the A-10 and other 
proven aircraft, such as the F-15E, F-16, B-1, and F/A-18, and in the 
near future, the F-35 provide. Since 2006, about 80% of CAS missions 
have been executed by platforms other than the A-10. With the A-10 
divestiture, other multi-role aircraft provide a balanced capability 
across multiple mission sets for the Combatant Commanders, and the 
Department saves resources by divesting an entire weapon system.
    Mr. Barber. What factors did the Department of Defense analyze to 
determine its proposed slowdown of military compensation and benefits?
    General Dempsey. The Department's military and civilian leaders 
conducted substantial analysis to arrive at the proposed package of pay 
and compensation adjustments. The overarching factor that encompassed 
the Department's analysis was balance. Balance between force structure, 
readiness, and modernization is required to ensure the best possible 
training and equipment for our warriors heading into combat. Balance 
requires the ability to recruit and retain the all-volunteer force by 
providing a competitive package of pay and benefits. The Department 
determined that by making the proposed changes to slow the growth of 
military compensation, and reinvesting the savings into readiness and 
modernization, it would be able to recruit and retain a high quality, 
balanced force earning competitive and sustainable benefits.
    Mr. Barber. If there is a decrease in military compensation and 
benefits, what is the expected affect to retention and recruitment in 
our All-Volunteer Force?
    General Dempsey. The Department's military and civilian leaders 
conducted substantial analysis to arrive at our proposed package of 
compensation adjustments. The Department concluded that, even after 
making these changes and slowing the growth in military compensation, 
the Department will still be able to recruit and retain a high-quality 
force and offer generous, competitive, and sustainable benefits.
    Mr. Barber. Has the Department of Defense done any economic 
analysis of how military personnel reductions and military weapon 
divestment will affect local economies surrounding DOD installations?
    General Dempsey. The Department has not conducted such an analysis. 
DOD's Office of Economic Adjustment has authority to assist states and 
localities to conduct such analysis as part of a broader economic 
adjustment response once a reduction is publicly announced and found to 
have a direct and significant adverse consequence on the local area.
    Mr. Barber. I represent Davis-Monthan Air Force Base, home to the 
355th Fighter Wing, operating the A-10 and training the next generation 
of close air support pilots.
    The budget proposal you have put forward calls for the divestment 
of the A-10. Mr. Chairman, I understand the need to find budget 
savings, however, the A-10 plays a crucial role in protecting our 
service members on the ground--a role that cannot be suitably 
replicated in all aspects by any other aircraft in our inventory at 
this time.
    I am a supporter of the F-35, I am a supporter of UAVs, I believe 
that other airframes can perform aspects of close air support, but none 
can take the place at this moment and perform like the A-10.
    Admiral Locklear said ``there are capabilities out there that will 
not parallel what the A-10 can offer''.
    General Austin said that he has seen A-10s perform wonderfully in 
Iraq and Afghanistan.
    Major General Bill Hix made the crucial point that the A-10 serves 
as flying artillery when ground troops cannot request indirect fire 
support due to logistical issues.
    Just seven months ago, General Welsh told me, quote: ``until the 
Air Force has sufficient numbers of F-35s, the Air Force intends to 
keep the A-10 viable and combat ready''. Mr. Chairman, from an Army 
Officer's perspective who has commanded ground troops, has the A-10 not 
provided a diverse close air support capability for our service members 
on the ground?
    Is it truly not in our nation's interest to keep this proven 
workhorse up and running?
    General Dempsey. Undoubtedly, the A-10 has served as a proven, 
reliable, and lethal Close Air Support (CAS) platform and become a 
popular workhorse for the Department. The decision to retire the A-10 
is driven by both operational and budgetary considerations. Preparing 
for the future contested environment, in light of the current fiscal 
environment, demands difficult choices.
    The future non-permissive environment, characterized by networked 
anti-access area denial (A2AD) threats requires both force 
modernization and prioritizing capable, multi-role aircraft over single 
mission, legacy aircraft whose effectiveness and survivability are 
significantly threatened by a non-permissive environment. While the A-
10 is a CAS-centric aircraft, enabled by its focused capability in that 
mission, since 2006, about 80% of combat CAS missions have been 
effectively executed by other aircraft, including as the F-15E, F-16, 
B-1, and F/A-18. Enabling Combatant Commanders by prioritizing multi-
role aircraft that are both proven to capably support our service 
members on the ground and more effectively operate in contested 
environments, and modernizing the force with strike platforms, such as 
the F-35 and Long Range Strike Bomber, will best posture the Department 
for the future.
    A-10 fleet divestiture saves the Department over $3.5 billion and 
avoids cuts to capable, multi-role aircraft that ultimately provide the 
Combatant Commanders with comprehensive capabilities across the 
spectrum of conflict and required mission sets.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Are there currently any provisions in U.S.C 2687 
concerning BRAC that reports on excess capacity and overhead of 
Department of Defense facilities which are based overseas?
    Secretary Hagel. No, 10 U.S.C. 2687 only applies to military 
installations ``located within any of the several States, the District 
of Columbia, the Commonwealth of Puerto Rico, American Samoa, the 
Virgin Islands, the Commonwealth of the Northern Mariana Islands, or 
Guam.''
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Enyart. The F/A-18 E and F Super-hornet and the E/A-18G Growler 
are made across the river from my district in St. Louis and employ 
thousands of folks from my region in Southern Illinois. Was the effect 
on the industrial base given thought to, when the budget was being 
constructed, not including funding for these two strategic platforms? 
Also, will we lose capabilities in the war fight by not having these 
fighters in production? What savings are being generated by not 
including the Super-hornet and Growler in DOD's budget?
    Secretary Hagel. The effect on the industrial base is an important 
consideration, which was factored into the Department's investment 
planning and budget preparation. However, budget reductions have and 
will continue to decrease research, development, and production for 
many defense systems. For the tactical aircraft industrial base, I am 
most concerned about maintaining engineering design capabilities. To 
address this, the Department has initiated an Air Dominance Initiative 
led by the Defense Advanced Research Projects Agency with extensive 
participation from both the Navy and the Air Force partnered with major 
tactical aviation industry suppliers. Additionally, the Department 
continues to promote competition and innovation in aeronautics with 
investments in enabling technologies and programs, including the 
Unmanned Carrier Launched Airborne Surveillance and Strike aircraft and 
the Long-Range Strike Bomber. These should present opportunities for 
the engineering and manufacturing workforce to transition to new 
programs as the Department's requirements evolve.
    In terms of capability, the Department is committed to achieving 
the best possible balance between affordability and capability in our 
carrier tactical aviation programs. The Navy has a validated 
requirement for 563 F/A-18E/F and 135 EA-18G aircraft, which will be 
met with delivery of the final EA-18G in 2016. The Navy successfully 
extended the life of over 100 F/A 18A-D with its high flight hour 
inspection program and is working to extend the life on another 100+ 
aircraft. The Navy estimates there is sufficient life and capabilities 
in its existing and planned strike fighter inventory to accomplish its 
warfighting missions.
    The savings achieved in a single year by not procuring additional 
Super Hornet and Growler aircraft in DOD's budget could be approximated 
by the average procurement unit cost, which is $72.2 million for the F/
A-18E/F (base year 2000 dollars) and $67.5 million for the EA 18G (base 
year 2004 dollars), multiplied by the quantity desired. This figure 
would exclude the far greater long term costs of manning, training, 
maintaining, and operating the additional platforms, which would offset 
other funding priorities.
    Mr. Enyart. DOD is recommending reducing the end strength of the 
National Guard to at least 335,000 from a current end strength of 
350,000. After 12 years of war, I am a firm believer that the Guard is 
a battle-tested, cost-effective force capable of providing the surge 
capacity we need in time of conflict. Should not we be increasing the 
end strength of the Guard in the face of fiscal constraints?
    Secretary Hagel. The National Guard continues to be a vital part of 
the National Security Enterprise. The last 12+ years of war have proven 
that the National Guard will always answer the call with distinction 
for the Nation. Going forward, the current Defense Strategy suggests 
the Department will not need as many ground forces in the future. That 
is due to the capabilities of our allies and advances in technology. As 
a result, the budget calls for reductions in ground forces. The 
proposed reduction is also informed by a fiscally constrained budget. 
The Department values the capabilities and cost effectiveness of the 
National Guard and Reserve. As a result, the Reserve component numbers 
will not be reduced as much as the Active component. The current Active 
component/Reserve component mix in the Army will be altered with 
Reserve components becoming a larger percentage of the force than ever 
before.
    While the Reserve component preserves capability and capacity for 
times of crisis, cost is not the only consideration in determining end 
strength. Forces that are needed immediately in times of crisis will 
normally be in the Active component, with the National Guard providing 
depth in an extended conflict as well as forces to support Homeland 
Defense missions. In keeping with the 2014 Quadrennial Defense Review, 
the Department will continue efforts to achieve the appropriate end 
strength for all components to respond quickly and effectively, while 
not sizing the force for long-term stability operations.
    Mr. Enyart. DOD is recommending that we transfer all of the Apaches 
from the Guard to the active component and rumor has it that some of 
these Apaches will be placed in idle status once transferred. How can 
we maintain an operational reserve force if they don't have the same 
equipment to train with as their brothers and sisters in the active 
component?
    Secretary Hagel. First, the Army will reduce the total number of 
AH-64 Apaches by more than 120 aircraft to meet the Army's new 
acquisition objective of 690. This is in keeping with the Army's 
Aviation Restructure Initiative that will rebalance aviation force 
structure in order to maintain readiness and modernization under the 
Budget Control Act spending caps. The Army must concentrate the low-
density, high-demand Apache helicopter in the Active component where 
readiness and ability to deploy is greatest. The Apache helicopters 
that will transfer to the Active component will not be placed in idle 
status. Those aircraft will be repurposed to conduct the armed scout 
mission and replace the OH-58D Kiowa Warriors that are being divested 
of by the Army to save over $10 billion. The Army National Guard will 
maintain its entire fleet of CH-47 Chinook and UH-72A Lakota 
helicopters and will receive an additional 111 UH-60 Blackhawk 
helicopters.
    Second, transferring the Apache helicopters will not relegate the 
National Guard to being a strategic reserve. The Army will continue to 
rely on the National Guard for its capability, to include command and 
control, and the strategic depth it provides. Contrary to some public 
claims, UH-60 Blackhawk and CH-47 Chinook helicopters are combat 
aircraft and are essential for combat operations, while the UH-60 
medical evacuation aircraft and crews conduct heroic rescues on the 
front lines of combat. The experience and capability resident in the 
National Guard will continue to be essential to our Nation's defense at 
home and overseas, especially with our Regular force shouldering 
disproportionate reductions to its aviation forces.
    The differing organizational structure of each component is driven 
by the strategic and operational warplans and homeland defense 
requirements. The National Guard does not, and will not, look identical 
to the Active component, yet it is, and will remain, an effective 
fighting force. The Army National Guard will continue to be optimized 
with ``dual use'' equipment and formations that are capable of 
supporting States and Governors as well as Combatant Commanders when 
mobilized. The Apache helicopter does not have a role in Title 32 
missions. By contrast, the Blackhawk helicopter is vital to homeland 
missions such as disaster response and has flown more than any other 
combat aircraft in Iraq and Afghanistan.
    Mr. Enyart. The F/A-18 E and F Super-hornet and the E/A-18G Growler 
are made across the river from my district in St. Louis and employ 
thousands of folks from my region in Southern Illinois. Was the effect 
on the industrial base given thought to, when the budget was being 
constructed, not including funding for these two strategic platforms? 
Also, will we lose capabilities in the war fight by not having these 
fighters in production? What savings are being generated by not 
including the Super-hornet and Growler in DOD's budget?
    General Dempsey. Budget cuts will decrease production and R&D for 
many defense systems. For the tactical aircraft industrial base, the 
biggest concern is maintaining engineering design capabilities. To 
address this, the Department has initiated an Air Dominance Initiative 
(ADI) led by DARPA, with extensive participation from both the Navy and 
Air Force partnered with major tactical aviation industry suppliers. 
This ADI team is exploring concepts for the next generation of air 
dominance and undertaking prototyping efforts based on the results of 
concept exploration.
    We will not lose future capabilities based on a decrease in 
production. The Navy continues to manage its strike fighter inventory 
to ensure it meets future requirements. To mitigate delays in the F-35 
program, the Navy increased its procurement objective of F/A-18E/F from 
462 aircraft to 563 aircraft. Also, the Navy successfully extended the 
life of over 100 F/A-18A-D with its High Flight Hour Inspection program 
and is working to extend the life on another 100+ aircraft. Due to the 
additional F/A-18E/F inventory and extended service life on the F/A-
18A-D, the Navy believes there is sufficient life in its existing 
strike fighter inventory making any projected shortfall manageable 
until F-35 reaches full operational capability. Therefore, the Navy 
does not have a requirement to procure additional F/A-18E/F aircraft at 
this time.
    The Department determined that buying 24 additional Super Hornets 
would cost the Navy approximately $1.96 billion, and 22 additional 
Growlers would cost about $2.1 billion. When balanced against other 
higher priority programs with decreasing budgets, the Department cannot 
afford to procure additional F-18 E and F and EA-18G aircraft.
    Mr. Enyart. DOD is recommending reducing the end strength of the 
National Guard to at least 335,000 from a current end strength of 
350,000. After 12 years of war, I am a firm believer that the Guard is 
a battle-tested, cost-effective force capable of providing the surge 
capacity we need in time of conflict. Should not we be increasing the 
end strength of the Guard in the face of fiscal constraints?
    General Dempsey. Our National Guard has certainly proven itself as 
a capable and effective force. However, growing any part of the force, 
in this budgetary environment, is simply not feasible. We intend to 
maintain the Reserve Components as a full spectrum force capable of 
supporting their homeland defense and other important missions and 
balanced against COCOM requirements. We carefully weighed warfighting 
requirements to meet operational plans to help determine the right mix 
of active and reserve component forces as well as those missions best 
suited for each component.
    Mr. Enyart. DOD is recommending that we transfer all of the Apaches 
from the Guard to the active component and rumor has it that some of 
these Apaches will be placed in idle status once transferred. How can 
we maintain an operational reserve force if they don't have the same 
equipment to train with as their brothers and sisters in the active 
component?
    General Dempsey. The full details pertaining to the Army's Aviation 
Restructuring Initiative have not been finalized by the Department of 
the Army. Currently, no aircraft have been transferred from the 
National Guard to the Active Army under this proposal. Any transfers of 
aircraft that do ultimately occur will be done so in a way that best 
positions the Total Army to meet both its state and federal mission 
requirements.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. Mr. Secretary, it wasn't too long ago that I had 
someone, a senior civilian official in the Department of Defense, tell 
me that they believe the Department of Defense was (strongly) committed 
to another round of BRAC, would you agree with that statement?
    Secretary Hagel. Yes, I am strongly committed to another round of 
BRAC; this is why it is included in the budget request. Decreasing 
budgets underscore the requirement to eliminate excess infrastructure 
to avoid wasting resources maintaining unnecessary facilities--
resources that could be much better spent on readiness and 
modernization. The overhead cost to operate, maintain, and protect 
bases is substantial. In recent years, the Department has spent about 
$23 billion a year on facilities construction, sustainment and 
recapitalization. Other costs associated with operating military 
installations (e.g., utilities, custodial and refuse collection, 
environmental services, logistics, religious services and programs, 
payroll support, personnel management, morale, welfare and recreation 
services, and physical security) have averaged about $28 billion a 
year.
    The Department is significantly reducing force structure because of 
funding constraints. The Department needs to also reduce the overhead 
associated with that force structure. If the Department does not do 
this, readiness, modernization, and even more force structure will have 
to be cut.
    The projection is that the Department can achieve recurring savings 
on the order of $2 billion/year with another round. The Department 
expects to save enough during the 6-year implementation period that it 
would balance out during that timeframe. Programmatically, what is at 
stake is approximately $2 billion/year starting in 2024.
    Mr. Palazzo. That same individual told me that they knew that the 
Department of Defense was going to continue to take painful cuts from 
the military until BRAC was viewed as the lesser of two evils, would 
you agree with that statement?
    Secretary Hagel. Let me address that question from two 
perspectives. First, without BRAC and other efficiency initiatives, the 
Department will certainly have to take ``painful cuts'' elsewhere in 
the budget. Funding constraints are driving reductions in force 
structure, investment accounts and readiness. Without rationalizing 
infrastructure to force structure, the Department is forced to pay to 
maintain unneeded facilities.
    Second, without a BRAC, bases will face increasingly difficult 
challenges. Force structure reductions will result in reduced loading 
and emptier bases. Strained facilities sustainment budgets will worsen 
facility conditions, exacerbated by the need to maintain excess 
facilities. In essence, without BRAC or any other initiative to reduce 
infrastructure, bases will be increasingly hollowed out. Local 
communities will see economic benefits from all bases decrease to 
varying degrees. The Department must explore ways to address this 
situation, but without BRAC the options are far more limited.
    It makes the most sense to embark upon an analytical, transparent, 
apolitical process such as BRAC. BRAC will ensure the Department is 
fully utilizing the bases it keeps, and will turn over excess 
infrastructure to local communities for economic development.
    Mr. Palazzo. In your best judgment, and as a former Senator 
familiar with the mandatory spending accounts, how would you compare 
the rate of growth between mandatory spending and what we currently 
spend on our nation's defense? Would you say those are comparable?
    Secretary Hagel. Between Fiscal Years (FY) 2013 and 2021, which are 
the years impacted by the Budget Control Act (BCA), the President's 
Budget for FY 2015 proposes discretionary spending for base budget 
Defense programs, which results in outlays that grow at an average 
annual rate of approximately 1.5 percent. Outlays for mandatory 
programs grow at an average annual rate of approximately 6 percent over 
the same period.
    The modest annual growth for the Defense discretionary base budget 
under the President's Budget is bolstered by the President's Budget 
being approximately $150 billion above sequestration levels between FY 
2016 and FY 2021. This additional funding, combined with the relief 
from full sequestration provided in FY 2013, 2014, and 2015, is helpful 
in supporting military readiness and some modernization efforts; 
however, the Department could still see up to 80 percent of the 
original Budget Control Act sequestration level reductions of over $900 
billion, compared to the President's Budget FY 2012, if nothing is done 
to eliminate sequestration in FY 2016 and beyond.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. VEASEY
    Mr. Veasey. Secretary Hagel, thank you for being here today and 
thank you for your service to our country. I am concerned about the 
balance of forces between our Active Duty Army, Guard, and Reserve 
Components. Specifically, the data from the Army is using authorized 
end strength numbers for the Army National Guard. For the Active 
Component, why is the Army using the wartime surge number of 570,000 
instead of the authorized end strength number of 490,000?
    Secretary Hagel. The numbers used in calculating the percentage of 
reductions in end strength were taken directly from the authorized end 
strength in the National Defense Authorization Act for Fiscal Year 
2011.
    The downsizing of the Army began in Fiscal Year 2011, at which time 
the congressionally authorized end strengths were 569,400 Regular, 
358,200 Guard, and 205,000 Reserve. The President's Fiscal Year 2015 
budget request supports force levels of 440,000-450,000 Regular, 
335,000 Guard, and 195,000 Reserve by the end of Fiscal Year 2017. From 
a Fiscal Year 2011 baseline, those force levels represent force 
reductions of about 120,000-130,000 Regular (-21 to 23 percent), 23,000 
Guard (-6 percent), and 10,000 Reserve (-5 percent).
    In comparison to pre-war levels the National Defense Authorization 
Act for Fiscal Year 2000 authorized Army force levels of 480,000 
Regular, 350,000 Guard, and 205,000 Reserve. If Fiscal Year 2000 
authorized end strengths were to be used as the baseline for Army force 
reductions associated with the President's Fiscal Year 2015 budget 
request, military personnel reductions would be 30,000-40,000 Regular 
(-6 to 8 percent), 15,000 Guard (-4 percent), and 10,000 Reserve (-5 
percent) by the end of Fiscal Year 2017.

                                  [all]
</pre></body></html>
